<html>
<title> - NATIONAL TRAILS BILLS</title>
<body><pre>[Senate Hearing 107-522]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-522

                         NATIONAL TRAILS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 213                                H.R. 37

                           S. 1069                               H.R. 834

                           S. 1946                               H.R. 1384



                                     
                               __________

                             MARCH 7, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources

80-375              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                      David Brooks, Senior Counsel
                 Jim O'Toole, Professional Staff Member


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Begaye, Kelsey, President of the Navajo Nation, Window Rock, AZ..    22
Bower, Dru, Vice President, Petroleum Association of Wyoming, 
  Casper, WY.....................................................    44
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     3
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     4
Hatch, Hon. Orrin, U.S. Senator from Utah........................     7
Hearty, Patrick, National Trails Committee Chair, National Pony 
  Express Association, South Jordan, UT..........................    34
Henry, Shane, Assistant for Lands and Energy, Colorado Department 
  of Natural Resources...........................................    25
Levin, Hon. Carl, U.S. Senator from Michigan.....................     9
Stevenson, Katherine, Associate Director, Cultural Resources 
  Stewardship and Partnerships, National Park Service............     6
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     2
Watson, William C., Co-Chair, Trails Liaison Committee, Oregon/
  California Trails Association, Orinda, CA......................    26
Werner, Gary, Executive Director, Partnership for the National 
  Trails System, Madison, WI.....................................    38

                                APPENDIX

Additional material submitted for the record.....................    57

 
                         NATIONAL TRAILS BILLS

                              ----------                              


                        THURSDAY, MARCH 7, 2002

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:57 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. The Subcommittee on National Parks is in 
order. The purpose of this afternoon's hearing before the 
Subcommittee on National Parks is to receive testimony on 
several bills dealing with the National Trails System. The 
bills that we will consider today include S. 213 and H.R. 37 to 
amend the National Trails System Act, to update the feasibility 
and suitability studies of four national historic trails, and 
provide for possible additions to such trails; S. 1069 and H.R. 
834, to amend the National Trail System Act to clarify Federal 
authority relating to land acquisition from willing sellers, 
for the majority of the trails in the system, and for other 
purposes; S. 1946, to amend the National Trails System Act to 
designate the Old Spanish Trail as a National Historic Trail, 
and H.R. 1384, to amend the National Trails System Act to 
authorize a study of the Long-Walk route in New Mexico and 
Arizona to determine its suitability for inclusion in the 
National Trails System.
    During the last Congress, we were able to designate the 
first National Historic Trail in Hawaii, called the Ala 
Kahakai. I know from my own experience that designation of a 
national trail can help draw attention to the historical facts 
associated with the trail, as well as help educate the public 
about the culture and people associated with the trail's 
history. I know the proponents of the trails we will be hearing 
about today have a similar feeling regarding their respective 
trails.
    For the most part, these bills are non-controversial, and I 
hope that we can move them quickly through the committee and 
the Senate this Congress. Two of the bills have passed the 
House of Representatives with broad bipartisan support, and the 
other two have the strong support of their congressional 
delegations. I understand that there are some concerns with two 
of these bills, and I look forward to working with those 
Senators to see if we can address their concerns and move ahead 
with this legislation.
    I now ask for the statement from our ranking member, 
Senator Thomas.

        STATEMENT FROM HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Certainly, the trail subject is one of 
importance to all of us. I have some concerns about a couple of 
these proposals that are before us today, specifically with 
respect to the willing buyer/willing seller amendment, which 
basically fails to address the idea of how much acreage would 
be involved, what would be the cost of the authorization, the 
location, and the interest owned by the willing sellers, which 
I think really ought to be known before we pass something of 
this magnitude; but perhaps we can find a way to fix it.
    I am a little reluctant, of course, to be concerned about 
any of these. We have had great success stories with the 
National Trail System in my State. Dru Bower, who is vice 
president of the Wyoming Petroleum Association, is here today 
to testify, and talk about some of the cooperative endeavors we 
have had between trails and multiple users, and such.
    However, we have had a few problems. For instance, we have 
had a BLM proposition in Wyoming to protect the 5-mile buffer 
zones on either side of the trail; and frankly, I was concerned 
about that, and resisted it to some degree. Thankfully, that 
has been rescinded this week, but the problem is it bounces 
back from time to time, and it really makes it tough to do when 
there are those kind of restrictions in place.
    So in any event, we hope we can find a way to move forward 
with these issues. We have quite a few trails in Wyoming, and I 
think we have to be thoughtful about where we want to be when 
this is all over in terms of the impact we have made on them. I 
look forward to the testimony of the witnesses. Thank you.
    [The prepared statement of Senator Thomas follows:]

   Prepared Statement of Hon. Craig Thomas, U.S. Senator From Wyoming

    Thank you Mr. Chairman for holding this hearing today, and I would 
also like to welcome the Administration's representatives and the 
witnesses to today's subcommittee hearing.
    Mr. Chairman, it is not often that I take issue with legislative 
proposals that are under consideration by this subcommittee. Our 
process has allowed many controversial bills to proceed through the 
full committee because of our bipartisan work together to forge 
compromise and accommodation.
    I do have some concerns with two sets of legislative proposals that 
are under consideration today. The first, are the ``willing seller'' 
bills (S. 1069 and H.R. 834).
    While some of the trails in question share some of the identical 
routes and space that other nationally designated trails which have 
provisions for ``willing sellers'', this proposal fails to address:

  <bullet> the acreage that may be involved;
  <bullet> the cost of the authorization;
  <bullet> the location of the lands and interests owned by the willing 
        sellers;
  <bullet> or any information on how many willing sellers we are 
        talking about.

    Now I am fully aware that the subsequent trails to these eight, 
reported and passed by this committee, lack the same information--I am 
inclined to amend this bill in the committee markup to rectify what I 
consider an oversight on more recently created trails, at least within 
the boundaries of Wyoming.
    I say this somewhat reluctantly. We have had some great success 
stories with the National Trails System in my State. Dru Bower, Vice-
President of the Wyoming Petroleum Association is here with us today 
and she is more than capable of explaining to the subcommittee some of 
the cooperative endeavors and true success stories that the industry 
and trail advocates have forged. Unfortunately, she can also describe 
some of the difficulties she and her colleagues have encountered along 
the trail routes.
    Recently the Bureau of Land Management issued an ``instruction 
memorandum'' which presented guidelines to protect trails, including 
the equivalent of 5-mile buffer zones on either side of the historic 
routes. I found it necessary to appeal for the return of common sense. 
Thankfully, the memorandum was recended just this week. But, fear not--
there is still hope for those who advocate the five-mile buffer zones. 
Other land management agencies are contemplating five mile do-not-touch 
circles around any sage grouse habitant which just happens to be in the 
same vicinity of the trails. There appears to be no final solution to 
these issues.
    I might remind the Administration, the government owns a sufficient 
amount of land in my State. In fact, nation-wide, we really have no 
idea how much land is managed and controlled by government, if you 
include the State, county and cities along with the 8,506 other 
government management entities such as port authorities, fair grounds, 
etc. I imagine it would be a phenomenal statistic.
    On a more positive note, the historic trails across Wyoming fill 
pages of our country's history and should be celebrated, designated, 
and saved for us, our children and their children's children. But, no 
where in the underlying Act does it direct anyone to save every single 
inch or mile.
    If there is a willing seller in Wyoming and he or she is prevented 
from assigning, or selling a right-away, or major historic trail site 
to the managing trail entity--if I am made aware of the cost, the 
amount of acreage, and the rational for such an acquisition I will be 
more than glad to introduce legislation and do everything that I can to 
make sure the bill is enacted into law. On the other hand, I will draw 
the line across the trail, before I advocate a proposal to provide this 
or any other Administration unlimited land acquisition authority.
    Finally, both the Senate and House bills contain a quote, 
``conforming amendment'', unquote, which simply eliminates the 
provision which limits the number of federally funded visitor centers 
that may be built within a State. I see no reason to remove this 
limitation.
    Mr. Chairman, my good friends and colleagues, Senator Hatch and 
Senator Bennett, have introduced legislation which would update the 
feasibility and suitability studies of four national historic trails. 
After reviewing the National Park Service maps, I am not excited about 
this legislative proposal either.
    According to the map, the NPS would study potential trail additions 
in the only area of Wyoming that currently is free and clear of 
designated trails. With some work and a great deal of care and 
attention I may be persuaded to work on a compromise.
    Mr. Chairman, thank you for your patience and indulgence, I 
appreciate your attention to my concerns.

    Senator Akaka. Thank you very much, Senator Thomas.
    Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman.
    I am happy to be here. I am a big supporter of the trail 
system, and I would like to speak for a minute or two about one 
that is of particular importance to me this year, and that is 
the Old Spanish Trail.
    I think the first time I really got involved with this 
trail is when I was chairing the subcommittee about 7 years 
ago, Mr. Chairman. In 1995, I requested a feasibility study to 
determine whether the trail should be included, and its 
significance to the Nation. What so many others and I had 
already suspected was concluded in a recently published final 
study: that this trail does meet the criteria for a National 
Historic Trail, and that it is both feasible and desirable to 
designate it as such, and I say that in quotations.
    I would also like to welcome my fellow Coloradan, Shane 
Henry, who is here to testify on the importance of this bill. 
Mr. Henry has worked on the Old Spanish Trail for a good number 
of years, and is active with the Old Spanish Trail Association 
of Colorado, which is one of the most active in the country in 
getting this trail designated as a National historic trail, and 
I look forward to his testimony.
    Many of us in the West have known about this trail for 
years. Certainly my friend, colleague, and neighbor, Senator 
Domenici, has and has also worked on this issue. We have heard 
stories of the men and the women of all ethnic backgrounds who 
used the trail as a commercial and migratory route through the 
West. This designation of the Old Spanish Trail ensures that 
the entire Nation can appreciate the rich history that the 
trail represents.
    The Old Spanish Trail was the most heavily used before the 
expansion of the railroads that brought so many people to the 
West. The trail was initially developed by Native Americans and 
Hispanics in the region, but was soon used by explorers, 
trappers, prospectors, immigrants, and a number of other 
people. The Trail was even used by the Mormons in 1847 as a 
wagon route while traveling between Salt Lake City and Los 
Angeles.
    As I mentioned, the Old Colorado Old Spanish Trail 
Association has worked diligently on the promotion of this 
trail for several years. Their knowledge on the Trail and its 
history can't be rivaled, and certainly exceeds mine. But in 
preparing for this hearing, I did ask them to submit their 
testimony, and I now ask them, Mr. Chairman, if we can include 
that as part of the record, so that their work can be 
recognized.
    Senator Akaka. It will be included in the record.
    Senator Campbell. I also understand that the Association of 
the National Parks Service has suggested some technical 
amendments to the bill, and as we move forward in the 
legislative process, and as a member of this committee, I am 
certainly happy to consider these changes. And I also 
understand that the Department of Interior recognizes that the 
Trail should be officially recognized, but due to fiscal 
concerns, the Department requests no designation at this time.
    I have to tell you, I have waited seven years for this, as 
many of us have. And I happen to think it is the time. And I do 
not think that simply making the designation is going to incur 
any substantial cost in doing so. The people of my State, and, 
indeed, the country, have waited long enough. The Old Spanish 
Trail stands as a benchmark of the Old West. The Trail's 
designation will add to the scholarship and appreciation of 
that critical developmental time in the history of our great 
nation. Thank you for the time, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Campbell.
    Senator Domenici.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Domenici. Mr. Chairman, thank you very much for 
holding this hearing. I want to especially welcome the 
president of the Navajo Nation, President Begaye; he is in the 
back. Would he come up and sit a little closer to us, perhaps 
pull a chair up there at that table? This is the president of 
the Navajo Nation and he comes here to testify. I wanted to 
welcome him to the Senate.
    Today, this subcommittee has before it two pieces of 
legislation that are of particular significance to our State. 
The first is the Long Walk National Historic Trail Study Act, 
which was passed by the House, and the second is the Old 
Spanish Trail National Historic Trail Act, which I co-
sponsored. Let me take a moment and discuss the significance of 
each of these. In the late 1800's, Colonel Kit Carson led an 
army raid on the Mescalero Apache and Navajo Tribes in New 
Mexico, and over 400 Apaches and 7,000 Navajo Indians were 
forced to march over 350 miles to Bosque Redondo during the 
winter of 1864. This has come to be known as ``The Long Walk.'' 
This forced relocation effort failed, and after nearly 3 years, 
the Mescalero and Apaches were allowed to go back to their 
homeland. And in 1868, the army finally admitted the failure of 
the Bosque Redondo and the Navajo people negotiated a treaty 
with the Government, acknowledging their sovereignty over their 
beloved homelands.
    A century later in 1968, a portion of Fort Sumner, and the 
Bosque Redondo reservation, were declared a New Mexico State 
monument. The present route tells a significant story, and I 
firmly believe we should study and consider it for potential 
addition to the National Trails System. Of equal importance to 
New Mexico is S. 1946, the Old Spanish National Historic Trails 
Act. Last year, I introduced that bill. There is a history to 
what happened to it last year, and I have remarks that are 
already in the record from other Senators, so I will not 
repeat. But I will ask you to make my remarks a part of the 
record at this point.
    Senator Akaka. Without objection, they will be made a part 
of the record.
    Senator Domenici. I thank you very much, Mr. Chairman.
    [The prepared statement of Senator Domenici follows:]

       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    Mr. Chairman, thank you for holding this important hearing today 
and I especially want to welcome President Begaye of the Navajo Nation.
    Today, this subcommittee has before it two pieces of legislation 
that are of particular significance to New Mexico. The first is the 
Long Walk National Historic Trails Study Act, which was passed by the 
House and the second is the Old Spanish Trail National Historic Trail 
Act, which I have co-sponsored.
    Let me take a moment and discuss the significance of each of these 
to New Mexico. In the late 1800's, Colonel Kit Carson led an army raid 
on the Mescalero Apache and Navajo Tribes in New Mexico. Over 400 
Apaches and over 7,000 Navajos were forced to march over 350 miles to 
Bosque Redondo during the winter of 1864. This has come to be known as 
the ``Long Walk''.
    This forced relocation effort failed and after nearly three years, 
the Mescalero Apache were allowed to go back to their homeland. In 
1868, the army finally admitted the failure of the Bosque Redondo, and 
the Navajo negotiated a treaty with the government acknowledging their 
sovereignty over their beloved homelands.
    A century later, in 1968, a portion of the Fort Sumner and the 
Bosque Redondo Reservation was declared a New Mexico State Monument.
    Mr. President, this route tells a significant story and I firmly 
believe we should study and consider it for potential addition to the 
National Trails System.
    Of equal importance to New Mexico is S. 1946, the Old Spanish 
National Historic Trail Act. Last year, I introduced a bill that would 
have designated the Old Spanish Trail as a National Historic Trail. 
When I introduced that bill, we were waiting for the Administration to 
complete its work on a final study. Before the study was completed, 
Senator Campbell wrote a personal note to me asking that I work with 
him on a new bill incorporating the new study. We introduced that bill 
on February 14 and I want to commend you for holding such a prompt 
hearing on our legislation.
    As with my original bill, this legislation will amend the National 
Trails System Act and designate the Old Spanish Trail; which originates 
in Santa Fe, New Mexico and continues to Los Angeles, California as a 
National Historic Trail.
    It has been 150 years since the first settlers embarked on their 
western journeys via the Old Spanish Trail. Citizens who settled in the 
West came from all walks of life and have deep rooted cultural and 
historic ties to land throughout the west. Since 1829, The Old Spanish 
Trail has served many, from trade caravans to military expeditions. For 
twenty plus years the Old Spanish Trail was used as a main route of 
travel between New Mexico and California. Further, it is a symbol of 
the commercial exchange that made development and growth popular, not 
only in the West, but throughout the country.
    This trail is of great significance today because of the role it 
played in the movement of civilization westward. Designating this trail 
as part of the National Trails System will preserve this treasure for 
our future. I am happy to have co-sponsored this piece of legislation 
that will preserve the route of the trail and I urge this committee to 
act on the bill expeditiously.

    Senator Akaka. Thank you very much, Senator Domenici.
    May I call from the administration, Katherine Stevenson, 
Associate Director, Cultural Resources Stewardship and 
Partnerships, National Park Service, Department of the 
Interior. Would you come forward?

STATEMENT OF KATHERINE STEVENSON, ASSOCIATE DIRECTOR, CULTURAL 
 RESOURCES STEWARDSHIP AND PARTNERSHIPS, NATIONAL PARK SERVICE

    Ms. Stevenson. Thank you, Mr. Chairman.
    Senator Akaka. Thank you. You may proceed with your 
statement.
    Ms. Stevenson. Thank you very much. Thank you for the 
opportunity to present the views of the Department of the 
Interior on S. 213, S. 1069, H.R. 1384, and S. 1946. With your 
permission, I would like to submit my statement for the record, 
and summarize my remarks.
    Senator Akaka. Without objection, it will be submitted.
    Ms. Stevenson. Thank you. S. 213 would amend the National 
Trail System Act to update the feasibility and suitability 
studies of the Oregon, California, Pony Express, and Mormon 
Pioneer National Historic Trails. If authorized, Interior would 
examine additional routes and cutoffs not included in the 
initial studies of all four trails.
    At the conclusion of the study, the Secretary would 
determine if any of these routes and cutoffs are eligible as 
additions to the National Historic Trail system. Further, 
legislation would authorize the Secretary to authorize any 
routes and cutoffs found eligible.
    The Department supports the proposed legislation but has 
not requested funding for this work in 2003. Instead, we 
believe that any funding requested should be directed at 
completing previously authorized studies. Would you like me to 
stop here?
    Senator Akaka. Thank you. Would you hold up for a few 
minutes? Now, I would like to call our two good friends, 
Senators Hatch and Levin, who have arrived for their statements 
to the subcommittee.
    Senator Hatch.

          STATEMENT OF HON. ORRIN HATCH, U.S. SENATOR 
                           FROM UTAH

    Senator Hatch. Well, thank you, Senator Akaka.
    I appreciate your courtesy to us. Mr. Chairman and members 
of the committee, thank you for holding this hearing on S. 213. 
This bill would allow the National Parks Service to update the 
Pony Express, the Oregon, the California, and the Mormon 
National Historic Trails to include variant routes taken by the 
early pioneers of the West.
    When the National Trail System Act established the Oregon 
and Mormon Trails in 1978, they defined these trails as, quote, 
``point-to-point,'' meaning that a single departure point had 
to be chosen, as well as a single destination. The Act allowed 
few variations from the line that was drawn between these two 
places. That needs to be changed.
    The Mormon Trail was defined as the route taken by Brigham 
Young in 1846 through Iowa to the Salt Lake Valley. The Oregon 
Trail was defined as the route taken by settlers from 
Independence, Missouri, to Oregon City, from 1841 to 1848. 
Unfortunately, we have come to recognize that this rigid 
definition precludes designation of some very important 
historical sites.
    In 1992, Congress passed an amendment to the California and 
Pony Express National Historic Trails, which broadened the 
statute to include the possibility of trail variants, but only 
for the California trail. This latitude ought to be extended to 
other trails, as recognized in S. 213.
    These trails are the highways of our history, Mr. Chairman. 
They are central to the great story of the West, but 
unfortunately, because of the confining, quote, ``point-to-
point'' wording now found in the Trail's Act, many crucial 
parts of the story are not being told. Not every pioneer 
embarked on his journey from Omaha or from Independence, and 
not every great or tragic event took place along the main 
routes.
    To the contrary, tens of thousands of settlers set out from 
other places; and many of the memorable, if not most important 
events occurred along historical side roads and alternative 
routes and alternate routes that were chosen because of 
inclement weather, lack of water, and conflicts with Native 
American tribes at that time, among other reasons. Now, Mr. 
Chairman, I would like to talk briefly about the Martin and 
Wooly Hancock companies, which consisted of pioneer families 
destined for Utah. Both companies departed from Iowa City in 
1856; however, because of larger than expected group sizes and 
a shortage of handcarts and tents, they left later in the year 
than was usual.
    At first they made excellent time, but delays along the 
route turned their trek into a race against the coming winter. 
These two companies were about 100 miles apart, but both 
experienced similar delays which led to food shortages and to 
their being caught in freezing, inclement weather.
    Winter that year came a month early, and by the time they 
reached Wyoming, both companies were brought to a halt by sub-
zero temperatures and snow up to 18 inches deep; they were 
trapped. What little food they had disappeared.
    Mr. Joseph Simmons, one of these pioneers, described the 
dire situation in a letter to a friend. He wrote, ``One old 
lady lay dead within 20 feet of me, babies crying, some 
singing, some praying. Almost every day angry storms arise, 
very threatening, and judging from their appearance, one would 
think that we should be unable to withstand the tempest. The 
suffering from the camp from frozen feet and various other 
causes, I will not attempt to describe. Suffice to say bad, 
bad, bad.''
    In Salt Lake City, on the eve of the Mormon General 
Conference, Brigham Young received word of the possible plight 
of these immigrants. The next morning from the pulpit, he 
called immediately for a mighty rescue effort. He informed the 
congregation that a hot baked potato was something more 
important than all the prayers in the world. That day began one 
of the most massive rescue efforts in the history of the 
American West.
    Despite their efforts, more than 200 people, or one-sixth 
of the companies, died, and dozens more were maimed from frost 
bite. One of the rescuers, Mr. George Grant, wrote the 
following. ``Imagine 500, 600 men, women, and children worn 
down by drawing handcarts through snow and mud, fainting by the 
wayside, falling, chilled by the cold, children crying, their 
limbs stiffened by the cold, their feet bleeding, and some of 
them bare to snow and frost. The sight is almost too much for 
the stoutest of us, but we go on doing all we can, not doubting 
or despairing.''
    This, and many other experiences and general accounts, 
document the heartbreaking experiences of the two companies and 
their rescuers. Unfortunately, the location of these events is 
not now included on the Mormon Pioneer Trail. It would be 
tragic, Mr. Chairman, to allow this story and others like it to 
slip through the cracks because of the strict interpretation of 
the National Trails System Act.
    Since the original passage of the Trails Act, the Parks 
Service has conducted endless hours of research and now has a 
more accurate picture of the story of our Western pioneers. 
There has been a great deal of support shown by State and local 
communities who want to broaden the act to include this new 
knowledge; however, the Parks Service has determined that 
legislation is required to do this.
    I understand that Dru Bower, with the Petroleum Association 
of Wyoming, will testify later regarding her concerns with how 
the designation of historic trials might impact this industry. 
I would like to state for the record that I share her concerns, 
and we will work together to resolve them.
    My legislation is an attempt to capture important parts of 
our history in the West. It is not intended in any way to 
impact private lands or the development of our natural 
resources on public lands.
    Mr. Chairman, I thank you and the members of this committee 
for holding this important hearing today. I urge you to allow 
this legislation to be marked up in the near future.
    I would like to acknowledge Mr. Patrick Hearty, who is the 
National Trails Chair for the National Pony Express 
Association, who is here today. We are grateful to have him 
here today and I hope that you can help us on this, because it 
would really, I think, solve some problems for those of us who 
love the history of the West, those of us who would like to 
love the history of the West and understand it even further, 
and as a memorialization of all those who suffered so much, and 
who helped to build this country the way they did. Thank you.
    Senator Akaka. Thank you, Senator Hatch, for your statement 
and a bit of history.
    Senator Hatch. Well, thank you.
    Senator Akaka. Thank you very much.
    Senator Hatch. If you will forgive me, I think I will get 
out of your hair then, unless you have any questions.
    Senator Akaka. Senator Levin.

          STATEMENT OF HON. CARL LEVIN, U.S. SENATOR 
                         FROM MICHIGAN

    Senator Levin. Thank you, Mr. Chairman, Senator Thomas. 
Thank you for holding this hearing today.
    I am here to speak on behalf of legislation which would 
allow the Federal Government to purchase easements, basically, 
along our trails from willing sellers. Our national trails act 
is inconsistent in this regard. Many of our trails have the 
willing seller provision in it, but some of our trails, our 
scenic and historic trails, do not have the authority to 
purchase from willing sellers.
    There is no logic to it, particularly, but that is the way 
it is. And unless we adopt a law which permits the Federal 
Government to purchase the land and the easements from willing 
sellers, we are going to find impediments that exist in some of 
our trails which do not exist in other of our trails.
    We have nine scenic and historic trails which do not have 
that opportunity for, again I emphasize, willing sellers to 
sell easements and property to the Federal Government, that is 
trying to put together these trails.
    I am here particularly, because of my interest in the North 
Country Trail. It is a 4,600-mile trail that crosses seven 
States; it's about half in. There are places where it would be 
desirable to acquire an easement from a willing seller, or to 
purchase, for instance, a historic property that might be in 
jeopardy from a willing seller, such as the type that Senator 
Hatch just described. But I want to just emphasize two points.
    This trail covers seven States. It is important, I think, 
to the people of the Nation, not just to these seven States, 
that we have this trail. It would be the longest--I believe the 
longest trail in the country when it is completed. It will not 
be finished in our lifetime and it will not be finished 
probably in our children's lifetime. Some day, though, there 
will be a 4,600-mile trail covering these States where people 
can walk, or hike, or bike.
    I cannot see any reason, any philosophical reason why we 
should not allow a willing seller to sell an easement to the 
Federal Government. I can understand the argument against 
imminent domain, but where we have a trail which has been 
adopted, in law, that crosses seven States, where a willing 
seller is willing to sell an easement, for instance, to the 
Federal Government so that the trail would be safer, I do not 
see any reason why we should not permit that seller to sell 
that easement.
    In a sense, this is not just a trail's bill that we are 
proposing here, which will allow us to complete the 4,600-mile 
trail more readily that is, again, about half in; this is kind 
of a property rights bill. Under current law, half our trails 
do not permit a willing seller to sell his easement or his land 
to the Federal Government. They say, ``Sorry, you are willing 
to sell.''
    We are not talking eminent domain; I emphasize that. You 
are willing to sell your easement or whatever to the Federal 
Government; it needs it to complete the trail. Half our trails 
have that authority, half do not; totally illogically, to 
differentiate, but that is the way the current law is. And 
unless we correct the law and unless this committee reports a 
bill out, or we can otherwise legislate in this area, we have 
this unusual circumstance where we have these scenic and 
historic trails on the one hand, including the North Country 
Trail, where the Federal Government cannot buy from a willing 
seller, and then we have all of our other trails, where the 
Federal Government can buy from a willing seller.
    So I would hope that that anomaly would be corrected by 
this committee, that we would permit all of our trails to have 
the power not to condemn, but to acquire from a willing seller. 
It is that simple, I hope. Maybe I have oversimplified it, but 
I think it is that simple a picture.
    Senator Akaka. Thank you very much.
    Senator Levin. Thank you all.
    At this time, we would like to have Katherine Stevenson 
back at the table, and please continue with your statement.
    Ms. Stevenson. Thank you, Mr. Chairman. I would like to 
move on to S. 1069 and H.R. 834, which would clarify Federal 
authority relating to land acquisition from willing sellers for 
the majority of trails in the National Trail System. The 
Department supports enactment, with technical amendments. The 
core authorities in the Trail System Act direct how to 
establish nationally significant trails. In 1968, when the act 
was passed, the trails designated did not foresee any need for 
their Federal partners to acquire land. This was also true for 
trails designated in the period of 1978 to 1983, as amendments 
to the act; therefore, none of the nine trails has the 
authority to use Federal funds for any land outside Federal 
boundaries.
    Since 1983, the pattern has been somewhat different. The 
supporters and the sponsors have agreed on willing seller 
authority that provides authority for the Federal Government to 
acquire important trail lands, if the owner consents. We agreed 
that this authority would provide much needed protection for 
high potential trail segments.
    H.R. 1384, the Long Walk Trail Study bill, proposes to 
amend the National Trail System Act to designate for study the 
route in Arizona and New Mexico, which the Navajo and Mescalero 
Apache tribes were forced to walk in 1863 and 1864. The 
Department supports the bill but has not requested funding for 
2003, as I explained earlier.
    There are projects underway to commemorate various aspects 
of this history. No. 1, plans are underway for a memorial and 
visitor center at Fort Sumner State Monument, and matching 
funding is authorized for this purpose from the Department of 
Defense.
    No. 2, the National Parks Service is authorized to work 
with the Navajo and Mescalero Apache tribes to develop a 
symposium and curriculum for New Mexico schools. The study must 
identify options for commemoration, protection, and 
interpretation in close collaboration with the tribes, the 
State, and other interested parties.
    Finally, S. 1946 proposes to designate the Old Spanish 
Trail as a national historic trail. The Department thanks 
Senator Campbell for his continued support and interest in 
support of the Old Spanish Trail. The administration 
recommends, however, that the Congress defer action on 
designating any new areas until more progress has been made in 
addressing the maintenance backlog and on existing National 
Parks Service areas. The National Parks Service has completed 
the feasibility and suitability study for this trail, and has 
transmitted it to Congress, as Senator Campbell mentioned, in 
the early part of February 2002.
    This concludes my testimony. I would be happy to answer any 
questions you might have.
    Senator Akaka. Thank you very much.
    [The prepared statements of Ms. Stevenson follow

    Prepared Statements of Katherine Stevenson, Associate Director, 
Cultural Resources Stewardship and Partnerships, National Park Service 
    on S. 1946, S. 213 and H.R. 37, S. 1069 and H.R. 834, H.R. 1384

                                S. 1946

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1946, a bill to amend the National Trails System 
Act to designate the Old Spanish Trail as a National Historic Trail.
    The Department thanks Senator Campbell for his continued interest 
and support of the Old Spanish Trail. However, we recommend that the 
committee defer action on S. 1946 during the remainder of the 107th 
Congress. To meet the Administration's Initiative to eliminate the 
deferred maintenance backlog, we need to continue to focus our 
resources on caring for existing areas in the National Park System. 
Administrative costs for this trail are estimated to initially be 
$100,000 to $200,000 yearly increasing up to $750,000 or more each year 
once the trail is fully operational. Land acquisition costs are 
difficult to estimate since acquisition is subject to willing sellers 
and local cost comparables but typically in trails of this type little 
if any land is acquired. At such time as this legislation moves 
forward, we suggest that the bill be amended as outlined in this 
testimony.
    The National Park Service was authorized to study the Old Spanish 
Trail by Public Law 104-333, Section 402. The final study concluded 
that the trail met all national historic trail criteria as defined by 
the study provisions of the National Trails System Act (P.L. 90-543). 
The study was presented to the National Park System Advisory Board and 
the board concurred with the findings.
    The draft study released in July, 2000 included a finding that 
there was insufficient historical information to recommend designation 
as a national historic trail. During the comment period, the National 
Park Service continued to research trail history and consult with 
historians in the United States and Mexico. The designation 
determination was made based upon the theme of the ``Changing Role of 
the United States in the World Community'' with specific emphasis on 
the topic of commerce during the period 1829 to 1848, and the impacts 
of legal and illegal trade upon the American Indian nations along the 
trail.
    S. 1946 would add the Old Spanish Trail as a national historic 
trail component of the National Trails System. It would designate the 
primary route of the trail, the Armijo Route and the North Branch, 
along with some shorter variations of these routes, totaling 
approximately 3,500 miles. The trail begins in Santa Fe, New Mexico, 
and runs through the states of Colorado, Utah, Arizona, and Nevada, 
before ending in Los Angeles, California.
    The bill states that the trail would be administered by the 
Secretary of the Interior, through the National Park Service. As 
provided for in the National Trails System Act, on non-Federal lands, 
the trail would be established only when landowners voluntarily request 
certification of their sites and segments. No land or interest in land 
outside the exterior boundaries of any federally administered area may 
be acquired by the United States for the trail, except with the consent 
of the owner of the land.
    The Old Spanish Trail was the first viable overland trade route 
between Santa Fe, New Mexico and Los Angeles, California, the two most 
important provincial capitals in the Southwest in the early nineteenth 
century. New Mexican trader Antonio Armijo blazed the trail in 1829, 
when he led a caravan laden with New Mexico's woolen goods to Los 
Angeles to trade for horses and mules that were abundant on the ranches 
of southern California.
    News of Armijo's feat encouraged other traders to attempt the 
dangerous overland route. In 1830, two American traders blazed a more 
northerly route that followed river valleys through Colorado and Utah 
before reuniting with Armijo's route in Nevada. Over the next two 
decades, annual mule caravans carried goods from New Mexico to 
California over these variants of the Old Spanish Trail. The caravans 
returned with massive herds of horses and mules that were traded in 
Santa Fe for Mexican silver, that traders brought up the Camino Real, 
or American manufactured goods brought across the plains on the Santa 
Fe Trail. After the United States won control of the Southwest from 
Mexico, traders and emigrants found other, more accommodating, routes 
to California. By 1849, use of the Old Spanish Trail faded.
    Partnerships are essential for the preservation and interpretation 
of Old Spanish Trail resources, from trail remnants to archeological 
sites. With continued and ever-increasing public interest to help 
commemorate the trail, opportunities for partnerships are very 
promising. Organizations, such as the Old Spanish Trail Association, 
expressed their eagerness to help with the trail during the study 
process. Long-term success of the trail would depend on continued 
involvement from partners, landowners, other organizations, and 
individuals, as well as the States of New Mexico, Colorado, Arizona, 
Utah, Nevada, and California.
    In the future if the bill moves forward, we would recommend that S. 
1946 be amended by changing ``map'' to ``maps'' on page 2, line 8 and 
``A map'' to ``The maps'' on page 2 line 11. A total of nine maps are 
used in the Old Spanish Trail National Historic Trail Feasibility Study 
and Environmental Assessment to describe the location of the trail.
    Also, although the National Park Service completed the feasibility 
and suitability study, and would be pleased to administer the trail, 
there are many agencies involved in administering the lands that the 
trail passes through. For example, the Bureau of Land Management 
manages over 800 miles of the trail as it passes through Colorado, 
Utah, New Mexico, Arizona, and Nevada. We would suggest amending 
paragraph (C) to state that the trail will be administered by the 
Secretary of the Interior by striking ``acting through the Director of 
the National Park Service''. This will make the bill consistent with 
the National Trails System Act which specifies that the Secretary 
designate the agency to administer a trail.
    We appreciate the subcommittee's interest in this legislation.

                           S. 213 AND H.R. 37

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 213 and H.R. 37, bills that 
would amend the National Trails System Act to update the feasibility 
and suitability studies of the Oregon, California, Pony Express and 
Mormon Pioneer National Historic Trails (NHT).
    Both S. 213 and H.R. 37 would update the feasibility and 
suitability studies and make recommendations through the examination of 
additional routes and cutoffs not included in the initial studies of 
all four trails. The Secretary of the Interior would determine if any 
of these routes and cutoffs are eligible as additions to the four NHTs 
at the completion of these studies. Further, both bills would authorize 
the Secretary to make authorization of any of these additional routes 
and cutoffs if she found them eligible.
    The Department supports both bills. However, the Department did not 
request additional funding for updating these studies in Fiscal Year 
2003. We believe that any funding requested should be directed towards 
completing previously authorized studies. Presently, there are 40 
studies pending, of which we hope to transmit 15 to Congress by the end 
of 2002. New studies can eventually result in new designations, and we 
believe that it is important to focus our resources on working down the 
deferred maintenance backlog at existing parks. Of the studies underway 
during the ten-year period between 1989 and 1998, NPS has transmitted 
79 studies to Congress. These 79 studies resulted in 15 new NPS units, 
14 heritage areas, and 10 other types of designations or programs. To 
plan for the future of our National Parks, the Administration will 
identify in each study the costs to establish, operate, and maintain 
the site should it result in a future designation.
    The feasibility study for the Oregon NHT was completed in 1977, the 
study for the Mormon Pioneer NHT in 1978, and the one for the 
California and Pony Express NHTs in 1987. Since those studies have been 
completed, additional routes and cutoffs were identified, and may 
qualify as parts of these trails. The National Trails System Act makes 
no provision by which such additional routes and cutoffs may be 
evaluated and added to national historic trails.
    The Oregon NHT, authorized in 1978, commemorates the ``primary 
route'' used by emigrants beginning in 1841 between Independence, 
Missouri and Oregon City, Oregon. Traveled by thousands, the trail 
contained routes and cutoffs used through the years. These secondary 
routes had substantial emigrant traffic over several decades that 
demonstrate historical significance and may be worthy of examination in 
an updated study.
    The authorization of the Mormon NHT in 1978 commemorates the 
journey of the pioneer party in 1846-1847 from Nauvoo, Illinois to Salt 
Lake City, Utah. As with the Oregon NHT, emigrant traffic occurred on 
many additional routes during the Mormon migration westward. Similarly 
with the other trails, these routes are more often than not coincident 
or shared with one another. Preliminary data indicate traffic along 
those routes during the historic period and there are additional routes 
to be studied for these two trails.
    Authorized in 1992, the California NHT commemorates the gold rush 
to the Sierra Nevada. Dozens of routes and cutoffs were traveled by 
thousands of pioneers, but no single route dominated.
    The Pony Express NHT was included in the same authorizing 
legislation as the California NHT. It commemorates the efforts of this 
nation struggling to establish a system of communication across the 
Trans-Missouri west. The trail primarily follows routes beginning at 
St. Joseph, Missouri and ending in San Francisco, California. The firm 
of Russell, Majors, and Waddell, a western Missouri freighting company, 
set up and operated the Pony Express for one and a half years before it 
fell on hard times and ceased to exist. A short section of the trail, 
from the Missouri River into Kansas, maybe worthy of study and is 
included in both S. 213 and H.R. 37.
    All four trails overlap one another in many locations and several 
of the routes and cutoffs proposed for study in S. 213 and H.R. 37 are 
already part of designated trails. These shared routes are prominent 
where the trails depart from various points along the Missouri and 
Mississippi Rivers, particularly in the Kansas City, St. Joseph, 
Nebraska City, Council Bluffs and Omaha areas. Several other shared 
locations include routes in western Nebraska, Kansas, Colorado, 
Wyoming, Idaho, Nevada and California.
    The National Trail System Act requires that studies of lands 
proposed for trails be made in consultation with federal, state, and 
local agencies, as well as nonprofit trail organizations. Between 1994 
and 1999, the National Park Service--in collaboration with the Bureau 
of Land Management, USDA Forest Service, trail advocacy groups and 
others--completed the Comprehensive Management and Use Plan and 
Environmental Impact Statement (1999) for the four trails. This was the 
initial plan for the recently established California and Pony Express 
NHTs as well as revised plans for the earlier established Oregon and 
Mormon Pioneer NHTs. S. 213 and H.R. 37 would allow for the 
consideration of these additional alternates and cutoffs by authorizing 
an update of the original studies done for these four trails to 
evaluate which are eligible for designation as NHT segments. S. 213 and 
H.R. 37 would authorize the Department of the Interior to work closely 
with federal agencies, state, local and tribal governments, local 
landowners and other interested parties.
    Historic trails cross public and private lands and the intent of 
the National Trails System Act is one of respecting private property 
rights. In so doing, the development of strong partnerships is critical 
to administering and managing the historic trails and achieving 
preservation of trail resources and interpretation of the trail to the 
public. The four national trails in this legislation demonstrate 
existing public and private partnerships.

                          S. 1069 AND H.R. 834

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on S. 1069 and H.R. 834, identical bills, both of which would 
amend the National Trails System Act to clarify federal authority 
relating to land acquisition from willing sellers for the majority of 
the trails in the System.
    The Department supports S. 1069 and H.R. 834 with four technical 
amendments to the National Trails System Act included at the end of 
this testimony. These bills would amend the National Trails System Act 
to make the act's land protection authorities more uniform. It would be 
impossible to estimate funding requirements at this time, as the number 
of willing sellers is unknown and the cost of the land segments for 
each trail would vary due to geographic location. The Administration 
will identify the costs to acquire and maintain the land segments to 
each trail on a case-by-case basis.
    The National Trails System Act was developed by Congress 
principally to offer Federal assistance and support for protecting the 
land base of the Appalachian National Scenic Trail. When the act was 
passed in 1968, both the previously existing Appalachian and Pacific 
Crest National Scenic Trails were established as the two initial 
components of the National Trails System and 14 more trails were 
proposed for study as potential additions to the National Trail System. 
The core authorities of the act addressed how to establish nationally 
significant trails.
    Supporters of some of the subsequent trails, such as the North 
Country National Scenic Trail, did not feel that their Federal partners 
would need acquisition authority to complete their proposed trails. In 
addition, national historic trails being proposed at that time were 
seen as primarily commemorative with no need for acquisition authority. 
As a result, amendments were added to the National Trails System Act 
between 1978 and 1983 to ban the use of Federal funds for any trail 
corridor outside Federal boundaries for nine of the next trails 
established. This meant that none of these trails, including both 
scenic and historic trails, could complete trail authorizations.
    Since 1983, most of the trails established under the National 
Trails System Act have had language similar to the following clause: 
``No lands or interests therein outside the exterior boundaries of any 
federally administered area may be acquired by the United States for 
the Pony Express National Historic Trail except with the consent of the 
owner thereof.'' This ``willing seller authority'' provides a workable 
middle ground between the full land acquisition authority used to 
protect the Appalachian and Pacific Crest National Scenic Trails and 
the complete ban on acquiring lands for the next nine trails added to 
the system.
    S. 1069 and H.R. 834 would create consistent land protection 
powers, to the degree possible, for most of the component trails of the 
National Trails System. These bills are supported by a broad coalition 
of trail organizations across America.
    From its beginning, the National Trails System was premised on the 
establishment, operation, and maintenance of national trails as a 
collaborative partnership effort. For land protection, specifically, 
state governments and nonprofit partners are encouraged to protect what 
they can of the national trails, with the Federal government embarking 
on land acquisition only as a last resort. Many states assume national 
trail protection to be considered a Federal effort. Further, trail 
nonprofit partners have been encouraged to develop land trusts to 
acquire critical lands, but there has been limited success.
    For example, in Wisconsin, an arrangement was set up for the Ice 
Age National Scenic Trail under which the State of Wisconsin took the 
lead in acquiring trail lands, with support from the Ice Age Park and 
Trail Foundation and coordination by the National Park Service. 
However, this process has been cumbersome and slow while land values 
have escalated quickly near urban areas. Along historic trails, the 
major means of protecting the trail corridor has been through a 
voluntary certification process. These five-year renewable agreements 
between the Federal trail agency and the landowner have enabled trail 
sites and segments to remain in private ownership and use with some 
degree of public access. Such arrangements tend to be short term in 
nature and offer no long-term protection for significant sites.
    No national trails other than the Appalachian and Pacific Crest 
National Scenic Trails have land protection plans or pre-acquisition 
services (surveys, tract maps, inventories, priority lists) because the 
prohibition on using funds to acquire lands also meant that funds could 
not be expended for these activities. This has meant that when 
landowners wished to donate lands for these trails to the Federal 
government, such transactions could not occur.
    There is not a statistical inventory of trail sites and properties 
that have not been protected because of the lack of Federal funds for 
land protection. However, there are instances where lack of funding has 
meant that properties were sold to those uninterested in the trail, 
causing relocations, threatening the integrity and continuity of the 
trail, and in the instance of historic trails, threatening the loss of 
irreplaceable resources. Without the ownership mapping and other pre-
acquisition information in hand, Federal agencies and nonprofit 
partners have been unable to accept donations of lands and easements.
    If S. 1069 or H.R. 834 is passed, there will be at least five 
significant benefits for nearby residents and visitors to national 
trail corridors:
    1. More uniform resource protection and protection authorities 
among all the national trails.
    2. A more complete ``tool kit'' for Federal agencies and partners 
to help protect, as Congress intended, the significant cultural 
resources and natural areas associated with America's national trails.
    3. Full market value available to landowners who wish to sell lands 
for inclusion in national trails if neither state agencies nor 
nonprofit partners are able to acquire the land.
    4. Increased likelihood of moving dangerous on-road sections of 
national trails to safer, more appropriate off-road locations.
    5. Increased protection for historically significant sites and 
segments of national trails.
    The National Park Service has found that administering trails with 
the current limitations on types of land protection and with limited 
means to negotiate directly with landowners has meant that many of 
these trails are little more than ``paper trails.'' If the National 
Trails System is to operate as a system, certain authorities within the 
act should be applied with consistency. The two national trail 
designations established in 1968 and all of the trails established 
since 1983 have had authority to spend Federal funds on lands with the 
consent of the owner. S. 1069 and H.R. 834 strive to apply that same 
principle to the trails established between 1978 and 1983.
    The existing funding mechanisms for trail corridor protection of 
national trails are not enough to ensure that the trails will ever be 
completed or fully operational. Passage of willing seller authority 
will help establish parity among the trails and enable Federal trail 
administrators to use all the available authorities to complete the 
trails and trail corridors as they were originally designated.
    We recommend four technical amendments to the National Trails 
System Act, which correct a few spelling and other grammatical errors. 
These amendments are attached to this testimony.

            TECHNICAL AMENDMENTS TO H.R. 834 AND/OR S. 1069

    On page 7, after line 2, add the following new section:

SEC. 6. TECHNICAL AMENDMENTS TO THE NATIONAL TRAILS SYSTEM ACT.
    The National Trails System Act (16 U.S.C. 1241) is amended as 
follows:
    (1) In Section 5(c)(19) by striking ``Kissimme'' and inserting 
``Kissimmee'';
    (2) In Section 5(c)(40)(D) by striking ``later that'' and inserting 
``later than'';
    (3) In the first sentence of Section 5(d) by striking 
``establishment.''; and
    (4) In Section 10(c)(1) by striking ``The Ice Age'' and inserting 
``the Ice Age''.

                               H.R. 1384

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on H.R. 1384, a bill to amend the National Trails System Act to 
designate the route in Arizona and New Mexico which the Navajo and 
Mescalero Apache Indian tribes were forced to walk in 1863 and 1864, 
for study for potential addition to the National Trails System.
    The Department supports H.R. 1384, as passed by the House. However, 
the Department did not request additional funding for this study in 
Fiscal Year 2003. We believe that any funding requested should be 
directed towards completing previously authorized studies. Presently, 
there are 40 studies pending, of which we hope to transmit 15 to 
Congress by the end of 2002. New studies can eventually result in new 
designations, and we believe that it is important to focus our 
resources on working down the deferred maintenance backlog at existing 
parks. Of the studies underway during the ten-year period between 1989 
and 1998, NPS has transmitted 79 studies to Congress. These 79 studies 
resulted in 15 new NPS units, 14 heritage areas, and 10 other types of 
designations or programs. To plan for the future of our National Parks, 
the Administration will identify in each study the costs to establish, 
operate, and maintain the site should it result in a future 
designation.
    The Department testified on May 8, 2001 before the Subcommittee on 
National Parks, Recreation, and Public Lands, of the House Committee on 
Resources, that we could not support this bill as originally written. 
As introduced, H.R. 1384 designated the Navajo Long Walk as a national 
historic trail. However, the National Trails System Act, Public Law 90-
543, requires that a desireability and feasibility study be conducted 
and submitted to Congress before a trail can be established and a study 
has not been completed on this trail.
    H.R. 1384, as passed by the House, amends the National Trails 
System Act by authorizing a suitability and feasibility study on the 
series of routes which Navajo and Mescalero Apache Indian tribes walked 
beginning in the fall of 1863 as a result of their removal by the 
United States government from their ancestral lands, generally located 
within a corridor extending through portions of Canyon de Chelley, 
Arizona, and Albuquerque, Canyon Blanco, Anton Chico, Canyon Piedra 
Pintado, and Fort Sumner, New Mexico.
    The story of the Long Walk came at a time in U.S. history when the 
military was called upon to remove Indian people from their homelands. 
In the 1850's and 60's more and more Americans were moving west into 
New Mexico, home of the Navajo people. Repeated clashes resulted in the 
decision to move the Navajo away from their ancient homeland to a 
reservation and teach them farming and Western European standards of 
self-sufficiency. The army destroyed crops and orchards, starving the 
Navajo into submission. There were several successive marches of the 
Navajo through the cold of winter to the heat of summer. The aged and 
infirm often died along the way even though wagons were sometimes 
provided. Broken and dispirited after their defeat in their homeland, 
the Long Walk was particularly grueling and hard on all of the Navajo 
people, even those who survived.
    The destination of the Long Walk was a reservation at Fort Sumner, 
New Mexico, called Bosque Redondo (Round Grove), which was shared with 
Mescalero Apache people. More than 7,000-8,000 Navajo people were 
eventually placed on the reservation. Although seeds were provided and 
the Navajo planted them immediately, there was never any success in 
growing crops. Due to a lack of timber for both shelter and firewood, 
living conditions were poor. Additionally, the Navajo and Mescalero 
Apache did not get along and by 1866 the Apache had deserted the 
reservation. By 1868 conditions were so bad that a government 
commission was appointed to investigate the conditions at Bosque 
Redondo. General W. T. Sherman, commanding the Military Division of the 
Missouri, ordered the Navajo back to their homelands in June of 1868, 
after a treaty granting them their old homelands had been signed.
    The Long Walk Trail is located within a corridor that includes 
National Park System units at Canyon de Chelly National Monument in 
Arizona and Fort Union National Monument in New Mexico and Bureau of 
Land Management (BLM) managed lands in New Mexico including El Malapais 
National Conservation Area and Kasha-Katuwe Tent Rocks National 
Monument. The route the army followed went from Canyon de Chelly, 
Arizona, to south of Albuquerque, New Mexico. From there several routes 
continued directly and indirectly to the Bosque Redondo at Fort Sumner 
on the Pecos River.
    The story of the Long Walk is being told in a number of ways 
through the efforts of the State of New Mexico and the Navajo Nation. 
For a number of years, the Navajo people have made pilgrimages to the 
Bosque Redondo. Plans are currently underway for a memorial and visitor 
center at Fort Sumner State Monument. Legislation that passed in the 
106th Congress (Title II of P.L. 106-511) authorizes funding from the 
Defense Department to match state funds for the establishment and 
development of the memorial and visitor center. The legislation also 
authorizes the National Park Service to work with the Navajo Nation and 
the Mescalero Tribe to develop a symposium on the Long Walk and a 
curriculum for New Mexico schools.
    Any further federal involvement should consider more than whether 
or not the Long Walk has sufficient resources and integrity to meet the 
standards set for establishing National Historic Trails. A study should 
identify other options that best tell the story as well as identify the 
critical resources to that story. But most importantly, any work has to 
consider the concerns, values and wishes of the Native Americans 
affected by these tragic events.
    Therefore, while a study to determine the suitability of national 
historic trail designation may be an important part of preserving this 
story and sites, any authorized study should include sufficient 
latitude to determine if that is indeed the best way to accomplish the 
task.
    To that end, we are ready to work with the bill's sponsor, the 
State of New Mexico and the Navajo and Mescalero to determine the most 
appropriate action. That completes my testimony. I would be happy to 
answer any questions that you or any of the members of the subcommittee 
may have.
    That completes my testimony. I would be happy to answer any 
questions that you or any of the members of the subcommittee may have.

    Senator Akaka. Ms. Stevenson, the administration is 
requesting that the committee defer action on the bill 
designating the Old Spanish Trail, so that the Park Service can 
provide funding for the backlog of maintenance projects. Can 
you please share your thoughts, whether, from now on, the 
administration will be opposing all new designations, including 
new trails, park areas, or heritage areas?
    Ms. Stevenson. The Department is recommending at this point 
that we defer action on designating new areas until progress 
has been made on the backlog, and we anticipate that we will 
have measurement and progress before it is to the Congress, so 
that you can determine that we have made progress, and then we 
will be changing to recommend designations again.
    Senator Akaka. The Old Spanish Trail has been studied by 
the Park Service as required under the Trails Act. The Park 
Service's study finds that the trail meets the criteria for 
designation as a National Historic Trail. Recently, the 
President signed a bill establishing the Ronald Reagan Boyhood 
Home National Historic Site, even though no study of the site 
had been undertaken, as required by existing law. Can you 
please explain to me why the administration supported that 
designation, but opposes moving forward on the trail bill at 
this time?
    Ms. Stevenson. Actually, Mr. Chairman, the National Park 
Service and the Department supported a study bill for the 
Ronald Reagan boyhood home, and the Congress decided to 
designate it, and, of course, we follow the direction of 
Congress when they choose to designate a site.
    Senator Akaka. I would like to turn to the willing seller 
bill. If the land acquisition restrictions are removed for the 
nine trails addressed in the bill, does the Department have an 
estimate of how much land would be required for each trail?
    Ms. Stevenson. No, sir, we do not.
    Senator Akaka. In general, can you please describe what 
type of Federal land acquisition is involved for National 
Historic and National Scenic Trails?
    Ms. Stevenson. Ordinarily, what happens is that there is a 
small portion, usually of a trail, that is considered to be 
crucial for the continued development of the trail; and an 
owner will approach one of the Federal agency partners, and 
request that that portion be acquired by the Federal 
Government.
    In this case, since we have no authority to do that, we 
must turn down the willing seller. If we had the authority, 
then a very serious determination would be made of whether this 
was essential property to be acquired, and the practice has 
been in the past that the property is acquired, and then we 
determine to access property that is outside of the trail 
necessity. At least, that has been the practice in the past.
    Senator Akaka. May I ask you to provide the committee with 
a list, identifying how much land has been acquired by the 
Department for those trails which already have land acquisition 
authority?
    Ms. Stevenson. Yes, sir.
    [The information follows:]

 Land Acquired From Willing Seller Authority Response to Question From 
                     March 7 Hearing on Trail Bills
    Question. Would you please provide a list of the national scenic 
and historic trails that have land acquisition authority and the land/
acreage acquired from willing sellers along those trails?
    Answer. California and Pony Express National Historic Trails were 
authorized to acquire land from willing sellers in August 1992. No 
acreage has been acquired to date nor is any contemplated in the 
immediate future.
    Santa Fe and Trail of Tears National Historic Trails have not 
acquired any lauds or interests in lands from willing sellers. Ninety-
eight percent of the effort to complete these trails is devoted to 
voluntary certification of trail resources via negotiation with owners/
managers. Non-profit groups are encouraged to step in when sites are 
threatened. In order to foster grassroots management, Federal 
acquisition is considered as a last resort should other partners fail 
to intervene.
    El Camino Real de Tierra Adentro National Historic Trail is new and 
in the planning phase. No acquisition opportunities/needs have been 
identified.
    Juan Bautista de Anza National Historic Trail has had no direct 
willing seller activity along its length.
    Ala Kahakai National Historic Trail has had no willing seller 
activity along its length. According to the trail's feasibility study, 
the National Park Service will not initiate the acquisition of land for 
the trail. To date, no willing landowners have approached the trail 
office regarding land acquisition for the Ala Kahakai NHT.
    We refer to the Forest Service with respect to the trails that it 
manages.

    Senator Akaka. Would you do that? Thank you. I will ask 
Senator Thomas for any questions he may have.
    Senator Thomas. Thank you. I want to pursue the same bill, 
in the terms of willing buyer/seller. After the studies are 
made and the Parks Service makes its judgment, do they come 
back to the Congress with their proposal to buy?
    Ms. Stevenson. No, they do not come back to the Congress, 
but, of course, the Congress controls the appropriations, so we 
only can purchase when the Congress makes funds available, and 
we have taken that as tacit approval of our proposals for 
purchasing.
    Senator Thomas. But the funds are not made specifically for 
each parcel?
    Ms. Stevenson. It depends, but ordinarily not; you are 
correct, Senator.
    Senator Thomas. Ordinarily not. That is true. The Senator 
talked about easements, only?
    Ms. Stevenson. In some cases, yes; but not entirely.
    Senator Thomas. Are we talking about easements only?
    Ms. Stevenson. No, Senator, we are not.
    Senator Thomas. So we are talking about the ability of the 
agency to buy as much property as they feel like they want to 
buy, without coming to the Congress, and letting it go at that; 
right?
    Ms. Stevenson. In the case of the National Parks Service at 
least, and I will have to check with my colleagues, we can only 
purchase within the legislated boundaries of the National Parks 
Service, so we are not talking about just buying land willy-
nilly outside the boundaries.
    Senator Thomas. What about the rancher that says, ``I will 
sell it to you, but you have to buy my whole place''?
    Ms. Stevenson. Within the boundaries of the National Parks 
Service, that would be something we would look at seriously. As 
I have said before, we would also then consider whether that 
needed to stay whole and in part inside the park; although, I 
would venture to say----
    Senator Thomas. But not inside the park, generally, or not 
inside the park?
    Ms. Stevenson. Inside the authorized boundaries of the 
trail.
    Senator Thomas. That is all you can buy; what is inside the 
boundaries of the trail?
    Ms. Stevenson. Right now, all we can buy is what is inside 
the boundaries of the National Parks.
    Senator Thomas. What would this do?
    Ms. Stevenson. This would expand the authority.
    Senator Thomas. To what?
    Ms. Stevenson. To land that is authorized within the 
boundaries of the trail, but not within the boundaries of the 
National Parks.
    Is that correct?
    [Pause.]
    Ms. Stevenson. That is correct.
    Senator Thomas. Are you sure there are boundary limitations 
in here?
    Ms. Stevenson. Well, I do not think there is a specific 
boundary; in the sense of a line, no.
    Senator Thomas. You do not think there is a specific 
boundary in the bill either; is there?
    Ms. Stevenson. Not that I recall.
    Senator Thomas. So, I think it is a big mistake. I do not 
think--those of us who live in public land States, where 60 
percent of your State already belongs to the Federal 
Government--that even if it is a willing seller, without the 
approval or without a study that comes back to the Congress, I 
do not know why we would expect to just let the agency buy 
whatever they chose; do you?
    Ms. Stevenson. I certainly understand your point of view, 
Senator.
    Senator Thomas. Well, it is my point of view, and I feel 
very strongly about it. It could be easements, or it could also 
be fee simple.
    Ms. Stevenson. It could be.
    Senator Thomas. Let me go to S. 213. Here, again, the 
studies are made for areas that are off the trail but are 
related to the trail, apparently.
    Ms. Stevenson. Well, I think what has happened is that when 
the original studies were done, they did not consider the 
cutoffs, and the other portions of the trail that are 
considered--now understood as significant to the trail, and 
originally were not so understood.
    Senator Thomas. Martin's Cove, as the Senator mentioned, is 
in Wyoming, as a matter of fact. It is not a cutoff at all. It 
is an addition, that's off the trail, some 1,600 acres, I 
believe. Then under the bill, what, would there be a study and 
a return to the Congress to approve?
    Ms. Stevenson. Actually, the bill, as written, does not 
require return to the Congress. It requires a study and a 
designation, if the Secretary believes that it has merit.
    Senator Thomas. I see. I guess I am a little edgy about the 
idea of leaving the agency with the full authority to purchase 
lands. After doing a study and coming back and making their 
report, that is fine. But this one, as you know, has been 
controversial in that the Mormon Church has wanted to buy the 
property, and that has raised a considerable amount of 
consternation among people in Wyoming.
    It is BLM property now, and I presume that's what this bill 
is about. I would think that we perhaps could make it usable, 
if we could get some sort of congressional approval on these 
significant sort of changes.
    Ms. Stevenson. Actually, Senator, I am not aware of that 
purchase, but you may be right.
    Senator Thomas. Thank you.
    Senator Akaka. Thank you very much, Senator Thomas.
    Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman.
    I have several questions on the Spanish Trail and some 
broader questions, too. I am a little confused, Kate. The 
Department is unwilling to designate, to support the 
designation of the Old Spanish Trail, but it favors the Willing 
Seller bill, which assumes they will have money to purchase 
some property. And as I understand your testimony, the 
maintenance backlog is what has encouraged the Department not 
to support the Spanish Trail bill. How do you justify----
    Ms. Stevenson. It is not exclusively the maintenance 
backlog. It is also paying attention to the units we already 
have and making sure that we are spending our full attention on 
them; but your point is well taken.
    Senator Campbell. Well, where do you stand on your 
maintenance backlog, if that is what is holding it up? What is 
it that is----
    Ms. Stevenson. It is approximately $5 billion.
    Senator Campbell. $5 billion? That is for what, upgrading 
and new facilities and all that stuff?
    Ms. Stevenson. It is everything from sewage treatment, to 
water, to historic structures, to trails maintenance.
    Senator Campbell. Well, in this bill, this National Trails 
bill, there is no authorization to do any of that stuff. I 
mean, it is just a designation; it does not cost anything to 
designate, except the paperwork. I mean, it does not allow 
purchase of property or anything that I know of, or authorized 
building, or doing any of that. So, what is the cost?
    Ms. Stevenson. It has been our experience that the start-up 
costs for a trail is between $100,000 and $200,000, and that 
those are the costs to----
    Senator Campbell. One-hundred----
    Ms. Stevenson. To $200,000. Those are the costs to study 
the area, to get a staff, a minimum staff on board, travel, and 
so on.
    Senator Campbell. I see.
    Ms. Stevenson. Those can grow up to as much as $750,000 for 
administrative costs. Now, that is the very high end, to be 
sure.
    Senator Campbell. You probably know, Kate, around here, we 
spill more than that every day, when you talk about the total 
budget and how much we spend on different things, whether it is 
military, education, etc. What is the time line we are looking 
at in deferring action, if we were to defer action on the Old 
Spanish Trail as a National historic trail? Do you have a time 
line?
    Ms. Stevenson. No, sir.
    Senator Campbell. None? Could be indefinite?
    Ms. Stevenson. I doubt if it would be indefinite. The 
administration is really committed to reducing the maintenance 
backlog, and they are very committed and pushing us very hard 
to make progress.
    Senator Campbell. What year did the study that you spoke 
about--to study President Reagan's boyhood home--pass before 
the actual bill to authorize it?
    Ms. Stevenson. I am sorry, I do not know that, sir. I would 
have to provide that.
    Senator Campbell. But I did understand you to say that, or 
maybe perhaps it was the chairman, that the Department did not 
support that but went along with it, because it was passed by 
Congress?
    Ms. Stevenson. Yes, sir. When something is authorized, 
whether or not we were in favor of it or against it at the 
time, we wholeheartedly take it under our wings.
    Senator Campbell. Well, I guess then the only question that 
remains is how hard are you going to fight it, and are we still 
going to be friends after we pass it.
    Ms. Stevenson. Senator Campbell, we will always be friends 
with you.
    Senator Campbell. All right, because we are going to try to 
pass it. I have to tell you, I have been waiting 7 years, as a 
lot of us have in the West, and we are going to try to move 
this thing, and hopefully we will be able to talk again about 
it.
    Let me ask you a little broader question, if I still have a 
moment, Mr. Chairman. It deals with the broader picture of 
trails. I am involved, as my family is, my wife particularly, 
on a trail called The Continental Divide Trail. Are you 
familiar with that? Big trail.
    Ms. Stevenson. Yes, sir.
    Senator Campbell. We try to do a ride on it every year, we 
started just last year in Colorado--we are going to do one in 
Wyoming this year, hopefully, New Mexico next year, to draw 
attention to the importance of using the trails, and it has 
gotten a lot of support. Several people in the administration 
are going to go with us this year. Several of the Department 
heads are going to go with us, and we think it is great.
    Just let me ask you a couple of questions about it. There 
was some question by Senator Thomas about willing seller. Do 
you know if there are people now willing to sell land or 
easements to help complete that Continental Divide Trail?
    Ms. Stevenson. I do not know, sir. I would have to provide 
that.
    Senator Campbell. Could you find that out for us, 
particularly me, and get back to me on that?
    Ms. Stevenson. Yes, sir.
    Senator Campbell. Also, these bills that we are dealing 
with today, are they in some kind of sync, would it help 
complete the Continental Divide National Scenic Trail?
    Ms. Stevenson. The nine historic scenic trails are the 
Continental Divide National Scenic Trail, the North Country 
National Scenic Trail, the Ice Age National Scenic Trail, the 
Oregon National Historic Trail, the Mormon Pioneer National 
Historic Trail, the Lewis and Clark National Historic Trail, 
the Iditarod National Historic Trail, the Potomac Heritage 
National Scenic Trail, and the Nez Perce National Historic 
Trail.
    Senator Campbell. Do those all, at some place, touch the 
Continental Divide Trail system?
    Ms. Stevenson. I don't believe that is true; no.
    Senator Campbell. Okay.
    Ms. Stevenson. Those are the ones that are not presently 
covered by the willing seller provision.
    Senator Campbell. Oh, I see. Okay. How many miles of that 
Continental Divide scenic trail go across private lands now? Do 
you have any idea?
    Ms. Stevenson. We will have to provide that to you.
    Senator Campbell. Would you please provide that for the 
committee, too?
    Thank you, Mr. Chairman, I have no further questions.
    Thank you, Kate.
    Senator Akaka. Thank you very much, Senator Campbell.
    I have no further questions for you. I thank you very much 
for your responses.
    Ms. Stevenson. Thank you, Mr. Chairman.
    Senator Akaka. Our next witness is the Honorable Kelsey 
Begaye, the president of the Navajo Nation. President Begaye 
will testify on H.R. 1384, which would designate the route in 
Arizona and New Mexico which the Navajo and the Mescalero 
Apache Indian tribes were forced to walk in 1863 and 1864, for 
study for potential addition to the national trail system. 
President Begaye, welcome to the committee.
    Mr. Begaye. Thank you, Mr. Chairman.
    Senator Akaka. Proceed with your statement.
    Mr. Begaye. Yes, sir.

         STATEMENT OF KELSEY BEGAYE, PRESIDENT OF THE 
                 NAVAJO NATION, WINDOW ROCK, AZ

    Mr. Begaye. Before I start, I would like to introduce an 
individual that is here in the room. Her name is Merlee Arviso, 
and she is the great-great granddaughter of Jesus Casuse 
Arviso, who was a treaty interpreter in 1868. Merlee--is she in 
the room?
    Good afternoon, ladies and gentlemen. My name is Kelsey 
Begaye, president for the Navajo Nation. I want to thank 
Chairman Daniel Akaka and the rest of the subcommittee for 
providing the opportunity for the Navajo Nation to make this 
presentation before you. I am very honored to be here.
    The Navajo Nation is pleased to present its viewpoints on 
H.R. 1384, the Long Walk National Historic Trail Study Act. The 
Navajo Nation supports the designation of the Navajo Long Walk 
Trail, so that the future generations of Navajos and other 
Americans will remember the historic page in American history, 
and that it will not happen again here in our homeland, the 
United States of America.
    As you know, the Navajo people have a rich and proud 
history. Our history recounts the journey of our ancestors into 
the present world. It is in this world, Ni'hodis's, the 
Glittering World, that a fairly recent historical event 
challenged the Navajo people's very existence within the 
boundaries of the Sacred Mountains of the Navajo land.
    As history provides, by the mid-1800's, the Navajo people, 
after approximately three centuries of unwelcome encroachment 
by the Spanish and the Mexican governments, the Europeans, and 
later, Americans, were reacting to the situation that was 
wearing away their culture and land base. This era is bitterly 
remembered as a dark page in Navajo history, when the United 
States set out to obliterate Navajo culture at a place known as 
Hweeldi, Bosque Redondo, or Fort Sumner, New Mexico.
    In the mid-1800's, before, during, and after the Civil War, 
enslavement and slave trade of Navajo women and children was 
still practiced in the Southwest. The slave raids were led by 
Mexican and American settlers in retaliation for raids by 
Navajos and against the communities that surrounded the Navajo 
lands.
    In 1849 and 1850, several failed peace negotiations with 
the U.S. Government led to a military campaign to subdue the 
Navajos. The U.S. Army would not tolerate any humane treatment 
of Navajo people who would not surrender. Realizing that 
Navajos could not be subjugated in their own land, the United 
States viewed removal as the only alternative.
    In early 1860, the U.S. military posts in Navajo land, 
under the leadership of Brigadier General James H. Carleton, 
set the stage for the campaign against the Navajo people. More 
than 300 miles from the Navajo land was the desolate site to be 
chosen to confine the Navajo people, and force them to live 
according to the foreign laws of the U.S. Government.
    Thousands of Navajos walked the entire distance of 350 
miles to Fort Sumner under the watchful eyes of the U.S. 
military. The Navajos were held as prisoners of war for 4 years 
at Fort Sumner, New Mexico. Poor planning, drought conditions, 
severe winters, sickness, foreign diets, and continuous slave 
raids took its toll on the already suffering captive Navajos.
    Finally, in the spring of 1868, the worn Navajo leaders 
sought to return to their land within the Sacred Mountains. The 
desire to return to their homeland kept the people alive. On 
June 1, 1868, a treaty was drawn to end this nightmare and 
allowed the Navajos to walk more than 350 miles back home.
    Today, the Navajo Nation has approximately 298,000 members. 
The vast reservation is about 16 million acres. Many Navajo 
live in areas throughout the United States and around the 
world. The Navajo people will retain its language and many of 
their traditions. We are a proud people and we remember our 
history, the stories handed down by our ancestors and our 
forefathers about the ordeal at Fort Sumner.
    With the enactment of H.R. 1384, the Long Walk National 
Historic Trails Study Act, the Navajo Nation urges Congress to 
work with the Navajo Nation in determining which Navajo Long 
Walk Trail route will be designated by this legislation. There 
were four primary routes used by the U.S. military during the 
Navajo removal.
    The Navajo Nation also recommends that Congress mandate 
that the National Parks Service consult with the Navajo Nation 
regarding all interpretative materials, such as brochures, 
trail markers, and scenic off-ramps. The Navajo Nation urges 
Congress to add appropriations authorization language to the 
bill so that the Navajo Nation and the National Parks Service 
are able to conduct the necessary research, consultation, and 
the maintenance of the Long Walk Trail.
    The horrible accounts of this period in Navajo history are 
not openly discussed and/or readily shared by Navajo people. 
The long walk was certainly a test of Navajo fortitude, which 
remains in the shadows of American history. The proposed bill, 
H.R. 1384, Long Walk National Historic Trail Study Act, will 
ensure that this page of Navajo and American history will be 
remembered, and the Navajos who endured the long walk and 
incarceration at Hweeldi are well honored.
    The Long Walk serves to remind society of the importance of 
cultural perseverance, and also designation as a national 
historic trail will help ensure that this portion of the 
Navajo's history will always be remembered. Hence, the Navajo 
Nation and its people support H.R. 1384, and respectfully 
request immediate adoption to memorialize this important era of 
American history.
    Chairman Akaka and members of subcommittee, thank you for 
your consideration of this legislation.
    Senator Akaka. Thank you very much, President Begaye, for 
sharing your testimony with the subcommittee this afternoon.
    One of your recommendations is that the Park Service defer 
to the Navajo Nation in determining which of the four primary 
routes should be designated. Would you please share your views 
as to whether the study look at all four routes for possible 
designation as a national historic trail, or should it be 
focused on one specific route?
    Mr. Begaye. Mr. Chairman, and members of the subcommittee, 
I believe that that issue needs to continue to be discussed; 
however, the Navajo Nation, in consultation with our elders, 
would prefer a trail to be designated, one trail to be 
designated, and that we will have to go back and find out, sir.
    Senator Akaka. Well, thank you very much. That will be 
helpful to the committee.
    Mr. Begaye. Thank you, sir.
    Senator Akaka. I thank you so much for being here this 
afternoon, and for your testimony. It will be helpful to us.
    Mr. Begaye. Yes, sir. Thank you.
    Senator Akaka. Thank you very much.
    Mr. Begaye. It is good to see you again, sir. If you have 
time, there is a reception tonight at the Mayflower. Thank you.
    Senator Akaka. Thank you very much.
    Now, I would like to call on our last panel of witnesses to 
come forward: Shane Henry, assistant director for lands and 
energy, Colorado Department of Natural Resources; Patrick 
Hearty, national trails chair, National Pony Express 
Association; and, Dru Bower, vice president of Petroleum 
Association of Wyoming; Bill Watson, co-chair, Trails Liaison 
Committee, Oregon/California Trails Association; and Gary 
Werner, chair, Partnership for the National Trails.
    Thank you very much for coming; welcome to the subcommittee 
and this hearing. May I first call on Shane Henry to give your 
statement?

  STATEMENT OF SHANE HENRY, ASSISTANT DIRECTOR FOR LANDS AND 
        ENERGY, COLORADO DEPARTMENT OF NATURAL RESOURCES

    Mr. Henry. Good afternoon, Mr. Chairman and members of the 
Subcommittee on National Parks. My name is Shane Henry, I am 
the assistant director of the Colorado Department of Natural 
Resources, and I am here today to testify in support of S. 
1946, the designation of the Old Spanish Trail, and to also 
include the northern branch of that trail that goes through 
western Colorado, and picks up a lot of the communities in that 
area.
    I would especially like to commend Senator Campbell for 
your tireless leadership you provided to this effort. Your 
diligence, patience, and proven commitment to making this 
designation a reality is certainly worth noting. I would also 
like to thank your colleagues from Colorado, Senator Allard, 
for his co-sponsorship of this bill, and Carson McGinnis, for 
their strong interest and effective support that they have 
given to the issue as well; and also to thank Senator Domenici 
for his sponsorship, as well.
    It shows that it is a multi-state initiative, and the 
support is there to get this done after, as you said, 7 years 
of hard work. So, thank you very much. I would also like to 
thank Senator Hank Brown, who worked on this issue for a few 
years as well.
    On behalf of Governor Bill Owens and the Colorado 
Department of Natural Resources, I offer Colorado's 
enthusiastic support for S. 1946. The State of Colorado 
recognizes the Old Spanish Trail and its northern branch as an 
important part of our State's rich and eventful history. For 
centuries, this well-traveled trading route from Santa Fe to 
Los Angeles provided abundant regional commerce from the 
earliest of times, from the Utes, Navajos, and Spanish 
explorers, to New Mexican traders, French-Canadian trappers, 
and American settlers, the Old Spanish Trail and its northern 
branch played a significant role in all the cultures that 
occupied the diverse West.
    Whether it is reading through the journals of some of the 
most notable explorers who traveled this route, such as Fathers 
Dominquez and Escalante, Kit Carson, and Lieutenant George 
Brewerton, or just studying a historic map that shows the 
hundreds of communities and settlements this trail once served, 
there is no doubt as to the historical places this trail has in 
Colorado history. S. 1946 would finally grant this historic 
trading route the official recognition it richly deserves.
    The Colorado Department of Natural Resources has been an 
avid supporter of this effort, going back to 1993, when our 
State parks board passed a resolution supporting historic trail 
designation of the Old Spanish Trail and its northern branch. 
The Department of Natural Resources and its Division of 
Colorado State Parks have followed closely the National Parks 
Services feasibility study and analysis. We have also supported 
the efforts of the Old Spanish Trail Association and the ad hoc 
committee of volunteers in Grand Junction, Colorado, whose 
remarkable determination is largely responsible for why we are 
all here today.
    To reaffirm its support, Colorado State Parks, on September 
22, 2000, unanimously adopted a resolution, recognizing the 
historical value of the Old Spanish Trail and its northern 
branch, and asked for national historic trail designation by 
the Congress. I have included a copy of this resolution to be 
entered into the record as part of this testimony.*
---------------------------------------------------------------------------
    * The resolution can be found in the appendix.
---------------------------------------------------------------------------
    Senator Akaka. Yes, sir.
    Mr. Henry. The State of Colorado support for the 
designation is especially noteworthy today. As we speak, 
Governor Owens is announcing a proclamation designating 2002 as 
the Year of Trails in Colorado as a way to celebrate the 
recreational and historic values that our amazing network of 
trails offers to Colorado citizens and its visitors. I can tell 
you, the prospect of adding the Old Spanish Trail and its 
northern branch to the list of national historic trails, in the 
same year that Colorado is gearing up for its promotion of 
State trails, is very exciting to Governor Owens and the State 
of Colorado.
    Colorado recognizes the numerous educational benefits and 
opportunities for historic interpretation this designation will 
provide the citizens of Colorado. Perhaps just as important is 
the national perspective this designation would give to State 
and local educational programs for use in schools, as they fill 
in the large gap in the national historic trails map of the 
United States.
    For all these reasons, Mr. Chairman, and members of the 
subcommittee, the State of Colorado is proud to lend its 
support to the important designation effort. Designation of the 
Old Spanish Trail and its northern branch has the support of 
Governor Owens, the Colorado General Assembly, the Department 
of National Resources, CLUB 20, Mesa County, the city of Grand 
Junction, and many other communities along the trail in western 
Colorado. We hope this committee, and ultimately Congress as a 
whole, will support this locally driven, multi-State initiative 
and move with all deliberate speed to bring about its 
designation this year.
    Just quickly to address the financial concerns we heard 
from the administration, I would just offer, at least from 
Colorado's perspective, I do not know for the other States, but 
there are numerous volunteer groups up and down this trail that 
have already spent a tremendous amount of time researching the 
trail, going out, putting out markers, and the cost of 
implementing this trail over time, there would be a swarm of 
volunteers that would come out and I think will reduce any 
serious cost in terms of having this trail officially 
designated as a National historic trail. I think we could 
address that quite easily, in fact.
    Thank you for giving me the opportunity to testify in this 
important matter.
    Senator Akaka. Thank you very much, Mr. Henry.
    May I call now on Bill Watson for your testimony?

       STATEMENT OF WILLIAM C. WATSON, CO-CHAIR, TRAILS 
   LIAISON COMMITTEE, OREGON/CALIFORNIA TRAILS ASSOCIATION, 
                           ORINDA, CA

    Mr. Watson. Thank you, Mr. Chairman, and members of the 
subcommittee.
    National historic trails are different from scenic trails, 
because where scenic trails are point-to-point, and walkable 
from end to end, an historic trail is not hikeable all the way 
through. It consists of a series of significant sites and 
segments connected by highway, and along the way we have 
historically significant cutoffs and alternates.
    The bills, S. 213/H.R. 37, do not change the right of 
private land owners to do what they want to do with their 
property. If they close the land for trail use, the historic 
trail, under the act, follows the adjacent road or highway to 
the next open segment. We are proud to announce that every year 
we give awards to families who preserve the trail on their 
land.
    Congressman Bereuter, from Nebraska, in his House 
testimony, emphasized that there is no condemnation of private 
lands or Federal leases contemplated to add any of these routes 
that we have requested to be studied to the trails. This bill 
does not change the long-standing Federal rules on public land 
that ban drilling within a quarter of a mile of trail ruts.
    The Oregon-California Trails Association has a long history 
of working with energy companies and others along the trails. 
In 1985, our Wyoming members worked with Exxon on a proposed 
above-ground hot sulphur pipeline that would have criss-crossed 
the trail a number of times. Our members worked with Exxon. 
They voluntarily altered the plan so that it only crosses the 
trail once, and they wrote up this cooperative effort in their 
company magazine.
    Currently, in Wyoming, our members are working with 
Wolverine Oil and the Shell Oil Company, who are drilling on 
new sites visible to the Oregon and California trails. Oil 
companies have volunteered to use 11-foot tanks on new sites, 
compared to 20-foot tanks on existing sites, and to paint them 
to match the terrain. And they have offered that, where 
feasible, they will drill behind walk-out croppings rather than 
on top.
    Yesterday and today, our members are holding a preservation 
workshop on how better to preserve the trail in the 
communities. They are in Salt Lake City, and we have 
representatives of Wolverine, Shell Oil, the Wyoming Petroleum 
Association, and a drilling consulting firm on the agenda to 
educate our members about the needs of the energy industry.
    I want to acknowledge today representatives of the Trail of 
Tears and Cherokee Nation who are here to support the Cherokee 
Trail for addition to the California National Historic Trail. 
We have President Jack Baker, Mary Tidwell, and David Raybow, 
accompanied by their Parks Service superintendent, Mary Bomar. 
I would also like to acknowledge my wife for her help and 
support in this testimony, and thank you for your time.
    [The prepared statement of Mr. Watson follows:]
   Prepared Statement of William C. Watson, Co-Chair, Trails Liaison 
      Committee, Oregon/California Trails Association, Orinda, CA
    Chairman Akaka, Ranking Member Thomas, other Subcommittee members 
and guests, thank you very much for this opportunity to testify before 
your distinguished Subcommittee. During 2001, Oregon-California Trails 
Assn. (OCTA) members donated 50,021 hours and $303,000 in volunteer 
expenses to our trails with a total value of over $1 million. OCTA 
joins with the National Pony Express Assn., Mormon Trails Assn. and 
Iowa Mormon Trails Assn. to jointly urge you to approve S. 213/H.R. 37 
to authorize to Updated Feasibility Studies for our four trails.
    I would like to re-emphasize several key points made in the 
testimony of Congressman Doug Bereuter supporting H.R. 37 which the 
House unanimously passed on June 6, 2001:
    ``This legislation should be non-controversial, as it would simply 
recognize the fact that there are additional routes and cutoffs which 
may deserve inclusion in the National Trails System.''
    ``No condemnation of private lands or Federal leases is to be 
contemplated to add any of these routes to the trails.''
    ``Although the National Park service is supportive of efforts to 
examine these additional routes, it has determined that congressional 
legislation is needed to provide authorization.''
    OCTA recognizes that not every route proposed for study will meet 
the criteria of the National Trails Act and qualify for inclusion in 
the National Trails System. Thousands of volunteer hours have been 
spent researching and retracing Oregon and California routes propose 
for study. Some study routes already share an established National 
Historic Trail so would add markers not miles to the National Trails 
System. (See yellow lines on NPS Maps A and B.)

                   OCTA/PRIVATE LANDOWNER COOPERATION

    The Oregon-California Trails Assn. (OCTA) works with private 
landowners, calling attention to the importance of the overland trails, 
obtaining permission to mark trail ruts and emigrant graves, and 
requesting access to trail sites for special occasions. Activities on 
private land are with the concurrence of the land owner/manager/lease 
holder. Each year, OCTA ``Friend of the Trails'' awards are presented 
to private landowners who preserve trail ruts and/or sites as part of 
their family heritage.
    The National Trails Act provides private landowners an opportunity 
for Site Certification. If the landowner elects Certification, an 
agreement is signed with the Park Service which specifies public 
access: every day; one day a year and what date; no public access. Many 
private landowners have become participants in Certification since the 
1986 designation of the Oregon Trail and 1992 designation of the 
California & Pony Express Trails.
    Our KANZA Chapter in northeast Kansas worked with private 
landowners and the Park Service using side-scan radar for archeological 
research of four emigrant grave sites without disturbing the ground. 
Like many private landowners, these ranch families have protected the 
graves for 160 years. At the end of the first day, the ranchers hosted 
a team pot luck dinner and KANZA members hosted the next night.
    Each year OCTA holds a convention at a different place along the 
trail. This August it will be in Reno, NV., and include trail tours, 
many requiring 4-wheel drive. Host chapter members work closely with 
private and public landowners to make these tours possible. It is 
always a thrill to have local families show us the trail remnants 
across their land and to hear their history.
Issue
    Misunderstandings have caused concerns that S. 213/H.R. 37 are in 
conflict with America's energy needs. Trail protection, energy 
development and grazing have co-existed on public lands for many years 
under the National Trails System Act. Energy and Travel & Tourism are 
major industries in the economy of most trail states. Tourism is 
encouraged by federal, state and local support for the soon to open 
Casper, WY, trails center and the center being developed in Elko, NV.
OCTA Cooperation With Energy Developers
    In 1985, OCTA members worked with Exxon to minimize the number of 
times a planned pipeline would cross the Oregon Trail near South Pass. 
This cooperative effort was featured in the Exxon employees magazine.
    In March 2001, BLM, NPS, OCTA, Wyoming SHPO and Wolverine Gas & Oil 
representatives met in Rock Springs, WY, to discuss proposed 
exploratory drilling of wells near the Sandy Crossing and South Pass on 
BLM lands adjacent to the Oregon, California, Mormon Pioneer and Pony 
Express National Historic Trails.
    Over lunch the Wolverine President and Dick Ackerman, then OCTA's 
Preservation Officer, discussed mutual concerns including a group of 
protest letters written by students about this planned drilling near 
South Pass. During the discussion, Wolverine proposed that where 
drilling would be detrimental to the trail they could drill laterally 
and be at least 1/4 mile from the trail as required by the BLM rules. 
For new sites within view of the trail, Wolverine volunteered to 
minimize the impact of activities by drilling behind a bluff rather 
than on top of it and to use low profile (11 foot high) storage tanks 
painted to match the setting. An existing BLM road across the trail 
could be used to move equipment and supplies. It was agreed that 20 
foot high tanks on existing sites will not be replaced. Partner Shell 
Oil concurred.
    OCTA's Dick Ackerman met with students and told them not to blame 
Wolverine for working in historic South Pass because they were helping 
solve America's energy problem. He shared their concerns about 
protecting the trails and assured them that all participants will work 
together to minimize the trails impact. As Ackerman noted: ``Early 
travelers over this dirty, dusty, rocky ribbon of a trail made a 
difference. They were settling the Pacific frontier and with these 
settlements made our country the ocean to ocean Nation that it is 
today. Today's travelers can share the pioneer experience. They can 
stand there and look both ways and try to imagine what it was like for 
those early travelers. This is why we need to do our best to keep it 
looking the same.''
    Last year, OCTA CA/NV chapter members worked with the U.S. Senate 
staff and the Nevada BLM to plan and create the Black Rock/High Rock 
National Conservation Area legislation that protects the California and 
Oregon Trails in Nevada while allowing continued multiple use of those 
lands. Today, OCTA chapter members continue their work with the BLM to 
plan and implement this Nevada National Conservation Area.

       CALIFORNIA NATIONAL HISTORIC TRAIL--MISSOURI VALLEY ROUTES

    The 1987 California Trail Feasibility and Desirability Study 
assumed that: ``Most of theses ruts and traces are west of Casper, 
Wyoming . . .'' Subsequent extensive diary research plus ground 
searches by OCTA members located numerous swales, ruts, remanent of 
river and creek crossings, etc.in the Missouri Valley. Many of these 
new sites are on private land and have been preserved for 160 years as 
part of the proud landowners' family heritage. OCTA's research 
identified 19 Missouri Valley routes, shown in green on NPS maps A and 
B, that are proposed for study under S. 213/H.R. 37. Most will be 
multi-use shared routes. For instance, OCTA/NPEA research indicates 
that Fort Leavenworth to Big Blue River Route was used by Oregon and 
California bound emigrants and Pony Express riders.

                             CENTRAL ROUTES

    Seven Central Routes proposed for study, shown in green, include 
the Cherokee Trail which has not been designated a National Trail. 
Because of its significance, the Cherokee is marked and preserved in 
Wyoming by the BLM and OCTA volunteers. The Cherokee Trail was under 
study and included in the draft California Trail Comprehensive 
Management Plan until a Solicitor's Opinion dropped it from the CMP. 
While under study, the Governor of Oklahoma wrote a letter to NPS 
Director Bob Stanton supporting the designation of the Cherokee Trail 
as a branch of the California National Historic Trail.
    The Cherokee Trail was used by native Americans, Anglos and blacks 
from Oklahoma Territory who went west for the California gold rush. The 
Cherokee Trail segment from Rawlins, WY, to Fort Bridger received heavy 
use by Mormon pioneers during the 1860s, making this a shared route. 
One segment of the Cherokee Trail shares the Santa Fe National Historic 
Trail. OCTA contributed $5,000 toward BLM purchase of new concrete 
markers for the Cherokee Trail in 2000 that were installed by OCTA 
volunteers and the BLM. If the Cherokee Trail qualifies as a California 
trail route, it will not significantly increase the number of trail 
miles on Wyoming BLM land.
    We are honored to have President Jack Baker, Mary Tidwell and Paul 
Austin from the Trail of Tears Assn. at this hearing to show Cherokee 
Nation support for passage of S. 213/H.R. 37 and the inclusion of the 
Cherokee Trail as a California Trail route.

                             WESTERN ROUTES

    Eight Western routes, shown in green on NPS maps A and B, are 
proposed for study under S. 213/H.R. 37. Most of them were omitted from 
the original Feasibility Study or were ordered deleted from the 
Comprehensive Management Plan.
    For example, the Solicitor's Order deleted the Bidwell-Bartleson 
Route from the California Trail Comprehensive Management Plan. On May 
l2, l85l, the Bidwell-Bartleson Company left from the Kansas City area. 
They did not have a map showing the way to California, because none 
existed. Thirty-one men, one woman (Mrs. Nancy Kelsey) and her infant 
daughter followed the Oregon Trail. About 560 miles beyond Fort 
Laramie, they left the Oregon Trail to find a route across the unknown 
territory stretching to California. After leaving their wagons in the 
desert and wandering lost for days, the Bidwell-Bartleson party finally 
reached the Sierra Nevada mountains. They crossed some where near 
present day Sonora Pass and arrived in California on October 30, 1891. 
The accomplishments of the Bidwell-Bartleson company, including those 
of Nancy Kelsey, who became the first white woman to cross the Sierras, 
are widely celebrated. The year 2002 is an excellent time to pass S. 
213/H.R. 37 and recognize the 161st anniversary of the first overland 
pioneers to reach California.

       CALIFORNIA EXAMPLE OF MULTIPLE USE OF FEDERAL TRAIL LANDS

    The Carson Route, a branch of the California Trail, was developed 
from west to east in 1848 by the Mormon Battalion as an easier route 
over the Sierra than the Truckee/Donner Route. A 71-mile long portion 
from Genoa, Nevada, to Union House, Calif., is a High Potential Segment 
where today travelers can still share some of the emigrant experience. 
For about 35 years, our family has worked to preserve and interpret 
about half this segment. In Hope Valley, the Big Trees Route (proposed 
for study) cuts southwest from the Carson. It was used by many gold 
seekers headed for the southern mines.
    Most of Hope Valley, just south of Lake Tahoe, has been turned into 
a hiking, fishing, and hunting preserve created on private land sold to 
the government at cattle grazing (not recreation subdivision) prices. 
Last year, a handicapped access site was developed with parking and 
rest room facilities to provide public access for fishing and to the 
tracks of the Carson Route, California Trail. One rancher closed his 
land to public access so the trail follows Highway 88 around his 
property. Hope Valley has a group campground reserved for campers, RVs, 
etc.
    In Eldorado National Forest, the Carson Route (California Trail) 
from Caples Lake up to Covered Wagon Summit is open for hiking and 
horseback in summer and skiers in winter. Kirkwood Mountain Resort's 
trail signs on ski lift towers and an interpretive sign near the main 
lodge educate skiers about the Trail. A Forest Service/Kirkwood 
Mountain/OCTA plan will create a new off-the-ruts wild flower trail for 
hiking & horseback plus provide additional mountain bike trails off the 
Carson Route. A future project will install an unobtrusive tow to allow 
skiers to go down ``Emigrant Run'', the snow covered ruts of the 
covered wagons.
    The segment from Caples Lake up to Emigrant Valley is marked and 
maintained by Kirkwood Mountain Resort Homeowners. Our family works 
every summer as Forest Service Adopt-A-Trail volunteers marking and 
maintaining the top 2\1/2\ miles segment from Emigrant Valley (elev. 
8,000 ft) up to Covered Wagon Summit and West Pass (elev. 9,600 ft.) In 
late June, we again will have three generations working on our adopted 
trail. From the Summit down to Tragedy Springs the trail has been used 
by high clearance vehicles since 1946 and is maintained by a 4-Wheel 
Drive Club. It is open for hikers, horseback riders, hand carts, 
mountain bikes and motorized vehicles including ATVs in summer and 
crossed by snowmobiles in winter. Cattle graze on parts of both trail 
segments in summer.
    From Tragedy Spring, the Carson Route cuts northwest to ``Hang 
Town'' (now Placerville). The Volcano Road study route runs west from 
Tragedy Spring to the Volcano gold rush town where Union sympathizers 
during the Civil War used a cannon to protect gold bullion from 
possible seizure by Confederate sympathizers.

          SHARED CALIFORNIA & OREGON NATIONAL HISTORIC TRAILS

    California was the first designated multi-route National Historic 
Trail. Oregon was designated a point-to-point National Historic Trail 
with two alternate routes. Seven California NHT routes are proposed for 
study in S. 213/H.R. 37 based upon the Comprehensive Management Plan 
report that routes were shared by emigrants bound for Oregon. Plans to 
study these shared Oregon Routes, shown in red and yellow on NPS maps A 
and B, if recommended, would not add route miles but would allow Oregon 
NHT markers to be added by OCTA volunteers.
    The Applegate Route of the California NHT illustrates the problems 
created by the Solicitor's Order. The Applegate was used during the 
California gold rush and also was the Southern route to Oregon. It 
crosses 300 miles through Southern Oregon, yet Oregon NHT markers can 
not be installed. Our Oregon OCTA members urge: ``Please pass S. 213/
H.R. 37 so we can put an Oregon NHT marker on the interpretive sign 
outside the Oregon State House in Salem.'' Today it reads ``California 
National Historic Trail''. Designating these Shared Routes adds other 
trail logos, not miles.

                  CENSUS OF EMIGRANT DOCUMENTS (COED)

    Oregon-California Trails Assn. members developed the Census Of 
Emigrant Documents (COED) database which currently contains information 
from 2,263 emigrant diaries, letters and reminiscences about their 
trips along these trails. Research and entry data documentation is done 
by OCTA and historical society volunteers. Some 64,271 emigrant names 
are currently contained in OCTA's COED database. This database is 
already being searched for emigrant quotes about the routes proposed 
for study under S. 213/H.R. 37. This data base is also available for 
genealogical research by members and the public through the OCTA 
headquarters in Independence, MO.

                        FOUR TRAILS GIS DATABASE

    University of Utah is developing and operating the California, 
Oregon, Mormon Pioneer and Pony Express Trails GIS Database under 
contract with the National Park Service Long Distance Trails Office in 
Salt Lake City. 95% of the initial Four Trails GPS mapping was done by 
volunteers using a variety of equipment, requiring different 
calibrations and adjustments, which complicated GIS database 
development.
    During last year's extreme fire emergency, this Database provided 
computer map files identifying our Four Trails routes including 
significant sites and segments for use by Interagency Fire Control 
Center in Boise, ID. To our knowledge, none of these significant sites 
and segments identified for our four trails were damaged by fire. A 
number of wooden BLM Cherokee Trail markers were destroyed by wild 
fire. This route is not yet eligible for inclusion in the Four Trails 
GIS Database.
    OCTA is using National Park Service Challenge Cost Share dollars to 
purchase sophisticated GPS units and the NPS provides volunteer 
training on their use. With more sophisticated data in the future, the 
Four Trails GIS Database will be able to pinpoint the location of 
Significant Sites and Segments, interpretive signs and kiosks, and the 
location of installed trail markers for tracking purposes.

               HISTORIC TRAILS TO THE ``OREGON COUNTRY''

    Testimony supporting S. 213/H.R. 37 for March 7, 2002, hearing of 
the Senate Energy and Natural Resources Sub-Committee on National 
Parks. Prepared by Jeanne H. Watson, Oregon-California Trails 
Association (OCTA) past Director, Co-chair,Trails Liaison Committee, 
and U.S. Forest Service Adopt-A-Trail volunteer.
    In 1978, when the Oregon Trail was designated a National Historic 
Trail, it was generally considered to be a point-to-point route. Not 
exactly . . . Wile there are two alternates, one in Idaho and the other 
in Oregon, other pioneer trails to the Oregon Territory have been 
overlooked. In 1995 Oregon House Bill 2966 recognized five routes as 
``alternates'' of the Oregon Trail. Listed separately in this bill, the 
``Applegate (California) National Historic Trail'', was designated in 
1992 as part of the California National Historic Trail. Two other 
routes, used by pioneers crossing Oregon to settle in present-day 
Washington State, may be eligible for National Historic Trail 
designation. Three additional routes in Idaho are also considered 
cross-country segments of the Oregon National Historic Trail.
    In Wyoming, the Cherokee-Overland Trail was used by pioneers from 
southeastern states to reach the Oregon-California Trail at Fort 
Bridger and starting in 1852 many continued to Oregon. There are also a 
number of shorter trails leading from the Missouri River to the ``Great 
Platte River Road'' as well as others followed by emigrants to Oregon 
and California that are significant in state and local history.
    Passage of S. 213/H.R. 37 will allow Feasibility and Suitability 
Studies to be made of these routes in order to determine if they are 
eligible for addition to the National Historic Trails system.
    (1) It seems rather ironic that the route of the first Oregon 
pioneers has not been designated as part of the Oregon Trail. For years 
the Whitman Mission Route, first traveled in 1836, was THE Oregon 
Trail. As Narcissa Whitman wrote in 1840: ``We are emphatically 
situated on the highway between the States and the Columbia River.'' 
Narcissa and her husband, Dr. Marcus Whitman, along with the Rev. Henry 
Spaulding and wife, Eliza, were Presbyterian missionaries from upper 
New York State. Narcissa and Eliza, the first white women to cross the 
Rocky Mountains, are remembered with a special marker at South Pass. 
Their company took a two-wheel cart to Oregon, proving wheeled vehicles 
could make the trip successfully. The Whitman Mission Route served as 
the main stem of the Oregon Trail during the earliest years of the mass 
overland migrations but later bypassed and so omitted from the 1978 
designated Oregon National Historic Trail.
    The Whitman Mission National Historic Site at Walla Walla, WA, 
interprets this trail story and its link with Native Americans as do 
signs by the Oregon Trail Coordinating Council. Exhibits also interpret 
this history at Tamastslikt Cultural Institute on the Umatilla Indian 
Reservation near Pendleton, OR.
    (2) In 1843-44, the Upper Columbia River Route became the only 
trail to the Willamette Valley. A day's horseback journey west of the 
Whitman Mission, it started at a Hudson Bay Company post, where 
emigrants built rafts to float down the river to The Dalles, a 
treacherous trip with loss of lives and belongings. The Applegate 
family experienced such tragedy in 1843 when the river claimed the 
lives of two 10-year-old cousins and another family member as a boat 
upset in a whirlpool.
    Emigrants could avoid the river by traveling along the bank, 
negotiating steep cliffs and rocky shorelines. In 1844 Oregon emigrants 
found a way to bypass the Whitman Mission completely by following the 
Umatilla River to the Columbia, saving several days of travel. By the 
late 1840s, use declined as emigrants followed new routes across the 
desert south of the river.
    Oregon Trail Coordinating Council signs interpret this route at two 
kiosks and it is included in exhibits at the Columbia Gorge Discovery 
Center in The Dalles.
    (3) Although listed as part of the California and Pony Express 
National Historic Trails in 1992, the Applegate Route has never been 
included as part of Oregon National Historic Trail. Although also known 
as the Southern Route to Oregon, it can only be marked with California 
Trail signs, including one near the state capitol in Salem, Oregon. 
Pioneers traveling this southern route left the Oregon Trail at the 
Raft River, to continue towards California before turning north across 
Nevada to Oregon.
    The Applegate route, opened in 1846 by brothers Jesse and Lindsay 
Applegate to avoid the Columbia River, served as an alternate southern 
route; opened from west to east it met the California Trail along the 
Humboldt River. Jesse Applegate lead the first company of 200 Oregon 
pioneers with nearly 100 wagons. The route was used by both Oregon 
pioneers and California-bound emigrants, who turned off to reach 
northern California. After the 1848 discovery of gold, Oregonians 
followed the Applegate Route to reach the northern California mines via 
the Lassen Cutoff. Peter Burnett (later governor of California) led 150 
pioneers with 50 wagons from Oregon City, taking the first wheeled 
vehicles to Peter Lassen's ranch in the Sacramento Valley. Although 
used for a decade, the Burnett Cutoff is not designated as part of any 
National Historic Trail. Neither is the 1852 trail, which leads from 
the Applegate route south of lower Klamath Lake to the Yreka (CA) area. 
As ``shared routes,'' the Applegate Trail and these cutoffs should be 
marked as part of both the Oregon and California National Historic 
Trails while adding no new miles.
    The Applegate Trail winds through the recently established Black 
Rock Desert and High Rock Canyon National Conservation Area in Nevada. 
Interpretation also includes 18 signs placed along the route in Oregon 
by the Applegate Trail Coalition with support from the Oregon Trails 
Coordinating Council to complement existing signs, exhibits and 
commemorative markers. Museums and historical societies in southern 
counties of Oregon have cooperated in publication of a trail guide for 
this Southern Route.
    (4) The Oregon Legislative Assembly proclaimed 1995 as the ``Year 
of the Meek Cutoff Trail,'' opened 150 years earlier by 1,000 persons 
with 200 wagons. This route, named for leader Stephen Meek, crossed the 
middle of Oregon through high desert to the central Cascade mountains. 
It is the most infamous of Oregon Trail routes because the company 
became lost and could not find water; at least 23 persons died during 
the 52-day ordeal. Rescue parties were sent from The Dalles, with help 
from mountain man Moses ``Black'' Harris. The Meek Cutoff is 
interpreted with several Oregon historical markers and BLM signs along 
the route and an exhibit at the High Desert Museum in Bend, OR.
    (5) An Oregon Trail route used from 1848 to 1884, this 1847 Cutoff 
to the Barlow Road made it easier for emigrants to cross the Cascades 
to Oregon City. The Cutoff saved 100 miles as well as a week of travel 
time but could require three days to cross the Deschutes River before a 
bridge was built in 1852. (The Barlow Road section of the Oregon 
National Historic Trail provided an alternative route around Mount 
Hood.) This Cutoff is interpreted with BLM signs, an Oregon Trails 
Coordinating Council kiosk and Oregon historic markers as well as 
driving tours and brochures by the Sherman County Historical Society.
    (6) The Free Emigrant Road, opened in 1853, followed part of the 
Meek cutoff before turning south and then west to continue north to 
settlements at Eugene City. The Elijah Elliott train with 215 wagons 
successfully crossed the desert in 1853 but became stranded in the 
Cascade Mountains. A 70-mile water less stretch followed by October 
snow and freezing mountain temperatures required rescue by a relief 
party. In 1854, William Macy succeeded in leading 121 wagons across 
both the desert and the Cascades following the newly completed Free 
Emigrant Road, so named because no toll was charged (unlike the Barlow 
Road). The road continued to be used through the 1860s with nearly 500 
wagons and 2,500 persons traveling to the Willamette Valley. To date no 
interpretive facilities exist. As Charlotte Pengra commented in 1853 
``all are afraid to try it'' because at that time nothing was known 
about the route.
    (7) Established in 1845, the Cowlitz River Route led from the 
river's headwaters to the southern tip of Puget Sound. Among early 
settlers were the first black emigrants to the Pacific Northwest, 
including the founder of the present-day Centralia. Ezra Meeker, who 
followed this trail in 1852, became the first Oregon Trail 
preservationist when he realized in 1906 the pioneer trail was fast 
disappearing. He found an old wagon (exhibited at Washington State 
Historical Museum in Tacoma) and began retracing the trail with an ox 
team. Meeker presented programs and put up commemorative markers, with 
school children often contributing pennies. Many of his markers still 
survive including one at South Pass. Upon reaching the east cost Meeker 
drove his wagon down Wall Street in New York City and later parked on 
the lawn of the Capitol in Washington DC. His preservation efforts to 
save the trail also included trips along the Oregon Trail by car, train 
and airplane. Today his markers still interpret this trail.
    (8) Connecting Fort Walla Walla (site of the Whitman Mission) to 
the Puget Sound, the Naches Pass Trail was opened in 1853. It bypassed 
both the Columbia River and the Willamette Valley and was known as the 
``Walla Walla to Steilacoom Pioneer Citizen's Trail.'' Although it 
required 68 river crossings, it saved 200 miles of travel. The existing 
trail was improved for wagon travel in 1853 when Congress appropriated 
$20,000 and Captain George McClellan (future Civil War general) 
supervised clearing it for military use. Ezra Meeker, who traveled the 
Oregon Trail six times, followed this route in 1854. In 1910, the 
Washington and Oregon Historical Societies joined to mark the Naches 
Pass Trail. Other interpretive activities include signs at various 
sites.
    (9) In Idaho the Northside Alternate followed the north side of the 
Snake River from the vicinity of Fort Hall, passing Shoshone Falls, to 
the Thousand Springs area where it connected with the North Alternate 
Oregon Trail (see #10). The first Bishop to Oregon followed this route 
in 1847 on horseback, while his wagons took the trail south of the 
river to Three Island Crossing. In 1852 Dr. Thomas White found travel 
along this northwest route to Fort Boise ``shortened nearly in half'' 
the distance and also had provided better grass and water. In 1993 a 
BLM and Idaho State Historical Society trails publication stated 
additional research was needed to determine trail usage but surface 
evidence plus early township survey plats indicate heavy wagon travel.
    (10) In 1852 a ferry established above Salmon Falls in Idaho made 
it possible for emigrants to cross the Snake River to the north side. 
At Teapot Dome this route followed the main trail to Boise. Known as 
the North Alternate, in 1847 the Northside Alternate (#9) connected 
with it while in 1869 Kelton Road, a freight and stage route, used it. 
The North Alternate avoided a dry and difficult stretch of the Oregon 
Trail from Salmon Falls across the desert to Three Island Crossing, 
where it became the main northern route. The North Alternate is 
interpreted at Malad Gorge State Park with additional segments marked 
by the Hagerman Historical Society. BLM white posts also mark this 
route, determined to be eligible for listing on the National Register 
of Historic Places. The Oregon Trail story in this region is also 
interpreted by a BLM site and park at Bonneville Point.
    (11) The Goodale Cutoff began on the north side of the Snake River 
at Ft. Hall in Idaho and rejoined the Oregon Trail south of Boise 
Valley on the north side of the Snake River. It crossed the Lost River 
and Camus Prairie following a traditional Shoshone Indian route, 
avoiding an Oregon Trail loop along the Snake River. It was named for 
Tim Goodale, a trader in the Snake Country, who lead a large combined 
wagon train in 1862 across this route [known as the Jeffrey Cutoff in 
1853-54]. According to Nellie Slater the 1862 company consisted of 
1,238 wagons with 998 men and 300 women and children. This Cutoff 
required a ``dreaded drive'' through ankle-deep dust before reaching 
good water and feed on the Camus Prairie, according to Julius Merrill 
in 1864. It followed the perimeter of Craters of the Moon National 
Monument Area and is included in the National Register of Historic 
Places. Wagons followed the Goodale Cutoff as late as 1904. Later 
Goodale opened a north-west continuation of his Cutoff, crossing the 
Powder River to join the Oregon Trail below Flagstaff Hill near Baker 
City, Oregon. Preservation includes granite highway markers plus 
marking on public lands by BLM and the OCTA-Idaho chapter. It was added 
to the 1990 official Idaho highway map. In 1994 covered wagons rolled 
along this route during a sesquicentennial re-enactment, and along 
several Oregon Trail routes.
    (12) Pioneers from the southeast and the south followed the 
Cherokee-Overland Trail in Wyoming to reach the main route of the 
Oregon-California Trail at Fort Bridger. They came primarily from 
Arkansas, Oklahoma, Missouri, Tennessee and Texas. Not as crowded as 
other trails, the Cherokee route provided more grass for livestock 
while cholera did not threaten as on other trails. Cherokee Trail 
emigrants followed part of the Santa Fe Trail before turning north 
through Colorado to Wyoming. Emigrants from Cherokee and white 
communities traveled together with the trail opened in 1849 by the 
Evans/Cherokee Company of 40 wagons, the first to cross the Hasting 
Cutoff that year. Among the company's officers were members of the 
Cherokee Nation.
    In June 1850, Thomas Fitzpatrick (mountain man, explorer and Indian 
agent) reported 200 Cherokees with 60 wagons on the trail. Also in 
1850, Captain Howard Stansbury of the U.S. Topographical Engineers 
surveyed the Cherokee Trail in southwest Wyoming. Many Cherokee gold 
rush pioneers followed the Applegate Trail but turned off at the Lassen 
Cutoff, leading to the northern California gold mines.
    Oregon emigrants began using the Cherokee-Overland Trail in 1852 
while Mormons from Texas followed it to Utah beginning in 1853. In 1862 
the Overland Stage Company followed the Cherokee Trail, adding 
``Overland'' to its name. Mormon pioneers in the ``Out and Back'' 
companies traveled this route in the 1860s from the end of the railroad 
in Rawlins, WY, to Salt Lake City. The Cherokee-Overland Trail has been 
marked in Wyoming by the BLM and historic signs are located in Kansas 
and California.
    In conclusion, the Oregon-California Trails Assn. officers, 
directors and 4,200 members join with us to urge this Senate Energy & 
Natural Resources Subcommittee on National Parks to endorse S. 213/H.R. 
37.
    By the way, in 2001, OCTA members contributed 50,021 hours plus 
$303,900. in expenses to our trails with a total value of just over $1 
million. Their 2000 contributions also exceeded $1 million in value.
    Thank you for your time. If you have any questions, we will gladly 
try to answer them or get answers for you.

    Senator Akaka. Thank you very much, Mr. Watson.
    We welcome those of you that you just introduced to the 
committee. I would like to call on Mr. Patrick Hearty for his 
statement.

 STATEMENT OF PATRICK HEARTY, NATIONAL TRAILS COMMITTEE CHAIR, 
      NATIONAL PONY EXPRESS ASSOCIATION, SOUTH JORDAN, UT

    Mr. Hearty. Thank you, Mr. Chairman.
    I would like to thank Senator Hatch for his kind 
introduction, and also acknowledge the representatives from the 
Cherokee Nation. I would like to speak on behalf of S. 213 and 
H.R. 37, which will impact four National Historic Trails; 
namely, the Oregon, California, Mormon Pioneer, and Pony 
Express Trails, and in the time allotted, I would like to offer 
three thoughts regarding this bill.
    First, I would like to emphasize the importance to expand 
the scope of these national trails, and Senator Hatch has 
already discussed some of the inadequacies of the Mormon 
Pioneer Trail. As presently constituted, it includes only the 
1846 and 1847 route followed by Brigham Young, with his initial 
party, called the Vanguard Company. Subsequent groups of Mormon 
pioneers crossing Iowa traveled well to the north on trails 
shared by other westbound immigrants.
    The routes traveled by hand-cart companies are similarly 
not included in the National historic trail as it presently 
exists. In Wyoming, the Trail of Wagon Trains sent down from 
Great Salt Lake City to pick up immigrants at the trail head, 
called the down-and-back companies, is not recognized. Their 
trail follows a portion of the Cherokee Trail.
    In all, an estimated 70,000 members of the Church of Jesus 
Christ of Latter Day Saints traveled the immigrant trails to 
Utah prior to 1869, when the Transcontinental Railroad was 
completed. The present Mormon Pioneer Trail adequately tells 
the story of less than 200.
    Second, I wish to reassure you that the establishment of 
National Historic Trails is in no way detrimental to the rights 
of private land owners along the trail. The National Pony 
Express Association goes to great lengths to maintain good 
relations with both private and public land owners and 
managers. We conduct an annual horseback re-enactment along the 
Pony Express Trail. A leather mail pouch, or mochila, is 
relayed nearly 2,000 miles between St. Joseph, Missouri, and 
Sacramento, California.
    A significant number of the more than 500 participants in 
our re-rides are farmers and ranchers along the trail. For 
example, in western Utah, three generations of the David Bagley 
family ride and carry the mail at Willow Springs Ranch in 
Calio, where stands an original Pony Express Association. In 
Nebraska, farmers like Scott Wolfe and Leonard Hilton are 
leaders within our organization. They and others have been 
known to literally shut off the tractor, saddle a horse to take 
part in the re-ride, then put up the horse and return to the 
tractor. The Pony Express National Historic Trail is a source 
of pride to those who live and work on the land where the 
history was made.
    We are committed to the belief that, through cooperation 
and some compromise, the needs of commercial enterprises such 
as energy companies, ranchers, and others can be balanced with 
those seeking recreation, and those of us working to protect 
our history and heritage. Access to private land must remain 
entirely under the control of the land owners. We have no 
desire to see unreasonable impediments to energy development. 
Multiple use is the key to successful management of public 
lands.
    Finally, I would like to remind you of the importance of 
preserving our heritage through such vehicles as the National 
Historic Trails. In an increasingly hectic and fast-paced 
world, there is a need and a yearning to connect with simpler 
times. This connection can be found on the trails of our 
pioneer forebearers.
    Many young people seem to lack a sense of where they belong 
in the world in terms of time and place. Some turn to violence 
and self-destructive behavior in their search for identity. The 
historic trails can offer them an opportunity to learn through 
experience and feeling what has gone before them, and hopefully 
help them to gain an understanding of who they are and where 
they are going.
    If I may interject a personal note, I had the privilege and 
honor to carry the Olympic torch on horseback for approximately 
2 miles along the Pony Express National Historic Trail in 
western Utah, and I point to this as an example of how 
remarkable things can come to very ordinary people through our 
National trails.
    Finally, we have been advised that these matters concerning 
the trails should be completed during this session of Congress. 
Our friends do not wish to see it brought back next year, and 
we have no wish to bring it back; therefore, I respectfully 
request your favorable consideration for S. 213 and H.R. 35 to 
preserve and protect the National Historic Trails.
    Thank you, sir.
    [The prepared statement of Mr. Hearty follows:]

Prepared Statement of Patrick Hearty, National Trails Committee Chair, 
          National Pony Express Association, South Jordan, UT

    Chairman Akaka and distinguished members of the Senate Subcommittee 
on National Parks, I am grateful for the opportunity to testify in 
favor of S. 213, a bill which would amend the National Trails System 
Act to allow an update of the feasibility and suitability studies of 
four long distance National Historic Trails, providing for possible 
additions to these trails. The National Pony Express Association is 
pleased to support this legislation.
    S. 213 would allow study of the feasibility and suitability of 
additional routes and variants of the four long distance National 
Historic Trails administered by the National Park Service Long Distance 
Trails Office in Salt Lake City, Utah. The trails affected are the 
Oregon, California, Mormon Pioneer, and Pony Express National Historic 
Trails. The effect of this legislation would be to provide the 
Secretary of the Interior with information regarding the 
appropriateness of inclusion of additional routes and cutoffs as part 
of the officially designated National Historic Trails.
    The origins of the problems with these trails as presently 
designated have been documented elsewhere and will not be reiterated 
here (see the testimony of Jere L. Krakow, Superintendent of the NPS 
Long Distance Trails Office). I would first like to discuss the 
commitment of the National Pony Express Association to commemoration 
and marking of the Pony Express National Historic Trail, and to the 
promulgation of the history of the great enterprise we know as the Pony 
Express.
    The National Pony Express Association (NPEA) was incorporated in 
California in 1978, ``organized for the perpetuation and recognition of 
the historical running of the Pony Express.'' Our major activity each 
year is a horseback re-enactment of the Pony Express, wherein a leather 
mail pouch, or ``mochila,'' is relayed over approximately 2000 miles 
between St. Joseph, MO, and Sacramento, CA. Participants come primarily 
from the eight states crossed by the Pony Express Trail, but also 
include members who reside in other states and several foreign 
countries. Each state division also participates locally in parades and 
fairs, provides programs for school and civic groups, and is engaged in 
maintenance and marking projects on the trail itself.
    NPEA has received national and international recognition while 
carrying U.S. mail on horseback around a highway-closing mudslide in 
American River Canyon, CA, in 1983, and while participating in the 
Olympic Torch Relay in Colorado, Nebraska, Kansas, and Missouri, prior 
to the 1996 Summer Olympic Games in Atlanta, GA. Our members have been 
invited to ride in the Tournament of Roses Parade in Pasadena, CA, and 
in the ``We the People'' Parade in Philadelphia, PA, in 1986. We have 
enjoyed numerous other high-profile opportunities to share our pride in 
the history and heritage of the American West.
    Members of NPEA show our willingness to do our part through 
activities along the trail. During the year 2001, NPEA members donated 
over 23,000 volunteer hours, valued at over $320,000, and traveled more 
than 246,000 miles in support of the Pony Express National Historic 
Trail. This volunteer effort, valued at more than $403,000, comes from 
an organization of approximately 800 members, having an annual 
operating budget of $14,000. This time and effort are directed toward a 
wide variety of projects, such as trail construction and clearance of 
storm damage in California, marking the National Historic Trail across 
portions of Nevada, and delivery of Christmas cards by Pony Express to 
hospitalized children in Utah. Assistance with interpretive displays is 
being provided for the Trails Interpretive Center in Casper, WY, and 
for the Platte River Arch in Nebraska. In Julesburg, CO, a new bronze 
statue honoring the riders of the Pony Express is being built. Trail 
marking and scholarship programs in Kansas, and educational initiatives 
in Missouri are helping the public to enjoy the story of the Pony 
Express, and to know where significant events took place.
    The National Pony Express Association works closely with our 
Federal partners, the National Park Service, which has administrative 
responsibility for the Trail, and the Bureau of Land Management and 
National Forest Service, whose lands contain major portions of the 
Trail in the western states. The association has cooperative agreements 
and memoranda of understanding with the BLM and the Forest Service, 
covering our activities on public lands under their jurisdiction. Park 
Service Challenge Cost Share Grants are being used for projects in 
several states, the largest being a $13,600 grant to our California 
Division to help build a bridge on the South Fork of the American 
River, and otherwise improve public access to the Pony Express Trail. 
We are extremely grateful for the work done by dedicated employees of 
these agencies, and we are proud to be the primary volunteer 
organization with whom they work on matters pertaining to the Pony 
Express National Historic Trail.
    The NPEA also strives to maintain an excellent rapport with 
ranchers and local land owners whose lands are crossed by the Pony 
Express Trail. The 1992 legislation authorizing the Pony Express 
National Historic Trail leaves all private property rights firmly in 
the hands of the land owners. Sites and trial segments may be certified 
and recognized by the National Park Service, at the request of the 
landowner, but such certification provides no guarantee of access to 
the general public, or to members of the managing agencies or volunteer 
groups. All decisions regarding access, trail marking, interpretation, 
etc., are left to the owner. A number of our members and re-ride 
participants are, however, ranchers and farmers who are proud to 
commemorate the important historic events which crossed their land. 
Examples include Gary Barker, who serves as ride captain in Wyoming, 
leading a group of riders across his family ranch on Yellow Creek, 
south of Evanston, WY. Three generations of the Bagley/Anderson family, 
owners of Willow Springs Ranch in western Utah, take part in the re-
ride, and offer hospitality and a tour of a Pony Express station to 
members during the annual re-enactment. Near Seneca, Kansas, a Pony 
Express silhouette is being placed on property owned be Robert Runback. 
Many, many other examples exist of ranch families and land owners to 
whom NPEA activities offer an opportunity to show their pride in their 
heritage.
    It is my hope that the preceding description of the dedication and 
depth of involvement of the members of the National Pony Express 
Association will help you to understand how highly we value our 
National Historic Trails. Federal dollars invested in the historic 
trails are leveraged many times over by volunteer groups such as NPEA. 
Your support of S. 213, as well as other legislation and initiatives 
benefitting our historic trails makes our effort seem worthwhile.
    I have also been asked to speak on the importance of S. 213 to the 
Mormon Pioneer National Historic Trail. I hope that my status as a 
native Utahn, and past chairman of the Utah Historic Trails Consortium, 
plus participation on the Utah Pioneer Sesquicentennial Celebration 
Coordinating Council will serve as adequate credentials. Information 
for this testimony has been provided by the Mormon Trails Association 
in Utah, and by the Iowa Mormon Trails Association.
    The Mormon Pioneer National Historic Trail was one of the first 
Historic Trails, authorized in 1978. As it presently exists, it 
recognizes only the 1846-47 route followed by Brigham Young's first 
emigrant group, known as the Vanguard Company. In the subsequent years 
prior to 1869, when the railroad was completed, a number of other 
routes were followed by Mormon emigrants on their way to Utah 
Territory. Most of those leaving Nauvoo in later companies traveled 
across Iowa on trails well north of Brigham Young's ``Vanguard'' route. 
Another significant example, also found in Iowa., is the route followed 
by the ``Handcart Pioneers.'' A total of 2,962 people traveled west 
using handcarts, most in the years 1856 and 1857. In the words of Loren 
Horton of the Iowa Mormon Trails Association, ``The significance of 
this number of people making a journey of that distance using such 
equipment is unparalleled in the history of the frontier development in 
the United States.''
    In the years 1864-67, approximately 6500 westbound Mormon emigrants 
used what is called the ``Nebraska City Cutoff'' across eastern 
Nebraska, as they left the Missouri River to begin the westward trek. 
As many as 17,000 traveled west by wagon train from the railhead in 
North Platte, Nebraska, between 1860 and 1868. In central Wyoming in 
the late 1860's, more that 6000 Mormon pioneers traveled on a portion 
of the Cherokee Trail on their way to Utah Territory. On their final 
approach to Great Salt Lake City, many followed Parley P. Pratt's 
``Golden Pass Road,'' roughly along the route of modern-day Interstate 
80. For details of the trail routes proposed for further study, please 
refer to maps provided by the National Park Service. A complete listing 
of Mormon emigrant routes traveled, and frequency of use has been 
compiled by Mormon Trail scholar Ron Andersen. In all, an estimated 
70,000 members of the Church of Jesus Christ of Latter Day Saints came 
west on the emigrant trails prior to 1869 and the completion of the 
transcontinental railroad. The present Mormon Pioneer Trail adequately 
tells the story of less than 200.
    Most of the Mormon Trail cut-offs and variants proposed for further 
study were also used by Oregon and California bound pioneers. Some are 
already designated as portions of the California National Historic 
Trail. It is important that these shared routes receive recognition as 
part of each National Historic Trail to which they pertain, so that a 
more complete story of the westward migration can be told along the 
trails. Inclusion of the appropriate shared routes will not add massive 
numbers of miles to the trails. It will add greatly to the ability of 
the Federal managers and volunteer groups to provide the public with a 
more full and accurate picture of the opening of the West.
    As with NPEA, the Mormon Trails Associations contribute massively 
to the trails. The estimated contributions to the Mormon Pioneer Trail 
for the year 2001 included 94,300 hours, and 335,500 miles traveled. 
The total value of all contributions is calculated at over $2 million. 
Once again, the federal dollars allocated for the National Historic 
Trails are matched many times over by the efforts of dedicated 
volunteers who work closely with the federal partners in support of the 
trails.
    As has been explained regarding the Pony Express Trail, 
authorization of additional segments of the Mormon Pioneer National 
Historic Trail will have no undesired effect on private lands. Land 
owners will have complete control over visitation and access. No 
wording regarding condemnation of private property is contained in the 
original 1978 authorizing legislation, and none is sought in the 
current bill.
    The stories of the trails tell the history of the westward 
expansion of our nation in the nineteenth century, of reaching out to 
grasp the ``manifest destiny'' foreseen by the founding fathers. The 
stories of adventure, the tales of sacrifice and hardship, need to be 
remembered and retold, as do the stories of injustices and broken 
promises. There are lessons for each of us in the chronicles of those 
times. The public today seems to have an unprecedented interest in 
trail history. In the fast-paced world in which we live, there exists a 
great yearning to connect with a simpler time. There is also a great 
desire to learn of our ancestors, to know where they traveled, what 
they did and what they built. We can follow the trails they followed, 
and perhaps see some of the things they saw, perhaps know some of the 
feelings they felt. These opportunities must be preserved for the 
future.
    It may be that the paramount reason for preserving the trails and 
their history lies with the youth. Too many young people in our society 
grow up with no sense of who they are, or where they fit in terms of 
time and place. They seek to compensate for their lack of direction by 
indulgence in violent or self destructive behavior. Connecting with 
Historic Trails could help young people to see history as a story on 
the land, rather than merely a list of dates and places in a book. By 
finding out where they come from, they may begin to grasp a sense of 
who the are and where they are going.
    Once again, I respectfully request your favorable consideration for 
S. 213. Our lives and those of our posterity will be immeasurably 
enriched by the preservation of the National Historic Trails. Thank 
You.

    Senator Akaka. Thank you for your statement, Mr. Hearty. 
May I call on Gary Werner for your statement?

 STATEMENT OF GARY WERNER, EXECUTIVE DIRECTOR, PARTNERSHIP FOR 
            THE NATIONAL TRAILS SYSTEM, MADISON, WI

    Mr. Werner. Thank you, Mr. Chairman.
    My name is Gary Werner; I am here from Madison, Wisconsin, 
today. I am the executive director of the Partnership for the 
National Trail System, which is a federation of 22 citizen 
organizations that work in partnership with the National Parks 
Service, the Bureau of Land Management, and the U.S. Forest 
Service to help sustain our 22 national scenic and historic 
trails.
    Besides my colleagues here at the witness table, I am 
joined with a number of people in the back of the room from, 
and I just wish they would stand, I will not be able to give 
you their names, but from the Ice Age, North Country, Pacific 
Crest, Potomac Heritage, and Trail of Tears Associations, all 
in support of S. 1069 and H.R. 834, providing the willing 
seller authority for nine of the trails.
    I also have letters of support from the Lewis and Clark 
Trail Heritage Foundation, and from the Continental Divide 
Trail Alliance, which I would like entered into the hearing 
record, obviously, with my own statement.*
---------------------------------------------------------------------------
    * The letters can be found in the appendix.
---------------------------------------------------------------------------
    Senator Akaka. They will be included in the record.
    Mr. Werner. You have already heard a number of statements, 
primarily by Senator Levin and Director Stevenson, about the 
importance of this legislation as remedial legislation to 
correct inconsistencies within the National Trail System Act, 
and provide for parity among the trails. The inconsistency, in 
terms of having nine scenic and historic trails without willing 
seller authority, and 13 with, provides a certain irony 
actually, in that, for instance, the Mormon, Pioneer, Oregon-
California, and Pony Express Trails share essentially the same 
route across the States of Kansas, Nebraska, and much of 
Wyoming. And yet currently, the Federal agencies have willing 
seller authority for two of these trails, but they do not for 
the other two. And you kind of wonder, can they buy land for 
all four trails under this, or can they only buy land for two, 
and why should you have this disparity?
    Secondly, it has been mentioned that since 1983, a total of 
nine trails have been authorized, including the two most 
recent, the Ala Kahakai National Historic Trail in Hawaii, and 
the El Camino Real de Tierra Adentro National Historic Trail in 
Texas and Mexico, with exactly the same kind of willing seller 
authority being in these bills for the nine trails. It is also 
sort of ironic that S. 1946, Senator Campbell's bill for the 
Old Spanish Trail, has exactly the same willing authority as is 
included in these two bills for the nine trails. I think that 
the nine trails are being held to a standard that the other 
trails are not, because the kinds of studies about how much 
land might be involved, how many willing sellers have not been 
done on the Old Spanish Trail, were not done on any of the 
other trails for which willing seller authority has been 
granted. So it seems to me if it is comfortable for Congress to 
grant that authority for trails as recent as 2 years ago, it 
ought to be equally comfortable for Congress to grant that 
authority for trails that were authorized over 20 years ago. It 
is a matter of fairness and parity, I think.
    It is also a matter of adhering to the intent of the 
National Trail System Act; which, among all of the authorities 
that are provided to the Federal agencies to provide these 
trails, is authority and intent to preserve resources, 
cultural, natural, historic, scenic along these trails. So we 
think it is important that this remedial legislation be 
adopted.
    Is there a need for this legislation? Yes, there is a need 
for this legislation. We have figures which we have arrived at 
through our partner organizations that are included in my 
testimony which suggest that the four scenic trails, about 
9,300 miles of trail, are only about half protected, and as 
Senator Levin mentioned, will likely never be completed as 
continuous footpaths without this authority for the Federal 
Government.
    On the historic trails, whereas Mr. Watson has mentioned, 
its specific places/sites, that are the issue. Only about a 
quarter of the over 730 such sites along these five trails 
involved in the bill are protected.
    In terms of Senator Campbell asking are there willing 
sellers on the Continental Divide Trail, we happen to know of 
at least one willing seller that would complete the trail 
through the State of Wyoming, willing to sell, Senator Thomas, 
easements to the Bureau of Land Management to accomplish that. 
Most of the trails in the State of Wyoming are already on 
public land. There are, I believe, 14 sites combined along the 
Oregon and the Mormon Pioneer Trail on private land in the 
State of Wyoming.
    Anyway, we feel that it is time that these bills be passed. 
We thank you for your consideration of them, and wholeheartedly 
support passage.
    [The prepared statement of Mr. Werner follows:]

Prepared Statement of Gary Werner, Executive Director, Partnership for 
                the National Trails System, Madison, WI

    Mr. Chairman and members of the Subcommittee on National Parks:
    The Partnership for the National Trails System strongly supports 
H.R. 834 as adopted by the House of Representatives and S. 1069 as 
introduced by Senator Carl Levin and urges the Subcommittee on National 
Parks to promptly recommend them, as written, for a vote in the Senate. 
The Partnership is a federation of 22 citizen organizations that 
directly support and help manage national scenic and historic trails in 
partnership with the National Park Service, USDA Forest Service, and 
Bureau of Land Management.
    H.R. 834 and S. 1069 are important remedial bills that correct a 
gross disparity and inconsistency in the National Trails System Act. 
While the Act was created by Congress in 1968 to foster and sustain a 
nationwide system of trails with a full array of authority necessary 
for Federal agencies to administer them, nine scenic or historic trails 
were authorized between 1978 and 1986 without any Federal land 
acquisition authority. Federal administering agencies lack the 
fundamental and often essential means for protecting the integrity of 
the resources and the continuity of the footpaths for nearly one-half 
of the National Trails System, while Congress has provided those 
agencies with such authority for the rest of the System.
    This inconsistency of land acquisition authority severely hampers 
appropriate administration of nearly one-half of the National Trails 
System. Perhaps the most striking example of this inconsistency and 
disparity is the four national historic trails administered by the 
National Park Service in Salt Lake City, Utah. Currently, the Park 
Service has authority to buy land from willing sellers along the 
California and Pony Express National Historic Trails, but is prohibited 
from doing so along the Oregon and Mormon Pioneer National Historic 
Trails.
    This inconsistency seems highly ironic since the four trails share 
the same route across most of Nebraska, Wyoming and Utah. If a 
landowner offers to sell land to the Federal government containing 
historic traces of these four trails it is unclear what authority the 
Park Service has to act upon.With authority to buy land for two of the 
trails but not for the other two, would the conflicting authorities 
cancel each other or would the land be able to be purchased for the two 
trails and the other two left unrecognized on the site? Perhaps this is 
an odd situation, but it illustrates a peculiar and frustrating 
inconsistency in the Trails Act with important consequences for the 
day-to-day management and protection of these trails.
    In contrast, two trails were authorized before 1978 and 11 trails 
have been authorized since 1983 with Federal land acquisition 
authority. Congress has authorized Federal agencies to buy land from 
``willing sellers'' for 11 trails added to the National Trails System 
since 1983, including the two national historic trails, Ala Kahakai in 
Hawaii and El Camino Real de Tierra Adentro in Texas and New Mexico, 
authorized in 2000. To administer a consistent national system of 
trails the authority for the trails should be consistent.
    H.R. 834 and S. 1069 restore consistency and parity to the National 
Trails System Act by providing willing seller land acquisition 
authority, that has been provided to scenic and historic trails by 
Congress since 1983, for the nine trails without acquisition authority 
so that Federal agencies will be able to help protect critical natural 
and cultural resources and the continuity of all 22 national scenic and 
historic trails. The need and opportunity to use this authority will 
arise at different times for the various trails. For some, the 
authority may not be used for many years or only infrequently. For 
others the need for this authority is more acute and it is likely to be 
used as soon as Congress makes it available and to be used often. 
Whether the authority is to be used sooner or later, to restore 
consistency and parity to the National Trails System Act it is 
important that H.R. 834 and S. 1069 include, as they do, all nine 
trails for which Federal agencies currently are prohibited from buying 
land.
    H.R. 834 and S. 1069 also restore a basic property right to 
landowners. One of the basic property rights is the right of a 
landowner to sell the property when he or she wants to do so to 
whomever he or she wants to sell it. Section 10(c) of the National 
Trails System Act, as currently written, diminishes that right for 
thousands of people who own land along four national scenic trails and 
five national historic trails, by prohibiting Federal agencies from 
buying their land. Many of these landowners have offered to sell their 
land to the Federal government to permanently protect important 
historical features that their families have protected for generations 
or to maintain the continuity of a national scenic trail for use by 
hikers or equestrians. By prohibiting Federal agencies from acquiring 
land from certain landowners the law effectively prohibits these 
landowners from selling their lands as they may desire, an infringement 
of civil and property rights. H.R. 834 and S. 1069 restore this basic 
property right to sell their land to the Federal government, if they 
desire to do so, to thousands of landowners.
    Congress enacted the National Trails System Act in 1968 ``to 
provide the means to provide for the ever-increasing outdoor recreation 
needs of an expanding population and in order to promote the 
preservation of, public access to, travel within, and enjoyment and 
appreciation of the open-air, outdoor areas and historic resources of 
the Nation . . . by instituting a national system of recreation, scenic 
and historic trails . . .'' These trails provide opportunities for 
Americans and visitors from throughout the world to directly experience 
the places where important episodes in our Nation's history occurred 
and to recreate in the grandeur and beauty of our native landscape. 
Among the fundamental responsibilities given to the Federal agencies 
administering these trails are to protect their important cultural and 
natural resources and to provide ``public access to [and] travel 
within'' them. Yet they are prevented by Section 10(c) of the National 
Trails System Act, as currently written, from directly preserving these 
resources or from protecting a continuous right-of-way to allow 
``public access to [and] travel within'' along nine of these trails--
nearly one-half of the National Trails System. H.R. 834 and S. 1069 
restore the ability of the Federal agencies to carry out the 
responsibility given to them by Congress in the National Trails System 
Act to protect nationally significant components of our Nation's 
cultural, natural and recreational heritage.
    There is significant need for Federal agencies to be able to help 
protect the resources and continuity of these trails by acquiring land 
from willing sellers. The four national scenic trails affected by H.R. 
834 and S. 1069 are projected to be 9,300 miles long when completed, 
yet 20 years after their authorization only about 5,229 miles, slightly 
more than half their length, are permanently protected for public 
benefit. For the three trails in the eastern half of the country, the 
Ice Age, North Country and Potomac Heritage Trails, which lie primarily 
across private land, barely one-third, about 2,142 miles, of their 
projected 6,100 mile length is permanently protected for public use.
    In Michigan, the North Country National Scenic Trail faces 
significant challenges. Pressures from rapidly expanding development 
threaten the trail corridor throughout lower Michigan. Passing within 
15 miles of Grand Rapids, the state's second largest city, the North 
Country Trail will offer tremendous recreational opportunities to the 
people of western Michigan. Yet, with only scattered public land 
holdings in the area, the trail also is extremely vulnerable to 
closures and relocations as private lands change hands. Ironically, in 
the vacation areas of Traverse City, Petoskey and Mackinaw City, the 
trail faces similar difficulties, as more and more people discovering 
the recreational bounty of this region build second homes in the area. 
In Michigan's upper peninsula, the challenge is different. Here, 
permanent easements are needed across vast expanses of corporate land 
to ensure the permanent protection of the trail. These challenges, 
relating to development and long stretches of private and corporate 
held lands, are common occurrences throughout the seven states linked 
by this 4,600-mile long National Scenic Trail.
    Even though most of the Continental Divide National Scenic Trail is 
on public land there are several major gaps to be filled in order to 
make the trail continuous from Canada to Mexico. Gaps across private 
land in Colorado include about 10 miles around Muddy Pass near 
Steamboat Springs and another 10 miles across lands adjacent to Arapaho 
and Roosevelt National Forests in Clear Creek County. In New Mexico 
there is a 40-mile long gap south of El Malpais National Monument and 
in Wyoming the area north and south of Rawlins is a checkerboard of 
public and private land from 19th Century land grants to the railroads.
    Without the ability for Federal agencies to purchase permanent 
rights-of-way from willing sellers it is unlikely that these trails 
will ever be the continuous pathways intended by Congress.
    The degree of protection of the five national historic trails 
affected by this legislation is comparable to the condition of the four 
national scenic trails. Only 194 of the 730 ``significant sites and 
segments'' documented to date along the Oregon, Mormon Pioneer, Lewis 
and Clark, Nez Perce and Iditarod National Historic Trails are 
permanently protected. This amounts to only 26% of the recognized 
places along these trails that can provide visitors first hand 
experience of where important events of our Nation's history occurred. 
The attached table documents the degree of protection of the resources 
and rights-of-way for each of the nine trails affected by H.R. 834 and 
S. 1069.
    Without the ability for Federal agencies to acquire sites and 
segments along these nine trails from willing sellers, irreplaceable 
resources and experiences of our Nation's heritage will be lost 
forever. Here are several examples of what is being lost to public 
benefit along these trails for lack of Federal land acquisition 
authority:

Lewis & Clark National Historic Trail
    Two years ago, a real estate firm offered for sale an 180-acre 
tract of land, which includes 50 acres of wooded Missouri River 
frontage on the outskirts of Washburn, North Dakota. It is along one of 
the rare free-flowing stretches of the Missouri River, south of 
Garrison Dam. The land is within the view shed of the North Dakota 
Lewis & Clark Interpretive Center, and very near the Fort Mandan 
replica and park. It is also located close to an existing 4-H Camp.
    The area is rich in cultural resources, as this stretch of the 
Missouri River was home to numerous Mandan, Hidatsa and Arikara 
villages. The wooded bottomlands in this region are also home to the 
few pairs of nesting Bald Eagles in North Dakota. Whitetail deer, 
Canada Geese, wild turkeys and other upland game populate the area. 
Only 60 acres of the parcel is tillable land, the rest is either wooded 
river frontage, or hilly pasture. However, the hills all offer a broad 
vista of the Missouri River.
    The North Dakota Lewis & Clark Bicentennial Foundation was willing 
to administer this land, if it could be acquired. Without authority to 
purchase this land, the National Park Service administrators of the 
Lewis & Clark National Historic Trail could do nothing and saw this 
land purchased by a private person, who may or may not preserve its 
scenic quality.

Ice Age National Scenic Trail
    Several properties in the towns of Middleton and Verona, in Dane 
County, Wisconsin totaling about two miles of trail in a rapidly 
urbanizing area, were put up for sale over the past several years. 
Their purchase for the Ice Age Trail would have protected a nationally 
significant portion of the terminal moraine of the most recent 
continental glaciation, providing a stunning opportunity for the public 
to appreciate and enjoy the contrast of two startlingly dissimilar 
landscapes. Without public or private conservation buyers able to 
purchase and protect these properties they were subdivided for rural 
residential development.Only a narrow corridor was preserved by local 
government zoning authority for the Ice Age Trail to weave among the 
luxury homes.
North Country National Scenic Trail
    At the west end of Watkins Glen State Park, New York is roughly a 
half-mile of private woods, a thin strip along the creek that tumbles 
into the Glen previously belonging to an adjacent farm. To the west of 
the private strip is a long stretch of mostly state forest, so a days' 
worth of walking is protected to the west. The Department of 
Environmental Conservation had been negotiating with the farmer over 
that strip along the creek for years, and he was willing, but the DEC 
was waiting for funding. The property which would consolidate many 
miles of trail and protect the hind end of a park potentially 
beleaguered by development along its edges was held by a willing seller 
who also seemed willing to wait.
    However, the state waited too long. When they finally had the money 
they found that he had sold out, unannounced, to a new party who, while 
he hasn't thrown out the trail, isn't interested in selling to the 
state.
    H.R. 834 and S. 1069 provide the authority for federal 
administering agencies to help protect the sites and segments critical 
to preserving the integrity and continuity of nearly 1/2 of the 
National Trails System. The willing seller land acquisition authority 
provided for these nine trails and subsequent appropriations from the 
Land & Water Conservation Fund will enable the Federal agencies 
administering them to respond to such conservation opportunities as 
they arise. Each year many sites and critical segments of these trails 
are offered for sale. Here are several examples of important sites now 
for sale by willing sellers along several of the trails affected by 
H.R. 834 and S. 1069:

Ice Age National Scenic Trail
    County Park Department and State Department of Natural Resources 
agents are negotiating with owners of eight properties along the 50 
miles of Ice Age Trail corridor crossing Dane County, Wisconsin. These 
parcels include about 6 miles of potential trail to add to 15 miles 
currently protected in one of Wisconsin's most rapidly growing 
counties. If acquired they will help connect two Dane County Parks and 
extend two State Wildlife Areas. Some of the purchases will be funded 
through State and County funds matching a Land & Water Conservation 
Fund grant. Funding for several of the purchases is yet to be secured 
and several other landowners with property adjacent to these have 
offered to sell them for the Ice Age Trail. Despite their best efforts 
state and local agencies are not able to keep up with all the 
opportunities afforded by a volatile real estate market.

Lewis & Clark National Historic Trail
    White Bear Island near Great Falls, Montana is one of the islands 
where Lewis and Clark cached some of their supplies on the way upriver. 
The island is in private ownership and should be protected.
    Canoe Camp near Great Falls, Montana. When Meriwether Lewis's 
experimental iron boat failed, the expedition needed two more dug out 
canoes. These canoes were hewn from large cottonwood trees at this 
site. On July 15, 1805, the expedition ended the portage around the 
Great Falls of the Missouri and headed upstream for the Rocky Mountains 
and a meeting with the Lemhi-Shoshone Indians.
Mormon Pioneer National Historic Trail
    The Hogsback Summit tract, 315 acres appraised at $473,000 on 
October 1, 1998, is located in Summit and Morgan Counties, Utah. The 
Mormon Pioneer Trail ascends the hill to Hogsback Summit, a rolling 
sage plain with sweeping panorama of the Wasatch Mountains in the 
distance. The property contains not only the ruts but also a spring on 
the lower portion that was used for water and as a campsite by the 
pioneer party in 1847. The tract sustains a sage grouse population and 
drumming ground, rare in that part of Utah, and winter range for Elk.
    Due to the location of the tract on a paved road to the north of a 
rapidly growing mountain community, the resources are at risk. It is 
directly in the path of mountain development.

Potomac Heritage National Scenic Trail
    The Dennis Family in Loudoun County, Virginia, own a mile of 
private Potomac River frontage that links two stretches of public park 
land, a family group of tracts totaling 145 acres. Property around the 
Dennis land is being subdivided and developed at high intensity in the 
Washington suburban sprawl. Some of the Dennises would like to protect 
their land as willing sellers, but they cannot do it without receiving 
some payment. Protecting this land will tie almost five miles of 
continuous undisturbed riverside trail experience together.
    Across the Potomac in Maryland, the riverfront in Prince George's 
County is being subdivided and former farms are being converted to 
residential neighborhoods. The County Park Authority is interested in 
getting rights-of-way for the Potomac Heritage National Scenic Trail, 
and there are landowners there, such as the Vehover Tract owners near 
Broad Creek, who would be very happy to sell either trail easements or 
conservation easements that would protect natural Potomac River 
landscapes and protect the Trail too.
    H.R. 834 and S. 1069 provide the authority for Federal 
administering agencies to respond to these and similar opportunities 
provided by willing sellers to acquire land for recreation and 
education that will be appreciated for generations to come. Federal 
assistance will be a necessary complement to all the efforts of private 
organizations and state and local agencies, such as those that recently 
protected a section of the Crimson Bluffs along the Missouri River in 
Montana on the Lewis and Clark National Historic Trail, to help protect 
the nine national scenic and historic trails aided by this legislation.
    For these reasons the Partnership for the National Trails System is 
very grateful to Congressman McInnis for introducing H.R. 834 and 
Senator Levin for introducing S. 1069 providing willing seller land 
acquisition authority to Federal agencies for the nine trails. We ask 
that the National Parks Subcommittee recommend adoption of H.R. 834 and 
S. 1069 to the Senate. The Partnership for the National Trails System 
appreciates the consideration you have given to H.R. 834 and S. 1069 
and the opportunity to provide these comments in support of them for 
the hearing record.

          STATUS OF NINE NATIONAL SCENIC AND HISTORIC TRAILS WITHOUT FEDERAL LAND ACQUISITION AUTHORITY
----------------------------------------------------------------------------------------------------------------
                                                                     Projected       Protected      Unprotected
                      National Scenic Trail                           length          length          length
----------------------------------------------------------------------------------------------------------------
Continental Divide Trail........................................     3,200 miles     3,087 miles       113 miles
Ice Age Trail...................................................     1,200 miles       403 miles       797 miles
North Country Trail.............................................     4,200 miles     1,539 miles     2,661 miles
Potomac Heritage Trail..........................................       700 miles       200 miles       500 miles
----------------------------------------------------------------------------------------------------------------
    TOTAL.......................................................     9,300 miles     5,229 miles     4,071 miles
----------------------------------------------------------------------------------------------------------------



----------------------------------------------------------------------------------------------------------------
                                                                        No.
                     National Historic Trail                        significant      Protected      Unprotected
                                                                  sites/segments  sites/segments  sites/segments
----------------------------------------------------------------------------------------------------------------
Iditarod Trail..................................................      approx. 75        11          approx. 64
Lewis & Clark Trail.............................................     approx. 270       123         approx. 147
Mormon Pioneer Trail............................................              88         6                  82
Nez Perce Trail.................................................              80        40                  40
Oregon Trail....................................................             217        14                 203
----------------------------------------------------------------------------------------------------------------
    TOTAL.......................................................             730       194                 536
----------------------------------------------------------------------------------------------------------------
The figures given are the most accurate available; however they are approximate for all of these trails.
  Improvements in mapping techniques and historic research are increasing understanding of the full nature of
  these trails and the resources upon which they are based.
H.R. 834 and S. 1069 provide ``Willing Seller'' land acquisition authority to Federal agencies for these nine
  trails.


    Senator Akaka. Thank you very much for your statement, Mr. 
Werner.
    Now, may I call on Dru Bower for your statement?

 STATEMENT OF DRU BOWER, VICE PRESIDENT, PETROLEUM ASSOCIATION 
                     OF WYOMING, CASPER, WY

    Ms. Bower. Thank you. Mr. Chairman, Senator Thomas, members 
of the committee. My name is Dru Bower and I am the vice 
president for the Petroleum Association of Wyoming, which I 
will refer to as PAW in this testimony. PAW would like to thank 
the subcommittee for the opportunity to testify on S. 213 and 
S. 1069. We were asked here today to give the committee our 
industry's perspective regarding trail designations and the 
complexity of the issue as it pertains to Wyoming.
    The mineral industry provides a solid job base for 
residents and generates a significant portion of the State 
revenues. Last year, the oil and gas industry accounted for 
approximately 50 percent of the assessed valuation of property 
in Wyoming. The mineral industry, oil, gas, and mined minerals, 
provides 50 percent of the total education budget, and 60 
percent of Wyoming's total annual budget.
    Wyoming has the most miles of historic trails of any State 
in the West. There are five congressionally designated trails 
in Wyoming; however, the Oregon-California, Mormon, Pioneer, 
and Pony Express are the four trails that complicate matters 
for our industry. Possible additions to the trail system 
include the Overland and Cherokee, and it is the potential 
congressional designation of these two trails that concerns 
PAW.
    Let us be very clear. PAW does not oppose the designation 
of additional trails. It is the restrictions imposed on the 
mineral industry, by BLM, through its development of trail 
management plans that is troubling.
    In May 2001, Wyoming BLM announced it would be developing 
guidelines to protect view sheds associated with 
congressionally designated trails and provide management 
recommendations and prescriptions for public specific trail 
segments and sites that are eligible for listing on the 
National Registry of Historic Places. I will speak directly to 
BLM's effort for their guidance for managing surface-disturbing 
activities in the vicinity of national historic trails.
    Wyoming BLM charged itself with developing a program to 
provide guidance which expanded the view shed protection area 
around trails. The four congressionally designated trails have 
a combined link of 1,260 miles as they cross the State of 
Wyoming. Currently, the controlled surface use stipulation, 
contained in the existing resource management plans for 
protection of congressionally designated historic trails, 
mandates that the area within a quarter mile of the visual 
horizon, whichever is less, is to be an avoidance area for 
surface-disturbing activities.
    BLM, in its instruction memorandum, issued guidance to 
arbitrarily expand that protection area beyond the quarter-mile 
restriction to as far as 5 miles on either side of the trail. 
This proposed policy change in managing for view sheds of 
historic trails is a major land use action that would have an 
extreme adverse effect on industry's ability to develop oil and 
gas projects within an area of up to 12,000 square miles. 
Trails were meant to settle the West, not preserve the West. 
The oil and gas industry does not directly impact trails and 
minimizes indirect impacts, but this instruction memorandum 
unfairly restricted the industry before the proper scientific 
analysis was completed.
    This week, BLM is releasing a subsequent memorandum, 
withdrawing the instruction memorandum for guidance, and 
announced that it would be abide by the overriding stipulation 
in the resource management plans until the trail plan is 
completed, sent out for public review, and the resource 
management plans are amended.
    PAW supports this process; however, industry has seen the 
blueprint of what to expect in the future, and should 
additional trails be congressionally designated, they will then 
be subject to a possible expanded protection measure, which may 
significantly curtail development and violate valid existing 
rights.
    Even though Congress has not acted, the Overland and 
Cherokee Trails are currently subject to the same restrictions 
as congressionally designated trials in Wyoming; however, these 
potential designations are complicated by the fact that they 
travel through what is known as Checkerboard, or the land grant 
area located in southwest Wyoming. This creates conflicts for: 
One, the potential connection action, which could delay or deny 
projects; and, two, a possible drainage situation.
    Regarding S. 1069, as specifically related to land 
acquisition from willing sellers, PAW's concern with this 
legislation is that should a portion of the trail change 
ownership, all valid existing rights must be honored by the new 
land owner, and reasonable access must be assured. In 
conclusion, PAW is not interested in preventing the designation 
of additional congressional trails, and understands the 
importance of protecting our Nation's history. We maintain that 
the existing restriction of a quarter mile on either side of 
the historic trail, or visual horizon, whichever is less, is 
adequate.
    Only in highly unique circumstances should the current 
stipulation be expanded. We request the opportunity to work 
with trail advocates, such as OCTA, to develop a proposal to 
identify and protect unique trail resources, while preserving 
economic opportunities.
    Mr. Chairman, members of the committee, thank you again for 
the opportunity to share with you our perspective regarding 
congressionally designated trails in Wyoming.
    [The prepared statement of Ms. Bower follows:]

Prepared Statement of Dru Bower, Vice-President, Petroleum Association 
                         of Wyoming, Casper, WY

    Mr. Chairman and members of the Committee, my name is Dru Bower and 
I am Vice President of the Petroleum Association of Wyoming (PAW), 
specializing in public land issues. PAW would like to thank the 
Subcommittee on National Parks of the Committee on Energy and Natural 
Resources for the opportunity to testify regarding Senate bills 213 and 
1069, which pertain to different aspects of historic trail 
designations. PAW is Wyoming's oldest and largest trade organization, 
the members of which account for over ninety percent of the natural gas 
and over seventy percent of the crude oil produced in the State. This 
legislation will affect members of PAW.
    PAW was asked here today to give the Committee our industry's 
perspective regarding trail designations. In order to do this, a brief 
history is necessary in understanding the complexity of the issue as it 
pertains to natural resource development specifically in the State of 
Wyoming.

                          MINERALS AND WYOMING

    Wyoming is a uniquely rural state, with an abundance of 
unpopulated, wide-open spaces. The 2000 Census reported that there are 
approximately 494,000 people living in the State, which covers 
62,664,960 acres. That equates to 126 acres for every man, woman and 
child residing in the State. Public lands make up a significant portion 
of our western states and in Wyoming, approximately forty-nine percent 
(49%) of the surface and approximately sixty-six percent (66%) of the 
mineral estate is owned by the federal government and managed by 
agencies such as the United States Forest Service (USFS) and the Bureau 
of Land Management (BLM). For those who have not had the opportunity to 
conduct business in states that are primarily composed of federal land, 
BLM and the Forest Service are the land managers and decision-makers 
regarding all aspects of resource management.
    The mineral industry provides a solid job base for residents and 
generates a significant portion of the State revenues. This revenue 
provides funding for the education of our children and other programs 
that could not otherwise be supported absent new taxes on the state's 
citizens. Last year, the oil and gas industry accounted for 
approximately 50% of the assessed valuation of property in Wyoming. 
This translates into $1,200 of taxes paid for every Wyoming resident. 
The mineral industry (oil, gas and mined minerals) provides 50% of the 
total education budget, and 60% of Wyoming's total annual budget. The 
entire mineral industry generates 26,000 direct jobs. If one concludes 
that there are three (3) indirect jobs for every direct job, the result 
is 78,000 indirect jobs. Combined, a total of 104,000 jobs are 
attributable to mineral development in the State. Wyoming also is the 
largest contributor to the federal onshore minerals program with a 
submission of approximately $900 million in fiscal year 2000 from 
rents, royalties, and bonus bids on public lands. Fifty percent (50%) 
of that total is allocated back to the State in which it was derived. 
There is truly a four-way partnership with industry, federal, state, 
and local governments. In western states, access to public lands is 
critical for the very survival of its citizens in order to maintain 
quality jobs and a reasonable tax base and revenue stream for State and 
local governments.

   HISTORIC TRAILS IN WYOMING AND INSTRUCTION MEMORANDUM WY-2002-001

    Wyoming has the most miles of historic trails of any state in the 
west. As I like to say, ``everyone came through Wyoming, but no one 
wanted to stay''. There are five (5) congressionally designated trails 
in Wyoming. The Nez Perce Trail, which runs through Yellowstone 
National Park, and the Oregon, California, Mormon Pioneer, and Pony 
Express Trails travel east to west across the entire State in southern 
Wyoming. It is these four (4) trails in southwest Wyoming that 
complicate matters for our industry. The proposed Senate bill, S. 213, 
would specifically authorize the feasibility and suitability studies of 
four national historic trails and provide for possible additions to 
these existing trails. Additions to the trail system include two (2) 
trails, the Overland and Cherokee, that travel east to west in southern 
Wyoming, and it is the potential congressional designation of these two 
(2) trails that concerns PAW. Let us be very clear, PAW does not oppose 
the designation of additional trails--it is the restrictions imposed on 
the mineral industry, by BLM, through its development of trail 
management plans that is troubling.
    For example, in May of 2001, Wyoming BLM announced it would be 
developing guidelines to protect viewsheds associated with 
congressionally designated trails and provide management 
recommendations and prescriptions for specific trail segments and sites 
that are eligible for listing on the National Register of Historic 
Places. Wyoming BLM stated that this new directive was the result of 
former President Clinton's Executive Order 13195, ``Trails for America 
in the 21st Century'', which was signed on January 18, 2001. The 
Executive Order outlines the directive to protect ``(b) the trail 
corridors associated with national scenic trails and the high priority 
potential sites and segments of national historic trails to the degrees 
necessary to ensure that the values for which each trail was 
established remain intact . . . (c) Coordinating maps and data for the 
components of the national trails system and Millennium Trails network 
to ensure that these trails are connected into a national system . . 
.'' The Millennium Trails network allows for the classification of 
National, Legacy, or Community Millennium Trails. Depending on the 
protection measures implemented by BLM, this language in the Executive 
Order could significantly curtail oil and gas development in Wyoming 
and across the west. The Executive Order also establishes the ``Federal 
Interagency Council on Trails'' and a ``Memorandum of Understanding of 
National Historic and National Scenic Trails'', which was signed by 
several agencies effective January 19, 2001. The mission of the 
Memorandum of Understanding is to enhance and integrate all trails into 
a fully connected system, coordinate mapping, signs and cultural 
interpretations, and develop plans and recommendations for a national 
trails registry and database.
    It is because of this guidance (and Executive Order) that PAW is 
concerned with the addition of congressionally designated trails. Just 
this week, Wyoming BLM has withdrawn its Instruction Memorandum WY-
2002-001 (Interim Guidance for Managing Surface-Disturbing Activities 
in the Vicinity of National Historic Trails), which addresses 
guidelines for protection of congressionally designated trails. BLM 
will continue to develop an Environmental Impact Statement (EIS) to 
analyze for the Wyoming National Historic Trail Plan (WNHTP), which 
will eventually be used to amend the Resource Management Plan's (RMP). 
While the Instruction Memorandum (IM) is not in affect now, PAW has 
seen the blueprint of where BLM wants to take this planning effort and 
it is that concern which I will speak directly to today.

            PROTECTION OF CONGRESSIONALLY DESIGNATED TRAILS

    Since implementation of Executive Order 13195, Wyoming BLM charged 
itself with developing a program to accomplish the following: 1) 
Conduct a viewshed analysis five (5) miles from the centerline on each 
side of the trail; 2) construct a predictive modeling process for 
trails; 3) prepare a statewide context study to determine whether new 
trail segments should be registered as historic; 4) determine cultural 
and historical significance of trail segments; and 5) prepare a Trails 
Management Plan to be used in amending Resource Management Plan's.
    The four congressionally designated trails that would be affected 
by these new guidelines are the Oregon, California, Mormon Pioneer, and 
Pony Express, which have a combined length of 1,260 miles as they cross 
the State of Wyoming. Currently, the Controlled Surface Use (CSU) 
stipulation contained in the existing RMP's for protection of 
congressionally designated historic trails mandates that the ``area 
within 1/4 mile or the visual horizon (whichever is less) . . . is to 
be an avoidance area for surface disturbing activities''. BLM, in 
Instruction Memorandum WY-2002-001, issued guidance to arbitrarily 
expand that protection area beyond the 
1/4 mile restriction to as far as five (5) miles on either side of the 
trail. This proposed policy change in managing for viewsheds of 
historic trails, is a major land use action that would have an extreme 
adverse effect on industry's ability to develop oil and gas projects 
within an area of up to 12,000 square miles. PAW contends that BLM 
prematurely assumed industry would have an adverse impact on trail 
viewsheds before the proper analysis had been conducted and before 
appropriate mitigation measures were even considered.
    BLM declared in Instruction Memorandum WY-2002-001 as well as in 
the Lease Notice No. 2, that based on Executive Order 13195, additional 
protection measures need to be put in place to ``ensure trail corridors 
are protected and that trail values remain intact''. Again, ``trial 
corridors'' are being protected through the CSU stipulation in the 
RMP's, which mandates that the ``area within 1/4 mile or the visual 
horizon (whichever is less) of any contributing trail segment will be 
an avoidance area for surface disturbing activities'' (1/4 mile on each 
side of the trail). The Executive Order does not specifically outline 
the distance for which the ``trail corridor'' should be protected and 
it is only through BLM's latest interpretation that protection for 
``trail corridors'' should be expanded beyond the ++ mile ``corridor''. 
Further, industry does not directly impact trails and minimizes 
indirect impacts, which complies with the protection of ``trail 
values''. PAW holds that the current CSU stipulation of 1/4 mile on 
each side of the trail satisfies the Executive Order for protection of 
the ``trail corridor'' and ``trail values'' and no adverse impact will 
occur due to development of the oil and gas resource.
    BLM stated that the ``purpose of this Instruction Memorandum WY-
2002-001 was to establish interim policy and guidance for consistent 
management among Wyoming Field Offices (FO's) for managing surface-
disturbing activities along National Historic Trails until such time as 
the Wyoming National Historic Trail Plan (WNHTP) is completed''. In 
certain phases of this policy, BLM stated that the ``evaluation of the 
condition of the trail landscape is a judgmental determination . . .'' 
made by the land managing specialist. PAW determined this guidance 
failed to achieve its goal of establishing consistency among Field 
Offices. Due to the subjective nature of the language used, this policy 
would have had the opposite effect, which is increased inconsistency 
and possible delay of industry projects.
    BLM verbally stated on several occasions that this Instruction 
Memorandum (IM) was not meant to delay or discourage oil and gas 
projects. However, under the ``mitigation analysis'' section of the IM, 
BLM stated that if the project was ``. . . in an area of manageability, 
but cannot be practically mitigated, the manager may have discretion to 
defer action until the RMP has been updated''. This was not a 
reasonable option for industry. Most RMP's in southwest Wyoming are 
just beginning their plan amendment process and will be completed in 
three to four years. In the case of the Green River RMP, the Record of 
Decision was signed in 1997 and it could be ten (10) to fifteen (15) 
years before that document is updated, therefore, delaying project 
approvals indefinitely. This policy, in fact, was already discouraging 
development on thousands of acres in Wyoming where companies hold valid 
existing leases that were issued by BLM without this additional 
restriction.
    The Instruction Memorandum WY-2002-001 went even further in 
discouraging and delaying development by stating that the ``Field 
Managers should be prepared to offer the lessee a suspension if 
granting approvals are anticipated to exceed the 60-day limit''. 
Placing leases in suspense for an unknown period of time is not an 
acceptable, reasonable ``option'' for industry. Suspending leases does 
not improve our nations energy independence.
    PAW does not oppose reasonable protection measures for trails. In 
fact, the natural resource industry protects cultural and historical 
resources as much as or more than any other land use special interest 
accessing trails. There are no permits issued to access or use trails 
for recreational purposes, there are no exclusion stipulations for off-
road vehicle use (i.e. 1/4 mile on either side of the trail), and there 
are even two-track roads running parallel to or on the trail so that 
one may ``experience'' the same situation as the pioneers did one-
hundred-and-fifty (150) years ago and utilization of the two-track is 
not considered a visual intrusion. Trails were meant to settle the 
west, not preserve the west. The oil and gas industry does not directly 
affect the trails and minimizes indirect impacts, but this IM unfairly 
restricted industry before the proper scientific analysis was 
completed.
    PAW contends that the current CSU stipulation contained in the 
RMP's should be the guiding protection measure until adequate analysis 
has been conducted, the Trail Plan completed, subjected to public 
review, and the RMP's have been amended. PAW holds that Instruction 
Memorandum WY-2002-001 is contrary to the National Energy Policy and 
Executive Order 13212 as it creates adverse impacts on energy 
development, production, and distribution and is inconsistent with, and 
violates the spirit of, President Bush's directives. Instruction 
Memorandum 2002-053 was issued on December 12, 2001 by the Washington 
BLM Office, ``Preparation of a Statement of Adverse Energy Impacts'', 
which requires accountability from BLM for its decisions regarding 
energy related projects. Instruction Memorandum 2002-053 specifically 
mentions that denial or delay of energy projects due to ``. . . 
withdrawals, road closures, Historic Trail designations, scenic 
buffers, no leasing zones, no surface occupancy, and denial of access 
to mineral materials to support energy actions that would adversely 
impact energy development . . .'' must be documented. While this IM WY-
2002-001 does not overturn a decision made by the field manager, it 
does affirm the Administration's overriding concern regarding 
reasonable access to public lands and agency decisions, which 
discourage or deny access for the purpose of developing mineral leases.
    The National Historic Preservation Act, National Environmental 
Policy Act, Federal Land Policy and Management Act; and 36 CFR 800 
(Section 106: Consultation) have all been in effect for several decades 
and have changed very little in content. It is only through this most 
recent interpretation that land managers have significantly changed 
their requirements. Again, PAW supports reasonable protection of 
trails. In fact, industry currently provides more protection for trails 
than any other resource utilizing public lands. As stated earlier, this 
week Wyoming BLM released a subsequent memorandum withdrawing 
Instruction Memorandum WY-2002-001 and announced that it would abide by 
the overriding stipulation in the RMP's until the Wyoming National 
Historic Trail Plan is completed, sent out for public review and used 
to amend the RMP's. PAW supports this process; however, industry has 
seen the blueprint of what to expect in the future and should 
additional trails be congressionally designated, they will then be 
subject to the expanded protection measure which may significantly 
curtail development and violate valid existing rights.

                      OVERLAND AND CHEROKEE TRAILS

    Even though Congress has not acted, the Overland and Cherokee 
Trails are currently subject to the same restrictions as are 
congressionally designated trails (an avoidance area of 1/4 mile or 
visual horizon, whichever is less). However, these potential 
designations are complicated by the fact that they travel through what 
is known as ``checkerboard'' or the ``land grant'' area located in 
southwest Wyoming. In the 1860's, the federal government deeded every 
other section for twenty (20) miles on each side of the railroad to 
Union Pacific as an incentive to continue building the Union Pacific 
Railroad. Recently another company purchased Union Pacific Resources 
(the natural resource development arm of Union Pacific) and acquired 
those lands. This private company has expressed interest in further 
development in the land grant area. Additional restrictions to protect 
trails can only be enforced on public lands; however, two different 
situations can and will arise.
    First, when developing Environmental Assessments and Environmental 
Impact Statements for BLM related projects, BLM must analyze for 
cumulative impacts, regardless of land ownership, and often urges the 
applicant to commit to additional, ``voluntary'' mitigation measures 
regardless of land ownership and once the applicant agrees to the 
committed measures, they then become ``conditions of approval''. This 
procedure creates two troubling situations: 1) Should the applicant 
oppose the additional ``voluntary'' mitigation measures on private 
land, BLM denies the project; or 2) If the project is approved and the 
applicant accepts the mitigation measures regardless of land ownership, 
the land owners may deny access for the action based on the ``condition 
of approval''. Many times BLM requests these measures before first 
consulting with the land owner. Should the land owner deny access to 
the operator to conduct the ``condition of approval'', BLM denies the 
action. This concept of a ``connected action'' between public land and 
private or state land is being vigorously applied and is troubling to 
industry.
    Second and just as concerning, is a potential loss of federal 
minerals or ``drainage''. ``Drainage'' is a situation that arises when 
there are adjoining leases and one is producing and the other is not. 
The wells on the producing lease can ``drain'' the resources from 
beneath the non-producing lease. If an operator desires to drill a well 
on private lands within the checkerboard area and BLM has required 
additional protection measures adjacent to federal lands, the operator 
may choose to develop on private land where there are fewer 
restrictions. By consistently drilling on private land, a drainage 
situation may occur which will cause the loss of resources and 
royalties to the federal government. This is not a prudent management 
strategy by BLM, and its responsibility to achieve maximum benefit from 
resources produced on public lands is thwarted. While PAW understands 
BLM has the responsibility to manage public lands for all uses and that 
it must analyze for the cumulative effects of a proposed action 
regardless of land ownership, BLM does not have the authority to manage 
private property for cultural resources or historic trails.

                                S. 1069

    Senate bill S. 1069 is an Act relating specifically to land 
acquisition from willing sellers. PAW's concern with this legislation 
is that should a portion of the trail change ownership, all valid 
existing rights must be honored by the new land owner and reasonable 
access must be assured.

             INDUSTRIES' COMMITMENT TO PROTECTION OF TRAILS

    In a good faith effort, PAW met several times with members and 
directors of the Oregon-California Trails Association (OCTA) as a 
measure of understanding each other's needs and identifying locations 
that require additional protection. We have both had some success in 
negotiating and compromising for the benefit of both party's 
viewpoints. PAW remains committed to continuing its work with OCTA and 
finding ways to develop reasonable solutions for the proper protection 
of trails.

                               CONCLUSION

    PAW is not interested in preventing the designation of additional 
congressional trails and understands the importance of protecting our 
nation's history. We maintain that the existing restriction of a 1/4 
mile on either side of the historic trail or visual horizon, whichever 
is less, is adequate. We believe it is unreasonable to attempt to 
exclude development simply due to visual presence within five (5) miles 
from either side of the trail. Only in highly unique circumstances 
should the current stipulation be expanded. We respectfully request 
that the Committee consider giving PAW and other organizations a 
reasonable amount of time to work with trail advocates, such as OCTA, 
to develop a proposal to identify and protect unique trail resources 
while preserving economic opportunities.
    Mr. Chairman, members of the Committee, thank you again for the 
opportunity to share with you our perspective regarding congressionally 
designated trails in Wyoming.

    Senator Akaka. Thank you very much for your statement, Ms. 
Bower.
    I have a question for Mr. Watson.
    Mr. Watson. Yes, sir.
    Senator Akaka. The general practice is that after Congress 
authorizes a study to be undertaken for possible trail 
designations, further congressional action is required to 
designate a trail after the study is completed. This bill 
authorizes the Secretary to designate these additional routes 
without the need for further legislation.
    If the study found the routes were appropriate for 
addition, can you please explain why further congressional 
action is not needed before designating these as additions?
    Mr. Watson. No, I cannot, and we would have no problems in 
coming back to Congress to get them approved, for those that 
passed the test of the Trails Act to qualify.
    Senator Akaka. Thank you for your brief answer. Mr. Werner, 
you testified on the need for the willing seller legislation, 
so that the Federal Government would have the ability to 
protect critical resources, and to acquire rights-of-way for 
the trail. If this legislation is enacted and there is new 
acquisition authority for the nine trails specified in the 
bill, do you have any estimate as to how much land the Federal 
agencies are going to need to acquire?
    Mr. Werner. I do not have an estimate of how much land 
would need to be acquired for each trail, as I have not, in my 
written testimony, submitted. We have a general estimate of the 
amount of the trail that is now currently completed, protected, 
and open for use, and the amount that needs to be protected.
    I know, and I understand this from working with people in 
the National Park Service, and I assume this will be true for 
the Bureau of Land Management and the Forest Service as well, 
that a route for the trail is first determined through a 
planning effort, and what parcels would be needed to actually, 
in the case of a scenic trail, to finish a continuous route 
that someone could walk would be identified for possible 
purchase. And then if the land owners who own that land chose 
to sell the land, each year, in the annual appropriations 
process, the particular agency would bring a request to 
Congress for approval, that would probably, I would assume, 
involve maybe a number of parcels, half a dozen to a dozen or 
more, that had been worked out under negotiation.
    I know this was the practice along the Appalachian Trail, 
which you funded for acquisition for over 20 years; that, in 
fact, you would have, each year, a fairly specific list of 
parcels, and then a total amount of money to appropriate. In 
the case of the historic trails, as several of us have 
mentioned, it is not an intention to have a continuous right of 
way, but rather to protect specific sites, and those sites, I 
believe, have been identified in the comprehensive management 
plans for each of the trails. But there again, it is all 
totally dependent upon the desire of a land owner as a willing 
seller to come forward and say he or she would like to sell 
land, and at that point, you would have to determine how much 
land might need to be acquired, so it is very difficult to 
predict ahead of time.
    Senator Akaka. Ms. Bower, you have identified the concerns 
of the Wyoming oil and gas industries regarding the effect of 
trail designation on exploration activities in Wyoming. Do you 
have any comments or response to their concerns that the trails 
may affect oil and gas exploration?
    Ms. Bower. Mr. Chairman, ``they'' being the Bureau of Land 
Management or special interest groups?
    Senator Akaka. Well, let me ask you another one.
    Ms. Bower. Okay.
    Senator Akaka. Can you please clarify for me one issue in 
your testimony? With respect to the willing seller bill, is it 
correct that you do not oppose the Federal Government acquiring 
land from willing sellers for National Trail purposes, so long 
as valid existing rights are protected?
    Ms. Bower. Mr. Chairman, at this time that is our position. 
If it is owned by private interests changing into Federal 
control, or Federal control into private, we just want to make 
sure that either way it goes, we have access to our valid 
existing rights and are able to develop our leases. So that is 
correct, Mr. Chairman.
    Senator Akaka. Thank you very much.
    Senator Thomas, any questions?
    Senator Thomas. Thank you, Mr. Chairman. I am sorry I had 
to miss part of the testimony. We are having a Energy mess on 
the floor. No, that is not true. We are trying to get together 
with how we are going to go on that.
    Mr. Werner, I heard the last of yours. Would you think it 
appropriate to have any sort of congressional input, or 
limitation, to the acquisition of lands from a Federal agency 
from a Federal--from a willing buyer--seller?
    Mr. Werner. I know that you are the entity in the 
Government which finally pays all our bills, and I think that 
you have that authority and right to determine if the agency 
brings forth an acquisition and says it is going to cost so 
much money, to reject that because it costs too much money.
    Senator Thomas. You do not think that this requires that 
the agency bring it forth?
    Mr. Werner. Well, as I was just mentioning to Senator 
Akaka, the chairman, my understanding is that the way the 
Appalachian Trail acquisition was conducted, that each year a 
list of parcels was proposed for purchase with a total bottom 
line. And that was brought forth in the appropriations process, 
and I do not know, in the history of that, to what extent you 
and your colleagues chose to accept the whole list and fund the 
whole amount, or change the amount on a year-by-year basis.
    But I know that that would be the--I assume that is the 
same way that acquisitions are made for national parks, or 
forests, and things like that, that you do----
    Senator Thomas. No, that is not quite true. National Parks 
comes with a bill that lays out what the acquisition is going 
to be, and what the boundaries are going to be. If I read it 
right, this bill just says, it authorizes the agency to--
extends to the Secretary to administer these trails, and 
acquisition from willing sellers only. That is all it says. I 
think some of us are concerned.
    We are not anxious to have more Federal ownership than 
there needs to be to accomplish the goal, and so that seems to 
be one of the problems here, is that there ought to be some 
kind of accountability, specifically before this purchase takes 
place, I believe.
    I agree with the willing seller part. I do not have a 
particular problem with buying the lands; although, quite 
frankly, when you take a look at the trails in the West and you 
want a continuous trail of a thousand miles, there is a lot of 
that trail that is not used. There are special parts along it 
that become famous, and so on----
    Mr. Werner. Right.
    Senator Thomas [continuing). But the rest of it, it is the 
trail. But at any rate, I think it would be better if we had 
some kind of control on it.
    Mr. Werner. You, of course, appreciate, and I know--I mean 
I have had the distinct pleasure of being in Casper last 
summer, as a number of us did, for our annual conference, and 
have seen several of the locations along the historic trails, 
like Independence Rock, and----
    Senator Thomas. Absolutely.
    Mr. Werner [continuing]. That those are specific sites, 
that it is the preservation of those sites that are critical, 
it is not all of the route in between. It is only for the 
National scenic trails that Congress intended, and we are 
trying to carry out the idea of a continuous right of way that 
someone could walk. I realize that in some parts of Wyoming 
that walk on the Continental Divide is quite an endurance.
    Senator Thomas. I guess my point is, I do not have any 
problem with the idea of being able to complete these trails 
where it is appropriate, if you have willing sellers. I just am 
saying that I think we ought to make a little adjustment so 
that there is some accountability, in terms of the park having 
looked at it before, having said here is what we want to buy, 
here is what we can do, prove it, we can go. Those things are 
done pretty easily here, but I am not prepared to let the 
agency just have free reign to buy willing seller property.
    One of the stories that I do not know exactly was, I will 
sell you that right of way, I will sell you that trail, but you 
have to buy my whole place.
    Mr. Werner. If I could respond. I actually have worked over 
the years for the Ice Age Park and Trail Foundation, a non-
profit partner with the National Park Service for the Ice Age 
Scenic Trail in Wisconsin, and I did do a fair amount of 
negotiation with land owners. Back there, as you appreciated, 
it is a much different landscape than that that you have in 
Wyoming. When we talk about whole parcels of land, we are 
talking about 40 acres, or maybe 80 acres, or--a section 640, 
that is a big piece of land.
    What we had found repeatedly over the years, and this is 
working with local units of government, State government buying 
land for that trail, is that the land owners were saying, if 
you want to buy the right of way across the 40-acre parcel, I 
will be happy to sell it to you, but I am only going to sell 
you the whole 40. Now, that is a lot different than, say, 
selling a whole ranch in Wyoming, but that is one of the things 
that you have to deal with when you are working with willing 
sellers, because you have to find an accommodation to meet 
their needs as well as your own.
    What has been done in a number of cases is excess land has 
been then--land not needed for the trail has been used to trade 
to other land owners in exchange for their land to continue the 
right of way for the trail. The other point is, in the case of 
that trail, which I know is similar to the Appalachian Trail, I 
know is similar to the Pacific Crest Trail, where Federal 
agencies have done considerable acquisition, there has been a 
very rigorous planning process, which, in fact, has identified 
a specific route location for the trail, and an area in which 
land could be purchased.
    Now, the thing about willing seller is that you cannot, 
like with a highway project, say, this is exactly where we want 
to put it, and if you are not willing to sell your land to us, 
we can take the land by eminent domain. You have to provide 
enough leeway so that if this land owner does not want to have 
the trail, but the land owner next to him or her does, you can 
adjust that right of way a bit.
    So the accountability that you are asking for, Senator, 
which is, I agree with you, absolutely needed, I think comes 
about through the planning process that would be undertaken for 
each of these trails. There is no incentive for the agencies to 
do it if they do not have the authority to purchase land from 
willing sellers.
    Senator Thomas. I am not willing to turn it entirely over 
to the agency. I think they should do the study. I think they 
should make the recommendation. I think they should come to us, 
if it is anything sizeable, and we ought to have a rule in it. 
You talk about if they have to buy more--have you heard of an 
agency disposing of any land?
    Mr. Werner. Well----
    Senator Thomas. No, you have not.
    Mr. Werner. I am familiar at the State level and local 
level, and----
    Senator Thomas. Well, I do not need that carried on, 
particularly. The same is somewhat true with S. 213, and I use 
Martin's Cove as the--Martin's Cove, as a matter of fact, 
belongs to the BLM. So I suppose if they want to make that part 
of the Mormon Trail, I guess they could probably do that. But, 
again, I think if you are going to reach out, for instance, on 
private lands and so on, there ought to be some study, some 
recommendation here, and not--we cannot just grant the 
authority for these guys to do whatever they want to on public 
land, but with private land. That is my view.
    Mr. Hearty. Senator Thomas?
    Senator Thomas. Yes, sir.
    Mr. Hearty. May I be so bold as to assert that to the very 
best of my knowledge, S. 213 is concerned with study and 
marking and designation of the trail, and not with acquisition 
in any form, Martin's Cover, or otherwise?
    Senator Thomas. Yes. We can do that now, right?
    Mr. Hearty. Not as part of the Mormon Trail, because it is 
not designated as part of the Mormon Trail. That is the 
authority----
    Senator Thomas. No, but they can designate it, and they 
have. It has a special designation now for particular use. It 
does not have to be part of the trail, because it was not part 
of the trail in the first place. It was something that took 
place as part of the trail, but it is off the trail. And that 
is a little different because--but, again, you go to the 
acquisition of private lands under this bill in some cases.
    Mr. Hearty. I do not believe it is intended that way.
    Senator Thomas. Well, I hope not, and we will try and make 
sure that it is not. Well, thank you very much. Let me just say 
finally that we need to--and it is not trails, particularly, 
but we need to take a look at what our extension of park 
responsibilities are going to be. We will have people come in 
here and talk about, we do not have enough money, we do not 
have enough money, and yet every time they come in, we are 
giving them more responsibilities.
    I do not know how you handle that, but we have about 15 
different designations of the kinds of things that the Park 
Service is now responsible for taking care of, and it is 
getting to be a pretty heavy load. Which I--I mean, parks are 
great for us but we do need to be kind of responsible at some 
time and say what is the limit that this park can handle, or 
can we do it some other way? In any event, Mr. Chairman, thank 
you.
    Mr. Watson. Senator, if I might comment, most of the work 
being done on the trails is done by volunteers. And with our 
Oregon-California Trails Association, last year our 4,000 
members donated just over 50,000 hours to the trail, which is 
slightly better than a 10 percent increase over the year 
before, which supplements the agency's costs.
    Mr. Watson.--costs.
    Senator Thomas. No question. I admire what has been done 
and people who voluntarily do it but we still--the Parks still 
has the responsibility and that is what kind of sets it aside, 
I guess.
    Mr. Werner. I guess what we are just trying to remind you 
of is that, frankly, we think this public/private partnership/
stewardship of public lands that you have in the National Trail 
System, that has been fostered under the support you have 
given, is a good model to perhaps apply to the stewardship of 
more of our public land, and that we would encourage more 
volunteers, and which I think is--you know, just as the 
President is.
    We are certainly doing our part and we are going to 
continue to do our part.
    Senator Thomas. You have done an excellent job, there is no 
question. There are some ideas about how you manage some forest 
sections that way, locally. I do not think they are going to go 
very far, but nonetheless, that is an idea. So Mr. Chairman, 
thank you. Thank you all for being here. I appreciate your 
input. Thank you, Dru. It is nice to see you.
    Ms. Bower. Thank you, sir.
    Senator Akaka. Let me also join my friend here in thanking 
you for being here this afternoon, and providing the statements 
you have. That will be helpful to the committee.
    The hearing record will remain open for 2 weeks, if anyone 
wishes to submit additional comments or materials to be 
included in the record. I want to thank you all very much, and 
I welcome those who were introduced here by our witnesses, who 
have come to join you here, and wish you a safe trip when you 
return home.
    Senator Thomas. Follow the trail.
    Senator Akaka. Follow the trail. This hearing is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]

                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

              Statement of D. James Heaton, Kalamazoo, MI
    I am an active volunteer with the Chief Noonday Chapter, North 
Country Scenic Trail Association, here in SW Michigan. I hope that in 
my lifetime, the North Country Trial will exist to provide the same 
challenge and enjoyment for walkers visiting the northern tier of 
states as the very successful Appalachian Trail does for the East.
    I understand that your Subcommittee will be considering Senate Bill 
S. 1069, the so-called Willing Seller Authority Legislation. The House 
(H.R. 834) has already passed this critical legislation that will be 
integral to the Trail's completion. I hope The Trail comes to past in 
my lifetime.
    Background information on the Trial can be obtained electronically 
at: http://www.americanhiking.org/Policy/current/willingsel.html.
    More detailed information can be found in the testimony submitted 
by Gary Werner, Executive Director for the Partnership for the National 
Trails System at: 
http://www.northcountrytrail.org/testimony.pdf.
    Thank you very much for helping the North Country Trail Association 
overcome this watershed obstacle.
                                 ______
                                 
               Statement of Charles Krammin, Hastings, MI

    I try to get landowners permission for the North Country National 
Scenic Trail to pass through their property. I run into many problems 
(vandalism, hunting, trespassing, bikes, ATV's, snowmobiles, etc.) and 
even if I do get permission it can change with change of ownership.
    This requires trying to find a whole new corridor and many times 
return to roads, which is not a good hike anymore. A willing seller 
legislation would allow a more permanent nature once the trail is 
allowed. This try of legislation is already allowed on the Appalachian 
Trail, which I thru hiked in 1997-98, and am thankful that this was 
permanently protected, for my once if a lifetime experience.
    Please continue your good work on H.R. 834 and S. 1069.
                                 ______
                                 
              Statement of Richard L. Ehli, Smithtown, NY

    I urge you to support legislation known as the ``Willing Seller 
Authority'' act, the purpose of which is to provide a means to fund 
land acquisitions and easements for the putative National Trails 
System. These ``linear parks'' will become increasingly valuable to 
Americans in future years as the pressure of development continues to 
reduce the remaining open space that is in private hands.
    As one who has hiked the Appalachian Trail from Georgia to Maine, I 
came to appreciate the foresight of Congress in the 1960s to protect 
the Trail, much of which crossed private land. Had that step not been 
taken, I think its character would have deteriorated by now from 
numerous reroutes along public highways made necessary as land owners 
sold off the wood lands it crossed to real estate developers.
    The time to act is now!
                                 ______
                                 
                  Statement of Peter Wybron, York, NY

    I support H.R. 834 and S. 1069, an amendment to the National Trails 
System Act that would grant the federal government the authority to 
purchase land and easements for the North Country Trail from willing 
sellers. This bill is CRITICAL to our ability to complete the trail.
    Thank you.
                                 ______
                                 
             Statement of Todd Reich, Black River Falls, WI

    I support S. 1069, to allow the government to purchase land to 
complete the North Country trail. Without this ability it is doubtful 
the trail will ever be complete.
                                 ______
                                 
        Statement of Brian, Jill, and Mollie Hoort, Landsing, MI

    I write to you to express my support for H.R. 834 and S. 1069, 
amendments to the National Trails System Act. These bills are critical 
for the completion of the North Country National Scenic Trail.

    Please consider passing these amendments. In these times of urban 
sprawl and busy schedules, trail resources are wonderful weekend 
getaways for everyone at a minimum expense to government. These local 
trail systems mean a great deal to us throughout the year.

    Thank you for your consideration.
                                 ______
                                 
           Statement of Peter D. Nordgren, Lake Nebagamon, WI

    I would like to strongly express my support for S. 1069 and H.R. 
834, legislation to grant ``willing seller'' authority to the National 
Park Service for completion of trails under the National Trails System 
Act.

    I live near the North Country National Scenic Trail in northern 
Wisconsin, and have hiked on this trail for more than 25 years. I would 
like to see the North Country Trail completed across Wisconsin, for my 
own recreational benefit and that of my neighbors. I'd like to see it 
completed across its entire seven state, 4,600 mile route. To do this, 
however, will require crossing many miles of private land.

    I urge you to pass this bill to allow the Park Service to acquire 
trail easements or lands from willing sellers, so that our trail can be 
completed and available for the outdoor enjoyment of future 
generations.
                                 ______
                                 
           Lewis and Clark Trail Heritage Foundation, Inc.,
                                    Great Falls, MT, March 5, 2002.

    Sen. Akaka and Committee Members: I am writing today in support of 
Federal willing buyer/willing seller legislation as provided in H.R. 
834 and S. 1069. As president of the Lewis and Clark Trail Heritage 
Foundation, I represent more than 3,200 citizens from across the United 
States. The foundation is the private non-profit partner with the 
National Park Service on the Lewis and Clark National Historic Trail.

    Our Foundation's mission as the ``Keepers of the Story and Stewards 
of the Trail'' connects us with many public and private agencies and 
with private property owners along the 3,700-mile Lewis and Clark 
Trail.

    We respect the rights of private property owners. However, we see 
difficulties arise when citizens wish to preserve a piece of history 
with a federal land management agency. The Lewis and Clark National 
Historic Trail is one of five national historic trails for which there 
are no provisions for citizens to sell a trail site, or any land for 
that matter, to the Federal government. Eight of the national historic 
trails have such authority and so should the Lewis and Clark National 
Historic Trail.

    The Bicentennial of the Lewis and Clark Expedition is nearly upon 
us and preservation of the Trail is foremost in the minds of many 
Americans. We see S. 1069 as a positive step to assist private property 
owners and the nation as a whole in efforts to preserve our heritage 
and the story of the Corps of Volunteers for Northwest Discovery of 
1803-06. We hope committee members and the full Senate will support 
this legislation.

            Sincerely,
                                          Jane Sale Henley,
                                                         President.
                         Continental Divide Trail Alliance,
                                                          Pine, CO.
Hon. Daniel Akaka,
Subcommittee on National Parks and Recreation, Washington, DC.

Re: H.R. 834 & S. 1069--Willing Seller Acquisition Authority for Trails

    Dear Senator Akaka: I am writing as a businessman, Wyoming 
resident, and National Spokesperson for the Continental Divide Trail 
Alliance to urge your support for S. 1069 and H.R. 834 providing 
Federal agencies with authority to buy land from willing sellers along 
the Continental Divide National Scenic Trail an eight other national 
scenic and historic trails. I understand that this is the same 
authority these agencies have for all of the rest of the national 
scenic and historic trails.

    My first involvement with the Continental Divide National Scenic 
Trail came while I was Vice Chairman of the National Forest Foundation. 
I received a personal request from the USDA Forest Service to help 
create a public/private partnership in support of the multi-agency task 
force directed by Congress to complete this trail. It was a challenging 
request. However, the national historic trails; Lewis and Clark, 
Oregon, Mormon Pioneer, Nez Perce and Iditarod, also affected by this 
legislation, are key components of our heritage and I agreed to help.
    Hundreds of thousands of tourists follow the routes of these 
trails, bringing money with them into small towns and big cities. 
Smaller in number, perhaps, but no less enthusiastic, are the hikers 
and backpackers who come to explore the great beauty of the Rocky 
Mountains by walking sections of the Continental Divide National Scenic 
Trail in ever increasing numbers as this Trail is built. The 
Continental Divide National Scenic Trail captures the imagination in 
ways that other trails cannot.It is an element of the growing tourism 
economies of the states through which it passes. It is also important 
because it allows the average American from any walk of life or any 
location to share our Western values, appreciate Western lands and 
understand the need for their continued support of our Western way of 
life. A trail, like a ski area, provides great recreational opportunity 
with small visitor day impacts to forest lands or private landowner 
rights which remain so important to those of us living in rural ranch 
country.
    In addition, the value of a completed national trail system will 
provide invaluable opportunities for our citizens to live a healthy 
lifestyle. Walking is the number one form of recreation in our country. 
As you know, walking has numerous benefits for our population that is 
demonstrating alarming tendencies toward a more sedentary lifestyle and 
increased tendencies towards obesity and other related health risks.
    I believe that we should give the Federal agencies that manage 
these trails and the volunteers in organizations like the Continental 
Divide Trail Alliance that contribute so much to sustain them all the 
help possible to protect important historical sites along them and to 
provide a continuous place to walk along the Continental Divide Trail. 
Passage of S. 1069 or H.R. 834 will enable those agencies to do so, 
while protecting and restoring the rights of private property owners.
    I urge you to work for speedy passage of these beneficial bills.
            With deepest respect,
                                                 Stephen A. Fausel.
                                 ______
                                 
                                       Hayward, WI, March 14, 2002.
Hon. Daniel Akaka,
Chairman, Senate Subcommittee on National Parks, Dirksen Senate Office 
        Building, Washington, DC.

Subject: Trail Willing Seller Legislation

    Dear Chairman Akaka: I am writing to express my support for H.R. 
834 and S. 1069 which will permit the federal government to purchase 
land and casements for the North Country Trail from willing sellers.
    Much of the North Country Trail (about 2,600 miles) will cross land 
that is presently private. Since private land ownership (including 
corporate lands) is changing frequently, land and easement purchases 
will limit trail re-locations due to changing land ownership.
    Backpacking and hiking are my favorite hobbies. They help to keep 
me physically fit, since much of my work involves pushing a pencil or 
computer keys while seated at a desk. Backpacking and hiking trails 
such as the North Country also provide relaxation from high pressure 
work activities.
            Very truly yours,
                                     Robert R. Swanson Jr.,
                                      Chemical Engineer (Contract).
                                 ______
                                 
                                       Willits, CA, March 13, 2002.
Hon. Daniel Akaka,
Chairman, Senate Subcommittee on National Parks, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Chairman Akaka: I am writing to urge your support of an 
amendment to the National Trails System Act that would grant the 
Federal government the authority to purchase land and easements for the 
National Trails System from willing sellers. This bill passed the House 
last year (H.R. 334) and was recently introduced as S. 1069 in the 
Senate.
    The National Trails System Act in 1968 gave the Federal agencies 
administering these trails the responsibility to protect their 
important cultural and natural resources and to provide ``public access 
to [and] travel within'' them. Yet, they are prevented by Section 10(c) 
of the National Trails System Act, as currently written, from directly 
preserving these resources or from protecting a continuous right-of-way 
along nine of these trails--nearly one-half of the National Trails 
System. H.R. 834 and S. 1069 restore the ability of the Federal 
agencies to carry out the responsibility given to them by Congress in 
the National Trails System Act to protect nationally significant 
components of our Nation's cultural, natural and recreational heritage.
    H.R. 834 and S. 1069 also restore a basic property right to 
landowners: the right to sell the property when he or she wants to do 
so to whomever he or she wants to sell it. Section 10(c) of the 
National Trails System Act, as currently written, diminishes that right 
for thousands of people who own land along four national scenic trails 
and five national historic trails, by prohibiting Federal agencies from 
buying their land. H.R. 834 and S. 1069 restore this basic property 
right to sell their land to the Federal government should they desire 
to do so.
    For these reasons, I ask that the National Parks Subcommittee 
recommend adoption of H.R. 834 and S. 1069 to the Senate.
            Sincerely,
                                                  Richard Barfield.
                                 ______
                                 
                          Continental Divide Trail Society,
                                      Baltimore MD, March 18, 2002.
Hon. Daniel Akaka,
Chairman, Senate Subcommittee on National Parks, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Senator Akaka: We are writing in support of S. 1069 and H.R. 
834, the bills which would grant administering agencies the authority 
to acquire lands for the Continental Divide National Scenic Trail and 
other national trails on a willing seller basis.
    There are a number of places where the route of the CDNST might be 
improved if it could be relocated to lands that are currently in 
private ownership. We are especially concerned about the safety 
problems associated with the current routing along high-speed highways. 
But we would also welcome some relocations that would enhance the 
scenic or cultural enjoyment of the Trail in accordance with the 
objectives set out in the National Trails System Act. The proposed 
legislation would provide agencies with the necessary flexibility to 
improve the recreational experience whenever a private landowner 
indicated a willingness to sell his property.
    I am sure that our members, who reside in over 40 states as well as 
several foreign countries, share our enthusiastic support for passage. 
We ask that these views be included in the hearing record on their 
behalf.
            Sincerely,
                                             James R. Wolf,
                                                          Director.
                                 ______
                                 
                                     Whitehall, MI, March 14, 2002.
Hon. Daniel Akaka,
Chairman, Senate Subcommittee on National Parks, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Chairman Akaka: I want to take this opportunity to express my 
support for H.R. 834 and S. 1069. I am an avid hiker and have a dream 
of someday thru-hiking the North Country Trail. This trail needs 2,600 
miles of trail to build across what currently is private lands to be 
complete and this amendment to the National Trails System Act is 
crucial to our efforts to complete this trail. As evidenced by what has 
occurred to land surrounding the Appalachian Trail, this amendment will 
not only help to complete this trail but lands acquired will be 
preserved for future generations to enjoy.
    Thank you for your consideration.
            Sincerely,
                                                Richard M. Schultz.
                                 ______
                                 
 Colorado State Parks Board Resolution Recommending Designation of the 
Old Spanish Trail and the Northern Branch of the Old Spanish Trail as a 
                        National Historic Trail
    Whereas, the Colorado State Parks adopted a resolution on July 16, 
1993, supporting legislative designation of the Old Spanish Trail and 
the Northern Branch of the Old Spanish Trail as a historic trail; and
    Whereas, the United States Congress adopted a Study Bill sponsored 
by U.S. Senator Ben Nighthorse Campbell and Congressman Scott McInnis; 
and
    Whereas, the National Park Service has completed a study and has 
not recommended designation as a National Historic Trail; and
    Whereas, the Old Spanish Trail and the Northern Branch of the Old 
Spanish Trail proceeded through much of Western Colorado and followed 
part of the route traveled by the Dominguez-Escalante Expedition of 
1776 and was part of the trails used by Indians, trappers, mountain men 
and other early travelers in what is now the southwest part of the 
United States; and
    Whereas, the National Park Service study has only focused on the 
time period from 1829 to 1848 in its historical analysis; and
    Whereas, the Old Spanish Trail has an extensive history and should 
be designated as a National Historic Trail by the Congress of the 
United States.
    Be It Resolved, that the Colorado State Parks, and the Colorado 
State Parks Board hereby supports designation by the United States 
Congress of the Old Spanish Trail and the Northern Branch of the Old 
Spanish Trail as a historical trail.
    Be It Further Resolved, that United States Senators from Colorado, 
Ben Nighthorse Campbell and Wayne Allard, and United States 
Representative, Scott McInnis, be contacted and are hereby requested to 
initiate whatever efforts may be required to achieve National Historic 
Trail designation for the Old Spanish Trail and the Northern Branch of 
the Old Spanish Trail.
    Be It Further Resolved, that copies of this Resolution be sent to 
the Colorado Congressional Delegation and to such other federal, state 
and local officials as may be interested in the Old Spanish Trail and 
its Northern Branch.

    ADOPTED unanimously this 22nd day of September 2000.

                                   COLORADO STATE PARKS,
                                           Laurie A. Mathews, Director.

                                   COLORADO STATE PARKS BOARD,
                                           Edward C. Callaway, 
                                               Chairman.
                                 ______
                                 
                             Old Spanish Trail Association,
                                     Marysville, WA, March 5, 2002.
Hon. Daniel Akaka,
Chair, National Parks Subcommittee, Senate Energy and Natural Resources 
        Committee, Washington, DC.
    Dear Senator Akaka: On behalf of the Old Spanish Trail Association, 
a national organization established in 1994 to study, preserve and 
protect the Old Spanish Trail, I urge the Senate Energy and Natural 
Resources Subcommittee on National Parks to move S. 1946, the Old 
Spanish Trail National Recognition Act of 2002, out of committee with a 
Do Pass recommendation.
    This action will elevate this route to its rightful place in the 
pantheon of nationally significant historic trails, but it is the 
implication of this nomination that is still more important. It 
signifies that the Southwest, whose history has long been treated 
separately from mainstream America, finally will be integrated with the 
American nation in history as it is in geography. Braiding together 
these strands of history will have a major impact on the teaching of 
American history.
    We look forward to working with the National Park Service to 
develop a comprehensive management plan for the Old Spanish Trail. We 
hope we can count on your support for S. 1946, a vitally important next 
step in the effort to realize the Old Spanish Trail National Historic 
Trail.
            Very truly yours,
                                 Elizabeth von Till Warren,
                                                         President.
                                 ______
                                 
  Statement of Shane Henry, Assistant Director for Lands and Energy, 
       Colorado Department of Natural Resources, Denver, Colorado
    Mr. Chairman, I would like to thank you and the Subcommittee on 
National Parks for the opportunity to testify in support of the 
designation of the Old Spanish Trail and its Northern Branch as a 
National Historic Trail. I especially commend Senator Campbell for the 
tireless leadership he has provided on this effort. Senator Campbell's 
diligence, patience, and proven commitment to making this designation a 
reality is certainly worth noting. I would also like to thank his 
colleagues, Senator Allard and Congressman McInnis, and former Senator 
Hank Brown for the strong interest and effective support they have 
given to this issue. On behalf of Governor Bill Owens and the 
Department of Natural Resources I offer Colorado's enthusiastic support 
for S. 1946, a bill to designate the Old Spanish Trail and its Northern 
Branch as a National Historic Trail.
    The State of Colorado recognizes the Old Spanish Trail and its 
Northern Branch as an important part of our State's rich and eventful 
history. For centuries this well traveled trading route from Santa Fe 
to Los Angeles provided abundant regional commerce from the earliest of 
times. From the Utes, Navajos and Spanish explorers to New Mexican 
traders, French-Canadian trappers and American Settlers, the Old 
Spanish Trail and its Northern Branch played a significant role in all 
cultures that occupied the diverse West. Whether reading through 
journals of some of the most notable explorers who traveled this 
route--such as Fathers Dominquez and Escalante, Kit Carson and Lt. 
George Brewerton--or studying a historic map that shows the hundreds of 
communities and settlements this trail once served, there is no doubt 
as to the historical place this trail has in Colorado history. 
Designation of the Old Spanish Trail and its Northern Branch as a 
National Historic Trail would grant this historic trading route the 
official recognition it so richly deserves.
    The Colorado Department of Natural Resources has been an avid 
supporter of this effort going back to 1993, when our State Parks Board 
passed a resolution supporting historic trail designation of the Old 
Spanish Trail and its Northern Branch. The Colorado Department of 
Natural Resources and Colorado State Parks have followed with interest 
the National Park Service's feasibility study and analysis. We have 
also supported the efforts of the Old Spanish Trail Association and the 
ad-hoc committee of volunteers in Grand Junction, whose remarkable 
determination is largely responsible for why we are all here today.
    To reaffirm its support, Colorado State Parks on September 22, 
2000, unanimously adopted a resolution recognizing the historical value 
of the Old Spanish Trail and its Northern Branch, and asked for 
National Historic Trail designation by the Congress. I have included a 
copy of this resolution to be entered into the hearing record as part 
of this testimony.
    The State of Colorado's support for the designation is especially 
noteworthy today. As we speak, Governor Owens is announcing a 
proclamation designating 2002 as the Year of Trails in Colorado, as a 
way to celebrate the recreational and historic values that our amazing 
network of trails offers to Colorado citizens and visitors. I can tell 
you, the prospect of adding the Old Spanish Trail and its Northern 
Branch to the list of National Historic Trails in the same year 
Colorado is gearing up its promotion of state trails is exciting to 
Governor Owens and the State of Colorado. Colorado recognizes the 
numerous educational benefits and opportunities for historic 
interpretation that this designation would provide the citizens of 
Colorado. Perhaps just as important is the national perspective this 
designation would give to state and local educational programs for use 
in schools as they fill in the large ``gap'' in the National Historic 
Trails map of the United States.
    For all these reasons, Mr. Chairman, the State of Colorado is proud 
to lend its support to this important designation effort. Designation 
of the Old Spanish Trail and its Northern Branch has the support of 
Governor Owens, the Colorado General Assembly, the Department of 
Natural Resources and Colorado State Parks, CLUB 20, Mesa County, the 
City of Grand Junction, and many other communities along the trail in 
western Colorado. We hope this committee and ultimately Congress as a 
whole will support this locally driven, multi-state initiative and move 
with all deliberate speed to bring about its designation this year.
    Thank you for the opportunity to testify on this important matter.
                                 ______
                                 

                         Second Regular Session

                     Sixty-Second General Assembly

                           STATE OF COLORADO
    by senator teck, chlouber, and dyer; also representative smith, 
            alexander, berry, gagliardi, larson, and taylor.

                      SENATE JOINT MEMORIAL 00-002

   memorializing the members of the congress of the united states to 
   dedicate the old spanish trail and the northern branch of the old 
                   spanish trail as an historic trail
    Whereas, The Old Spanish Trail, which ran between Santa Fe, New 
Mexico, and Los Angeles, California, was the first trail into Utah and 
is still the least known; and
    Whereas, Frontiersmen and traders en route from Santa Fe to Los 
Angeles blazed a circuitous route to the north through Utah; and
    Whereas, Between 1839 and 1848, a major trade route was established 
between Santa Fe and Los Angeles which stretched approximately 1,121 
miles; and
    Whereas, The Old Spanish Trail and the northern branch of the Old 
Spanish Trail proceeded through much of western Colorado and followed 
part of the route traveled by the Dominguez-Escalante Expedition of 
1776; and
    Whereas, In 1853, Captain John Williams Gunnison of the U.S. Corps 
of Topographic Engineers was commissioned by the war department to find 
a route for a railroad through the Colorado Rockies along the 38th 
parallel; and
    Whereas, During his expedition, Captain Gunnison came upon the 
northern branch of the Old Spanish Trail in the San Luis Valley, which 
he followed into eastern Utah; and
    Whereas, The federal government's Salt Lake Wagon Road followed 
portions of the Old Spanish Trail at the northern branch to bring 
supplies to the Los Pinos Indian Agency in the Uncompahgre Valley and 
the budding mining camp of Ouray, Colorado, in the late 1870's; and
    Whereas, The Old Spanish Trail and its northern branch was 
instrumental in the creation and establishment of many of western 
Colorado's towns and communities, including Alamosa, many Monte 
Saguache, Gunnison, Montrose, Olathe, Delta, Whitewater, Grand 
Junction, Fruita, Loma, Pagosa Springs, Durango, Mancos, Dolores, and 
Dove Creek; and
    Whereas, Very little information is recorded about the northern 
branch and much more can be learned about the Old Spanish Trail; and
    Whereas, Beginning with the northern branch of the Old Spanish 
Trail in the 1830's and 1840's, followed by the Gunnison Expedition of 
1853 and the Salt Lake Wagon Road of the late 1870's, the Grand Valley 
of western Colorado has been the site of an historic route for 
travelers, now, therefore,
    Be It Resolved by the Senate of the Sixty-second General Assembly 
of the State of Colorado, the House of Representatives concurring 
herein:
    That the Congress of the United States is hereby memorialized to 
adopt legislation that dedicates the Old Spanish Trail and the northern 
branch of the Old Spanish Trail as an historic trail.
    Be It Further Resolved, That copies of this Joint Memorial be sent 
to the President of the United States. the President of the United 
States Senate, the Speaker of the United States House of 
Representatives, and each member of the Colorado congressional 
delegation.
                                 ______
                                 
Testimony of the Navajo Nation on the Long Walk National Historic Trail 
                         Study Act (H.R. 1384)
         h.r. 134--long walk national historic trail study act
          There is really a lot to this story, but I'll tell you just a 
        portion of it. The Journey to Fort Sumner began because of a 
        terrible war. That was what my grandmother told my mother, and 
        she passed the story on to me. My mother was probably a young 
        child at that time of the Long Walk. There is a place called 
        Dleesh Bii to (White Clay Spring), a little way southeast of 
        here. From there on up this way there used to be farms. One day 
        as some of the Dine were roasting corn from a pit, all of a 
        sudden a loud noise was heard from the direction of a place 
        call Atch'inna'ahi (Points Come Together). The noise resembled 
        thunder crashing. Our people were always on the alert, as it 
        was a fearful time. Other people sleeping on the hill also 
        heard the noise. Then someone yelled from the top of a hill, as 
        men did in those days. As the man was yelling, horses hoofs 
        were heard. The Utes were approaching fast. They attacked the 
        people who had been sleeping and killed a lot of them. Some 
        Dine fled up the hill where, on the very top, stood a man named 
        Ats'aali (Branch of the Wash) who saw the shooting and killing 
        taking place down below. He saw a lot of our people killed.

          (This story was told by Yesbah Silversmith who at age 90 
        still herds sheep near her home in Lukachukai, AZ.)

                              INTRODUCTION

    The Navajo Nation and its people have a rich and proud history. Our 
history recounts the journeys of our ancestors into the present world. 
(The Navajo are known as the Ni'hookaa' diyin dine `e bila'ashdla'ii 
(Five Finger Earth Surface Holy People), the name given to the Navajos 
by the Holy People at the time of their emergence into this world.) 
From time immemorial the lands between the four cardinal mountains of 
Sisnaajini (Blanca Peak, Alamosa, Colorado), Tsoodzil (Mount Taylor, 
Grants, New Mexico), Dok'o'oosliid (San Francisco Peaks, Flagstaff, 
Arizona), and Dibe Ntssa (Hesperus Mountains, Durango, Colorado) have 
been the sacred homeland of the Navajo. It is in this world, Ni'hodis's 
(the Glittering World) that a fairly recent historical event challenged 
the Navajo people's very existence within the boundaries of the sacred 
mountains of the Navajo land.
    The Navajo people have a culture unique to the United States 
Southwest. It has sustained the Navajos for countless generations. The 
symbolism imbued in the landscape has created unbreakable ties between 
the land and the people. It is the devotion to the sacred land and the 
enduring culture that has fostered a viable sovereign nation that 
continues to survive and prosper. It is the strong culture and sacred 
landscape that the Navajo cherish, and these fundamental values will 
keep the Navajo Nation and its people living between the four cardinal 
mountains in their sacred homeland. It is the strong culture and sacred 
landscape that the Navajo cherish. These fundamental values will keep 
the Navajo Nation and its people living between the four cardinal 
mountains in their sacred homeland. The strength of Navajo culture and 
its ties to the land have been challenged throughout time and continues 
to be challenged.
    The Spanish and later Mexican governments forced themselves into 
the aboriginal lands of the native population of the Southwest in the 
late 1400s and early 1500s. By the mid 1800's, the Navajo people, after 
approximately three centuries of unwelcome encroachment by Europeans 
and later Americans, were reacting to a situation that was tearing away 
their culture and land base. This era is bitterly remembered as a dark 
page in Navajo history--when the United States set out to obliterate 
Navajo culture, as a place known as Hweeldi, Bosque Redondo, or Fort 
Sumner, NM.

                             THE LONG WALK

    In the mid 1800s, before, during, and after the Civil War, 
enslavement and slave trade of Navajo women and children was still 
actively practiced in the Southwest. The slave raids were lead by 
Mexican and American settlers in retaliation for raids by Navajos 
against the communities that surrounded the Navajo lands.
    In 1849 and 1850, several failed peace negotiations with the United 
States government lead to a military campaign to subdue the Navajos. 
The Army would not tolerate any humane treatment of Navajo people who 
would not surrender. Realizing that the Navajos could not be subjugated 
in their own land, the United States viewed removal as the only 
alternative.
    Beginning in early 1860, the U.S. military posts in Navajo land 
under the leadership of Brigadier General James H. Carleton, set the 
stage for the campaign against the Navajo people. Colonel Christopher 
Carson, known as ``Kit Carson,'' commanded the Army troops that ravaged 
Navajo country, rounding up the Navajos to be removed to a foreign 
land. Almost every Navajo family today has their own family history 
describing the terrifying destruction and annihilation wrought by the 
determined Army campaign against the Navajos.
    Hweeldi, more than 350 miles from Navajo land, was the desolate 
site chosen to confine the Navajo people and force them to live 
according to the foreign laws of the United States government. 
Thousands of Navajos walked the entire distance to Fort Sumner under 
the watchful eyes of the U.S. military.Thousands of Navajos endured the 
trek, experiencing severe hunger, even starvation, and attacks from 
other tribes, only to arrive at the vile, flat land with its appalling 
living conditions that were devastatingly traumatic to the Navajo 
people.
    The Navajos were held as prisoners of war for four years at Fort 
Sumner. Poor planning, drought conditions, severe winters, and 
continued slave raids took their toll on the already suffering captive 
Navajos. Finally, in the spring of 1868, the worn leaders begged to 
return to the land within the Sacred Mountains. The drive to return to 
their homeland kept the people alive, despite the vast distance to 
which the Navajos had been removed. On June 1, 1868, a treaty was drawn 
up that ended this nightmare and allowed the Navajos to walk 350 miles 
back home.
    Today, the Navajo Nation has approximately 280,000 members spread 
across the vast reservation of more than 16,000,000 acres, and many 
live in urban centers throughout the U.S., and around the world. We 
still retain our language and many of our traditions. We are proud 
people, and we remember our history, the history handed down to use by 
our forefathers and mothers about the ordeal at Fort Sumner. The Navajo 
Nation supports the designation of the Navajo Long Walk Trail so that 
future generations of Navajo and other Americans will remember this 
dark page of American history, and that will not happen again, here in 
our Homeland, the United States of America.

                            RECOMMENDATIONS

  <bullet> The Navajo Nation urges Congress to defer to the Navajo 
        Nation in determining which route will be designated. Four 
        primary routes were used by the U.S. military during the Navajo 
        removal.
  <bullet> The Navajo Nation also recommends that Congress mandate that 
        the National Park Service consult with the Navajo Nation 
        regarding all interpretative material such as brochures, trail 
        markers, scenic off-ramps and the like.
  <bullet> The Navajo Nation urges Congress to add appropriations 
        authorization language to the bill so that the Navajo Nation 
        and the National Park Service are able to conduct the necessary 
        research, consultation, and maintenance of the Long Walk Trail.

                               CONCLUSION

    The horrible accounts of this period in Navajo history are not 
openly discussed or willingly shared by Navajo people. This test of 
Navajo fortitude remains in the shadows of American history, left to be 
forgotten. The proposed H.R. Bill 1384 Long Walk National Historic 
Trail Study Act to Bosque Redondo will insure that this page of Navajo 
and American history will be remembered and the Navajos who endured the 
Long Walk and incarceration at Hweeldi are properly honored.
    The Long Walk serves to remind society of the importance of 
cultural perseverance, and its designation as a national historic trail 
will help to ensure that this portion of Navajo history will never be 
forgotten. Hence, the Navajo Nation and its people support H.R. Bill 
1384 and respectfully request immediate legislative action to 
memorialize this important ratify page in American history.
                                 ______
                                 
   Statement of Hon. Doug Bereuter, U.S. Representative From Nebraska

    Chairman Akaka, Senator Thomas and members of the Subcommittee: I 
would like to begin by thanking you for giving me this opportunity to 
express my strong support for S. 213 and the House companion bill, H.R. 
37, which I introduced last year. I also sponsored a similar bill in 
the previous congress.
    I introduced H.R. 37 on January 3, 2001, and I am pleased to say 
that the House approved the legislation by voice vote on June 6, 2001. 
This bill is necessary and should be non-controversial. It is a 
straight-forward effort to provide for a one-time feasibility study 
update for four national historic trails--Oregon, California, Mormon 
and Pony Express.
    The measure simply recognizes the fact that there are additional 
routes and cutoffs which may deserve inclusion in the National Trails 
System. During the update period, the National Park Service will work 
with the appropriate trails groups and other interested parties to 
develop information on any new segment of trail in an effort to 
determine if it meets the criteria for addition to the system. No 
condemnation of private lands or Federal leases is to be contemplated 
to add any of these routes to the trails.
    Although the National Park Service is supportive of efforts to 
examine these additional routes, it has determined that legislation is 
needed to provide the authorization. That is the purpose of S. 213 and 
H.R. 37.
    All four trails covered in this legislation were instrumental in 
opening the American West, but each has its own unique story to tell. 
The California Trail enabled 70,000 people to follow their dream to the 
Golden State in 1849 and 1850. The Oregon Trail made it possible for 
fur traders, settlers and others to reach the Pacific Northwest.
    Although it lasted only about 18 months, the Pony Express achieved 
a cherished role in American lore. Its daring riders, which included 
Buffalo Bill Cody and Wild Bill Hickok, were able to deliver mail from 
St. Joseph, Missouri to Sacramento, California in ten days. The Mormon 
Pioneer Trail allowed the church members an opportunity to head west in 
search of religious freedom.
    These trails all follow at least part of the Platte River and 
Nebraska is proud to have as one of its nicknames the ``Historic Trails 
State.'' Many used the route through Nebraska to reach their goal 
further west. Those with more foresight decided to settle in Nebraska.
    I am pleased to note that during the 102nd Congress I introduced 
the legislation which was enacted to designate the California National 
Historic Trail and the Pony Express National Historic Trail as 
components of the National Trails System. The bill being discussed 
today will build on that effort and enable even greater recognition of 
the contributions made by these bold and courageous pioneers. Those who 
used the trails endured hardships that are difficult to imagine. They 
survived hazards such as wild animals, blizzards and floods as well as 
scarcity and disease.
    To those who bravely made it to their destination and those who 
died along the way we owe a huge debt of gratitude. I believe that S. 
213 and H.R. 37 will help to give proper recognition to the many heroic 
individuals who played such an important role in settling the American 
West.
    I would also like to take this opportunity to express my 
appreciation to the many dedicated volunteers who have been so 
supportive of these national trails. In particular, I would like to 
thank Bill and Jeanne Watson, with the Oregon-California Trail 
Association, Pat Hearty with the Pony Express Trail Association, Ron 
Anderson with the Mormon Trail Association, and Loren Horton with the 
Iowa Mormon Trail Association. The efforts to preserve and provide 
recognition for these trails is truly a grassroots labor of love 
involving thousands of individuals.
    Again, thank you for holding this hearing and giving me the 
opportunity to testify in support of S. 213 and H.R. 37. I would 
appreciate the Subcommittee's favorable consideration of this 
legislation.


</pre></body></html>
